<html>
<title> - OVERSIGHT HEARING ON THE LOWER RIO GRANDE RIVER WATER SECURITY-- OPPORTUNITIES AND CHALLENGES; AND LEGISLATIVE HEARING ON H.R. 2990, TO AMEND THE LOWER RIO GRANDE VALLEY WATER RESOURCES CONSERVATION AND IMPROVEMENT ACT OF 2000 TO AUTHORIZE ADDITIONAL PROJECTS UNDER THAT ACT, AND FOR OTHER PURPOSES.</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]





LOWER RIO GRANDE RIVER WATER SECURITY & H.R. 2990, TO AMEND THE LOWER 
RIO GRANDE VALLEY WATER RESOURCES CONSERVATION AND IMPROVEMENT ACT OF 
                                 2000

=======================================================================

                             FIELD HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                   May 3, 2002 in Brownsville, Texas

                               __________

                           Serial No. 107-112

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov

                                -------

77-881              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                       Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

                    SUBCOMMITTEE ON WATER AND POWER

                   KEN CALVERT, California, Chairman
            ADAM SMITH, Washington, Ranking Democrat Member

 Richard W. Pombo, California        George Miller, California
George Radanovich, California        Peter A. DeFazio, Oregon
Greg Walden, Oregon,                 Calvin M. Dooley, California
  Vice Chairman                      Grace F. Napolitano, California
Michael K. Simpson, Idaho            James P. McGovern, Massachusetts
J.D. Hayworth, Arizona               Hilda L. Solis, California
C.L. ``Butch'' Otter, Idaho          Brad Carson, Oklahoma
Tom Osborne, Nebraska
Jeff Flake, Arizona
                                 ------                                

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 3, 2002......................................     1

Statement of Members:
    Calvert, Hon. Ken, a Representative in Congress from the 
      State of California........................................     1
        Prepared statement of....................................     2
    Hinojosa, Hon. Ruben, a Representative in Congress from the 
      State of Texas, Prepared statement of......................     5
    Napolitano, Hon. Grace F., a Representative in Congress from 
      the State of California....................................     7
    Ortiz, Hon. Solomon P., a Representative in Congress from the 
      State of Texas.............................................     3
        Prepared statement of....................................     4
    Rodriguez, Ciro D., a Representative in Congress from the 
      State of Texas.............................................     6

Statement of Witnesses:
    Bach, Maryanne, Regional Director, Great Plains Region, 
      Bureau of Reclamation, U.S. Department of the Interior.....     8
        Prepared statement of....................................     9
    Campbell, Mary Lou, Volunteer Conservation Leader, Sierra 
      Club, Lone Star Chapter, Frontera Audubon Society..........    35
        Prepared statement of....................................    37
    Cantu, Arnoldo, Farmer, Oral statement of....................    51
    Derham, James M., Deputy Assistant Secretary of State for 
      Western Hemisphere Affairs, U.S. Department of State.......    12
        Prepared statement of....................................    14
    Feild, Frank, President and CEO, Brownsville Chamber of 
      Commerce...................................................    39
        Prepared statement of....................................    41
    Garza, Salvador Trevino, General Manager, Junta de Aguas y 
      Drenaje, Oral statement of.................................    73
    Halbert, Wayne, General Manager, Harlingen Irrigation 
      District...................................................    59
        Prepared statement on H.R. 2990..........................    62
    Jones, Kenneth N. Jr., Executive Director, Lower Rio Grande 
      Valley Development Council.................................    52
        Prepared statement on H.R. 2990..........................    53
    Marin, Carlos, Principal Engineer of the United States 
      Section, on behalf of Carlos Ramirez, Commissioner, 
      International Boundary and Water Commission, United States 
      and Mexico, Oral statement of..............................    16
    McCarthy, James A., Farm Credit Bank of Texas................    63
        Prepared statement on H.R. 2990..........................    65
    Ramirez, Carlos, U.S. Commissioner, International Boundary 
      and Water Commission, United States and Mexico, Prepared 
      statement of...............................................    17
    Rubinstein, Carlos, Rio Grande Watermaster, Texas Natural 
      Resources Conservation Commission..........................    55
        Prepared statement on H.R. 2990..........................    57
    Sparks, Sam, President, Valley Water District and Irrigation 
      District...................................................    51
    White, Jo Jo, General Manager, Hidalgo & Cameron Counties 
      Irrigation District #9.....................................    31
        Prepared statement of....................................    33

Additional materials supplied:
    Blankinship, David R., Texas Parks and Wildlife, Statement 
      submitted for the record...................................    76
    Carpenter, George W., General Manager, Hidalgo County 
      Irrigation District Number One, Statement submitted for the 
      record.....................................................    77
    Combs, Susan, Texas Agriculture Commissioner, Statement 
      submitted for the record...................................    77
    Lucio, Hon. Eddie Jr., State Senator, Texas State Senate, 
      Letter submitted for the record............................    79
    Maley, Joe, Director of Organization, Texas Farm Bureau, 
      Statement submitted for the record.........................    81
    Oliveira, Hon. Rene O., Texas House of Representatives, 
      Statement submitted for the record.........................    82
    Prewett, Ray, Texas Citrus Mutual and Texas Vegetable 
      Association, Statement submitted for the record............    83
    Rosson, C. Parr III, Aaron Hobbs and Flynn Adcock, Department 
      of Agricultural Economics, Center for North American 
      Studies, Texas A&M University, Statement submitted for the 
      record.....................................................    84

 
    OVERSIGHT HEARING ON THE LOWER RIO GRANDE RIVER WATER SECURITY--
OPPORTUNITIES AND CHALLENGES; AND LEGISLATIVE HEARING ON H.R. 2990, TO 
  AMEND THE LOWER RIO GRANDE VALLEY WATER RESOURCES CONSERVATION AND 
  IMPROVEMENT ACT OF 2000 TO AUTHORIZE ADDITIONAL PROJECTS UNDER THAT 
                      ACT, AND FOR OTHER PURPOSES.

                              ----------                              


                          Friday, May 3, 2002

                     U.S. House of Representatives

                    Subcommittee on Water and Power

                         Committee on Resources

                           Brownsville, Texas

                              ----------                              

    The Subcommittee met, pursuant to call, at 10 a.m.,at the 
University of Texas at Brownsville and Texas Southmost College, 
Science, Engineering and Technology Building--Lecture Hall, 80 
Fort Brown, Brownsville, Texas, Hon. Kenneth Calvert presiding.

     STATEMENT OF THE HON. KEN CALVERT, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Calvert. Good morning. The Subcommittee on Water and 
Power will come to order. Before I get into this hearing, this 
is an official hearing of the U.S. House of Representatives, as 
opposed to a townhall meeting. And, by definition, we have 
certain rules in the Committee of the House of Representatives. 
So I just wanted to read these out loud so everyone would 
understand.
    We would ask that there be no applause or demonstration in 
regard to testimony as this hearing moves forward. It's 
important that we respect the quorum of the House so we can 
respectfully move this hearing forward. With that, this is the 
oversight hearing on the Lower Rio Grande River Water Security 
Opportunities and Challenges and H.R. 2990, to amend the Lower 
Rio Grande Valley Water Resources Conservation and Improvement 
Act of 2000 to authorize additional projects under that Act, 
and for other purposes.
    There isn't a day that goes by that you don't read or hear 
about a drought or drought-like condition throughout this 
nation. In fact, I've been through a number of states 
throughout the United States--Washington State, Oregon State, 
the State of Utah, Colorado, Texas today, Arizona, Nevada--and 
this area, though, has certainly suffered particularly with 
this drought that you are experiencing.
    Participation levels and water supplies all across the 
United States are at record low levels, with Governors across 
the country declaring drought emergencies. In one case the 
Governor declared a drought emergency saying that some areas 
are facing the driest conditions in a century.
    Reservoirs on the eastern seaboard are at their lowest 
level in years, and water rations and restrictions are likely 
for this summer. The economic impacts of drought are felt by 
all.
    The hearing today addresses H.R. 2990, which would amend 
public law 106-576, signed by the President in the year 2000, 
and issues surrounding the need for legislation. I ask the 
members and the witnesses to focus on the challenges at hand, 
water supply problems along the lower Rio Grande Valley.
    The United States needs to work with Mexico to resolve the 
current water dispute on the Rio Grande River. Of that, there 
is no doubt. That's for President Bush and Presidente Fox to 
resolve. We're not here to negotiate treaties between 
countries, but we certainly will be listening to witnesses 
stressing the problems with Mexico upholding their treaty 
obligations and opportunities for us to transmit a message back 
to Washington, to hopefully the Administration, and to the 
Government of Mexico.
    I'd like to take an opportunity to excuse Congressman 
Hinojosa who had, unfortunately, a family emergency and will 
not be able to attend today. And I also wanted to express for 
my friend Henry Bonilla, who I've talked to on many occasions 
about this emergency, who, unfortunately, was unable to be 
here, and later I think he has a statement he wants to be 
entered into the record.
    [The prepared statement of Mr. Calvert follows:]

Statement of The Honorable Ken Calvert, Chairman, Subcommittee on Water 
                               and Power

    There isn't a day that goes by that you don't read or hear about a 
drought or drought-like conditions throughout our nation as well as 
areas around the world. Precipitation levels and water supplies all 
across the U.S. are at record low levels with Governors across the 
country declaring drought emergencies. In one case, a governor declared 
a drought emergency, saying some areas are facing the driest conditions 
in a century. Reservoirs on the Eastern Seaboard are at their lowest 
level in years with water rationing and restrictions likely for this 
summer. The economic impacts of drought are felt by all.
    The hearing today addresses H.R. 2990 which would amend P.L. 106-
576 signed by the President in the year 2000 and issues surrounding the 
need for this legislation. I ask the members and witnesses to focus on 
the challenges at hand--water supply problems along the Lower Rio 
Grande Valley. The United States government needs to work with Mexico 
to resolve the current water dispute on the Rio Grande River. Of that, 
there is no doubt, but that is for President Bush and Presidente Fox to 
resolve.
    We are not here to negotiate treaties between countries. I look 
forward to hearing from the witnesses and I thank Mr. Ortiz for 
inviting me to his district.
                                 ______
                                 
    Mr. Calvert. I'd like to introduce Congresswoman Napolitano 
from my home State of California, a good friend who's been with 
me at many of these water hearings throughout the United States 
and has listened and attended very beautifully, who also sits 
on the Subcommittee of Water and Power. And we appreciate your 
attendance here today.
    Congressman Rodriguez from Texas--I should point out that 
Congresswoman Napolitano was born here in Brownsville, Texas 
and raised and went to high school here and moved away to 
California, but I'm sure her heart is still here in 
Brownsville, Texas.
    Mrs. Napolitano. It's from here.
    Mr. Calvert. Congressman Rodriguez from Texas, and 
Congressman Hinojosa from Texas. But, certainly, I would not be 
here if it wasn't for my good friend Solomon Ortiz. Solomon has 
been talking to me about the problems of the Rio Grande for a 
number of years and wanted me to get up here to firsthand 
listen to the problems that this Valley has experienced and 
what we need to help resolve those issues.
    So, Solomon, I want to thank you for inviting me here and 
for your hospitality, and be certain that I will do everything 
possible to help, not only today, but in the future. And with 
that, we'd recognize an opening statement.

  STATEMENT OF THE HON. SOLOMON P. ORTIZ, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Ortiz. Thank you, Mr. Chairman. I want to say that I 
really appreciate you taking the time from your busy schedule 
to be with us today. You are really one that understands the 
seriousness of this problem, and we thank Congresswoman 
Napolitano and my good friend Ciro Rodriguez.
    Mr. Chairman, distinguished Committee members, and 
colleagues, we thank you for taking time from your busy 
schedule to hold this important water hearing in South Texas. I 
appreciate the Subcommittee on Water and Power coming to 
Brownsville, Texas at a crucial time when we are experiencing 
unparalleled problems with extraordinary consequences that 
we're facing today. I also would like to thank the University 
of Texas at Brownsville for holding these hearings.
    Today we're going to explore the opportunities and 
challenges our border region faces given an inadequate water 
supply. This is a difficult conversation for us, frankly, 
because we're speaking critically of our friends and neighbors. 
We have a strong relationship with our friends in Mexico, and 
our friendship is longstanding. You tell the painful truth to 
your friends. That is what we will do today, to be honest with 
our friends. Friends care, particularly friends who are 
signatories to an international treaty.
    While we continue to push for compliance for the water owed 
to the area under the 1944 Water Treaty, we must also address 
other conservation measures and options. H.R. 2990, the other 
component to this hearing, will implement water conservation 
measures considered in the development of the region and 
portion of the State of Texas water plan. And, of course, our 
sincere hope that Mexico complies with the treaty plays a big 
role in the recovery of our border area.
    While the border region continues to experience extreme 
drought conditions, Mexico has made little effort to deliver 
the water owed to the United States under the 1944 Water 
Treaty, which is extremely, extremely frustrating.
    For 5 years we have pressed the highest levels of 
government to work together on a plan to get Mexico to deliver 
the necessary water. Recently, my good friend, Congressman 
Bonilla, and I, in the Agriculture Appropriations Bill of 2002, 
asked the Department of Agriculture to estimate the value of 
the annual loss of United States Agriculture production due to 
the deficit in Mexican water deliveries.
    Early this week I was extremely disappointed when I 
received this report, which stated that the Department of 
Agriculture was unable to quantify such losses. I would like to 
submit this report for the record, and alongside that, I would 
like to also submit to the record a Texas A&M study by Dr. John 
Robinson, who is here today. His report extensively details a 
loss of about $1 billion in the last 2 years to our economy.
    His conclusions are based on a formula associated with an 
acre foot of water, 1.5 million of which have not been 
delivered to the United States.
    While our farmers and the region as a whole continue to 
suffer devastating economic losses, there is significant data 
showing that the Rio Conchos water is not being released into 
the Rio Grande. I would like to submit photos of satellite 
images which show the increased use of irrigation water in the 
Chihuahua area of Mexico. These images depict Mexico's 
increasing production of crops as well as the storage capacity 
in the area reservoirs.
    The economic viability likelihood of South Texas depends on 
water that Mexico continues to hold and on conservation of the 
water we do have. We need to continue to press the Federal 
Government to work with us on the water conservation projects 
currently outlined in H.R. 2990.
    I look forward to listening to all of our witnesses today 
as we work in a joint effort to ensure both water compliances 
as well as adequate water supply. We want to do all this in a 
spirit of cooperation and understanding with our friends in 
Mexico.
    Chairman, I thank you again for this historic opportunity, 
and I know that we have some very qualified expert witnesses 
today, and I hope that all of us in this room can learn from 
the statements that we will be listening to in the next few 
minutes. Thank you.
    [The prepared statement of Mr. Ortiz follows:]

   Statement of The Honorable Solomon P. Ortiz, a Representative in 
                    Congress from the State of Texas

    Mr. Chairman, distinguished committee members, and colleagues, 
thank you for taking time from your busy schedules to hold this 
important water hearing in South Texas.
    I appreciate the Subcommittee on Water and Power coming to 
Brownsville, Texas, at a crucial time when we are experiencing 
unparalleled problems with extraordinary consequences.
    I also would like to thank the University of Texas at Brownsville 
for hosting this hearing.
    Today we will explore the opportunities and challenges our border 
region faces given an inadequate water supply.
    This is a difficult conversation for us to have because we are 
speaking critically of our friends and neighbors.
    We have a strong relationship with our friends in Mexico, and our 
friendship is longstanding.
    You tell the painful truth to your friends; you do not sugar-coat 
it.
    That is what we will do today, be honest with our friends.
    Friends share; particularly friends who are signatories to 
international treaties.
    While we continue to push for compliance of the water owed to the 
area under the 1944 water treaty, we must also address other 
conservation measures and options.
    H.R. 2990, the other component to this hearing, will implement 
water conservation measures considered in the development of the Region 
M portion of the state of Texas water plan.
    The Achilles heel of our plan is that Mexico's compliance with the 
treaty plays a big role in the recovery of our border area.
    While the border region continues to experience extreme drought 
conditions, Mexico has made precious little effort to deliver the water 
owed to the United States under the 1944 water treaty, which is 
extremely frustrating.
    For five years, we have pressed the highest levels of government to 
work together on a plan to get Mexico to deliver the necessary water.
    Recently, my good friend Congressman Bonilla and I, in the 
Agriculture Appropriations Bill of 2002, asked the Department of 
Agriculture to estimate the value of the annual loss of U.S. 
agricultural production due to the deficit in Mexican water deliveries.
    Early this week, I was extremely disappointed when I received this 
report, which stated that the Department of Agriculture was unable to 
quantify such losses.
    I would like to submit this report for the record, and alongside 
that, I would like to also submit for the record a Texas A&M study by 
Dr. John Robinson who is here today.
    His report extensively details a loss of about $1 billion in the 
last two years to our economy--his conclusions are based on a formula 
associated with an acre-foot of water--1.5 million of which have not 
been delivered to the U.S.
    While our farmers--and the region as a whole--continue to suffer 
devastating economic losses, there is significant data showing that the 
Rio Conchos water is not being released into the Rio Grande.
    I would like to submit photos of satellite imagery which show the 
increased use of irrigation water in the Chihuahua area of Mexico.
    These images depict Mexico's increase in production of crops as 
well as the storage capacity in the area reservoirs.
    The economic viability and livelihood of South Texas depends on the 
water that Mexico continues to hold--and on conservation of the water 
we do have.
    We need to continue to press the federal government to work with us 
on the water conservation projects currently outlined in H.R. 2990.
    I look forward to listening to all of our witnesses today as we 
work in a collaborative effort to ensure both water compliance as well 
as an adequate water supply.
    We want to do all this in a spirit of cooperation and understanding 
with our friends in Mexico.
    Mr. Chairman, thank you again for this historic opportunity.
                                 ______
                                 
    Mr. Calvert. I thank the gentleman for his opening 
statement.
    Mr. Ortiz. I would like to include the statement of my good 
friend, Mr. Hinojosa for the record. He couldn't make it. He 
had a family emergency, and I would like to introduce it.
    Mr. Calvert. Without objection, the statement of Mr. 
Hinojosa will be entered into the record and also the reports 
and photos that was mentioned in the gentleman's opening 
statement will be entered into the record.
    [The prepared statement of Mr. Hinojosa follows:]

Statement of The Honorable Ruben Hinojosa, a Representative in Congress 
                        from the State of Texas

    Thank you Mr. Chairman, and I join my South Texas Colleagues in 
welcoming the Water and Power Subcommittee to the Rio Grande Valley!
    Let me begin by commending you for holding this field hearing here 
today. Water security is one of the most important issues faced by the 
people of South Texas, and you have clearly illustrated your dedication 
to addressing this issue by convening this important hearing. I thank 
you, and my constituents thank you, for all of your support.
    Let me also thank your staff for all of their hard work and 
interest in this issue. The Subcommittee staff have been extremely 
helpful in our efforts and I give both you and your staff my most 
sincere appreciation.
    Mr. Chairman, everyone here knows that water resources have posed a 
challenge to South Texas for years. However, this region has now come 
to a crisis situation. Our reservoirs are dangerously low. Mexico now 
owes us more than 1.5 million acre-feet of water under the 1944 Treaty. 
This is water that we have every reason to believe is being used by 
Mexico for its own irrigation purposes.
    Meanwhile, our farmers cannot even plant their crops because they 
do not know if they will have any water to irrigate them, and cannot 
afford to waste the seed. As a result, we are in jeopardy of seeing the 
largest number of farmers ever leave the business this year.
    The drought does not only affect farmers, however. Agriculture is a 
fundamental part of the South Texas economy, and the devastating 
effects of the drought upon our farmers are rippling throughout the 
entire economy. Economists have estimated that the water shortage has 
cost the Texas economy almost one billion dollars in the last ten 
years, and costs are now mounting at a pace of up to $400 million 
annually.
    Mr. Chairman, the bottom line is that the water shortage has cost 
our area thousands of jobs and millions of dollars. Given our chronic 
double digit unemployment rate, these are simply jobs that we cannot 
afford to lose.
    Furthermore, our agricultural and economic losses are not the only 
areas in which the drought has had a serious negative effect; the 
environmental impacts have been harmful as well. The Rio Grande River 
no longer flows into the Gulf of Mexico, which has adversely impacted a 
number of economically and ecologically important marine species.
    In written testimony, Mr. David R. Blankenship of the Texas Parks 
and Wildlife Department outlines the manner in which the loss of 
habitat resulting from the drought is disturbing to the marine 
ecosystems of South Texas. I ask unanimous consent that his testimony 
be entered into the record.
    Mr. Chairman, it is quite clear that the drought, compounded by 
Mexico's refusal to comply with the terms of the 1944 Water Treaty, is 
having a devastating effect upon all aspects of our community. While we 
must certainly find a way to press Mexico to deliver the water that it 
owes us, we must also be more efficient in transporting what little 
water we have. The legislation before the Subcommittee today, H.R. 
2990, will go a long way towards helping us modernize our antiquated 
water delivery systems.
    Currently, we lose up to 25% of our water to evaporation and 
seepage. Our legislation would allow the Bureau of Reclamation to 
conduct infrastructure improvement projects that would significantly 
improve conservation of our scarce water resources. I am grateful that 
the Subcommittee is acting on this important legislation.
    Let me close by once again thanking the Subcommittee and the 
witnesses for their dedication to this issue. I am confident that with 
the continued increase in attention at both the federal and state 
levels, we will be able to find long-term solutions to the water 
security challenges faced by our region.
    Thank you, and I yield back the balance of my time.
                                 ______
                                 
    Mr. Calvert. Is there additional opening statements?
    Mr. Rodriguez.

  STATEMENT OF THE HON. CIRO D. RODRIGUEZ, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Rodriguez. Thank you. First of all, Mr. Chairman, let 
me take this opportunity to thank you because I know that we 
would not be able to be having this hearing without your help 
and your assistance. So I want to personally thank you for 
coming down here, and I know that--we call him our dean--
Congressman Ortiz, without his help and assistance and his 
efforts, we wouldn't be able to have this. So I want to thank 
both of you.
    I personally have the distinction also of representing both 
Starr and Zapata at this time, and we have been devastated with 
the tourism around Zapata and the Falcon Dam and the situation 
that we find ourselves in, and it's an issue that as time goes 
on, unless we begin to deal with it now, it's only going to get 
worse. So it behooves us to get on this as soon as possible and 
start dealing with it.
    I know that in the last 5 years since I've been a 
Congressman, it's an issue that has come up time and time 
again. It's an issue that we have brought in before two 
administrations, as well as the third administration and 
President Fox, and we haven't been able to--we've been--we have 
received promises, but we haven't been able to get anything 
done.
    So we're hoping that as we hear testimony--and I would ask 
that if there is anyone that has any suggestions or 
recommendations as they make their testimony, we're willing to 
look at that and see what approaches might be the most 
appropriate to take.
    But I want to personally thank you for coming out here. I 
know how difficult it is to go to other states and other 
regions of the country, so I want to personally thank you and 
also express my sincere thanks to Congresswoman Napolitano 
coming all the way from California and being here with us. I 
know that Congressman Bonilla, who represents the region also, 
as well as Congressman Hinojosa, would be here if they could, 
but I know they have other emergencies that they couldn't be 
here. So I want to thank you personally.
    Mr. Calvert. I thank the gentleman. Congresswoman 
Napolitano.

 STATEMENT OF THE HON. GRACE F. NAPOLITANO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mrs. Napolitano. Thank you, Mr. Chair, and, again, I echo 
the remarks of my colleagues about your willingness to come to 
a district that has been very impacted by the lack of water. We 
just need to move on with this hearing, but I certainly want to 
thank the people who took time off to come and help us 
understand the situation better.
    But may I remind you that while this Committee and your 
representatives have been asking for action for years, it may 
go beyond that. You may need to talk to not only your Federal 
representatives, which you already have here--you know, he's 
been the one advocating for movement on this--but also your 
President because he is your very own. And he should be able to 
get the President of Mexico to sit down and resolve the issue 
with a Governor who doesn't want to come to the table. It may 
come to that, rather than the long strained affair of going 
through judicial courts. And I hope it won't come to that 
because we don't have time for that.
    So I'm willing to move whatever direction we can with you, 
Mr. Chair, your willingness to be able to be open to the dialog 
that's going to ensue, and let's hope that we can bring this to 
a higher level priority so that we can help this area recover 
and help this economy move forward and help the farmers. Thank 
you very much for having us.
    Mr. Calvert. Thank you. Now we're going to introduce our 
first panel. The first panel includes Maryanne Bach, the 
Regional Director of the Great Plains Region, Bureau of 
Reclamation, United States Department of Interior. Please step 
forward and take your seat at the dais. Jim Derham, the Deputy 
Assistant Secretary, Bureau of Western Hemisphere Affairs, 
United States Department of State. Carlos Marin, the principal 
engineer of the United States Section, International Boundary 
and Water Commission.
    Mr. Calvert. Let me remind the witnesses that, under our 
Committee rules, they limit their oral statements to 5 minutes. 
We'll have in that--so if you have any additional statement 
that you would like to have entered into the record, we will do 
so. We would like you to limit that so we'll have time to ask 
questions from the panel.
    And with that, I would recognize Maryanne Bach, on behalf 
of the Administration, to testify. You may begin.

  STATEMENT OF MARYANNE BACH, REGIONAL DIRECTOR, GREAT PLAINS 
REGION, BUREAU OF RECLAMATION, UNITED STATES DEPARTMENT OF THE 
                            INTERIOR

    Ms. Bach. Thank you, Mr. Chairman, and members of the 
Subcommittee and the Committee and the U.S. House of 
Representatives. Thank you for this opportunity to testify this 
morning. I do request that my formal prepared testimony be 
entered into the record in full.
    Mr. Calvert. Without objection, so ordered.
    Ms. Bach. And I'd like to abbreviate my comments from that 
written testimony. The Department applauds the efforts to 
improve and encourage water efficiency and to responsibly 
manage water supplies in the border. The Administration, the 
Department of the Interior, and the Bureau of Reclamation share 
the concern of this Committee, the Subcommittee, the State of 
Texas, and the water users over the severe water shortages that 
exist in this area.
    The Administration supports the goals to amplify and make 
more efficient use of the current water supply. The 
Administration is committed to working with this Subcommittee 
to effectively address these water supply concerns.
    The Department of the Interior testified in general support 
for the previous legislation that did become public law 106-
576. H.R. 2990, which does amend that prior statute, appears to 
maintain the intent of the existing law while authorizing 
additional projects and increasing the funding ceilings. In the 
spirit of working with the Committee and recognizing the goals 
of the intention of the bill, the Administration looks forward 
to working with the Subcommittee to address some provisions of 
the bill.
    We are aware that this is an area that has experienced a 
drought that began nearly a decade ago, putting a great strain 
on water delivery systems and causing farmers to change crop 
patterns, to stop farming altogether in some cases.
    The Department's involvement in the Lower Rio Grande 
Irrigation Districts dates back almost 50 years when 
reclamation began cooperative efforts to modernize facilities 
and improve water efficiency.
    Since enactment of the bill, reclamation has been working 
successfully and cooperatively with local entities in the Lower 
Rio Grande, the Texas Water Development Board, and the Texas 
Agricultural Extension Service of Texas A&M University on its 
implementation. And, in fact, through the Great Plains Region 
we were able to implement the criteria that are called for in 
the legislation and did so within 6 months after enactment of 
the legislation. That was public law 106-576.
    Reclamation has worked closely with districts that were 
involved in the first four authorizations. Funding for 
reclamation to begin preparation of a project plan and report 
has been advanced from one of the districts, and we would note 
that in order to implement the legislation that is--the 
proposal that is in front of you, that we would also need 
additional appropriations for that assistance.
    We applaud the many efforts taken by the universities, the 
state and local governments, and other Federal agencies. We 
pledge to continue the Department's coordination and 
cooperation as we all work together to conserve the water 
resources that are in such short supply.
    Mr. Chairman and members of the Subcommittee and U.S. 
Congress, we are very concerned about the effects of the water 
shortage in the Lower Rio Grande Valley, and we recognize the 
importance of improving the efficiency of water use and 
delivery in this part of the country, especially in light of 
the current drought conditions.
    Reclamation would be happy to work with Representative 
Ortiz, Hinojosa, and the Chairman of the Subcommittee, and to 
address the water supply problems as well as what reclamation 
can bring to the table. Thank you for the opportunity to 
testify today.
    Mr. Calvert. I thank the gentlelady.
    [The prepared statement of Ms. Bach follows:]

  Statement of Maryanne Bach, Regional Director, Great Plains Region, 
         Bureau of Reclamation, U.S. Department of the Interior

    Thank you for the opportunity to present the Department's views on 
H.R. 2990, which amends P.L. 106-576, the Lower Rio Grande Valley Water 
Resources Conservation and Improvement Act of 2000 and to discuss water 
issues in the Lower Rio Grande Valley.
    H.R. 2990 aims to provide areas in Texas that are facing a drought, 
with some important water saving measures. The Department lauds efforts 
to improve and encourage water efficiency, and to responsibly manage 
water supplies in the border region. The Administration, the Department 
of the Interior and the Bureau of Reclamation (Reclamation) share the 
concern of the Committee, the State of Texas, and the water users over 
the severe water shortages that exist in this area. The Administration 
supports the goals to amplify and make more efficient use of the 
current water supply. The Administration is committed to working with 
the Committee to effectively address these water supply concerns.
    H.R. 2990 would amend P.L. 106-576 by authorizing 15 additional 
projects in West Texas and in the Lower Rio Grande Valley of Texas. 
H.R. 2990 would increase the authorization for report preparation to 
$8,000,000, institute a 50% cap on federal report preparation costs, 
and increase the authorization for project funding to $47,000,000.
    The Department of the Interior testified in general support (with 
some suggested revisions) of the legislation that became P.L. 106-576. 
H.R. 2990 appears to maintain the intent of the existing law while 
authorizing additional projects and increasing the funding ceilings. 
However, given the numerous other demands on Reclamation's budget and 
the number of already authorized but unfunded projects, we have 
concerns about adding additional projects to Reclamation's workload at 
this time. We also have concerns over the lack of Administration review 
in the process for projects in this bill. It is important to note that 
appropriations will be needed in order to implement the original Act 
and any new authorizations.
    We are aware that this area is experiencing a drought that began 
nearly a decade ago, putting a great strain on water delivery systems 
and causing farmers to change cropping patterns or stop farming 
altogether. During that time, the area has received only a small 
portion of the precipitation that would normally occur. Amistad and 
Falcon Reservoirs, international storage dams operated by the 
International Boundary and Water Commission (IBWC) along the Lower Rio 
Grande, remain at record low levels. Further upstream, the Bureau of 
Reclamation reservoirs of the Rio Grande Project in southern New Mexico 
(Elephant Butte and Caballo) are also at their lowest levels since 
1982. Without a significant above average spring snowmelt runoff in 
2002, a curtailment in supply to water users in U.S. and Mexico will 
occur.
    On a frequent basis, we coordinate with the U.S. Section of the 
IBWC. We recognize that the U.S. IBWC has responsibility for monitoring 
water deliveries, treaty compliance and water availability along the 
international border. We defer to the witnesses from the State 
Department and the IBWC as to any comment on issues that relate to the 
treaty and water availability along the international border.
Reclamation Background in the Lower Rio Grande
    The Department's involvement with the Lower Rio Grande irrigation 
districts dates back almost 50 years when Reclamation began cooperative 
efforts to modernize facilities and improve water use efficiency. 
Beginning in 1954, investigations identified the need for 
rehabilitation of existing distribution systems and construction of 
main drain outlets for the La Feria and Mercedes Districts. Public Laws 
85-370 and 86-357 authorized the rehabilitation projects for La Feria 
and Mercedes districts respectively. Rehabilitation of the diversion, 
distribution, and drainage systems were accomplished through contracts 
among the local entities and Reclamation. Both the La Feria and 
Mercedes districts have paid out their repayment obligation associated 
with their projects and Reclamation is currently in the process of 
returning title to the La Feria lands conveyed to the United States as 
part of their contractual obligation. In addition, Reclamation entered 
into contracts with numerous irrigation districts in Harlingen, Hidalgo 
and Cameron counties pursuant to the Small Reclamation Projects Act of 
1956. All contracts are now paid out, with Donna Irrigation District 
being the most recent to fulfill its repayment obligation in 2001.
    Through the years, Reclamation has also prepared technical reports 
covering water conservation and basin studies to identify specific 
problems and needs of the area. For example, in September of 2000, 
Reclamation sponsored a Water Conservation Field Services workshop in 
Weslaco, Texas to present current information and technology updates to 
local irrigation districts regarding water measurements, management, 
and conservation.
P.L. 106-576
    In 2000, this subcommittee held a hearing, at which we testified, 
on H.R. 2988, the Lower Rio Grande Valley Water Resources Conservation 
and Improvement Act, whose Senate companion bill, S. 1761, became P.L. 
106-576 in December of that year.
    This legislation was an effort to provide some important water 
saving measures to an area of Texas that had suffered from drought. 
Briefly, the law directed the Secretary, acting through the 
Commissioner of Reclamation, to undertake a program, in cooperation 
with the State of Texas, water users and other non-Federal entities, to 
investigate and identify conservation and efficiency improvement 
opportunities. This was to include review of studies or planning 
reports prepared outside of Reclamation and the evaluation of 
alternatives such as lining irrigation canals and increasing the use of 
pipelines and other water delivery facilities.
    Within six months of enactment, the Secretary was to develop and 
publish a set of criteria to determine which projects would qualify and 
have the highest priority for financing. P.L. 106-576 provided certain 
minimum criteria and required the Secretary to make a determination of 
whether the project meets the criteria within a year of submittal of a 
request. The law also outlined the report, plan and cost-sharing 
requirements a project sponsor would need to fulfill to secure federal 
funding. The law authorized four projects and $10,000,000 for their 
construction if they later met these criteria and project requirements. 
The federal cost share was capped at 50% of any construction, with up 
to 40% to be contributed by the State. The remainder of the non-federal 
share was authorized to include in-kind contributions of goods and 
services, including funds previously spent on feasibility and 
engineering studies.
    Since enactment of the bill, Reclamation has been working 
successfully and cooperatively with local entities in the Lower Rio 
Grande, the Texas Water Development Board, and the Texas Agricultural 
Extension Service of Texas A&M University on its implementation. As 
noted, a requirement of P.L. 106-576 was issuance of criteria by which 
Reclamation would administer the law and determine project eligibility 
for federal funding. Reclamation prepared and shared criteria with 
state, local and other federal entities. The criteria were finalized in 
late June 2001, within the six month timeframe provided in P.L. 106-
576.
    Reclamation also has worked closely with those districts involved 
in the four authorized projects and with the Texas Water Development 
Board to address funding necessary to begin planning, designing, and 
reviewing the project plans and reports. Funding for Reclamation to 
begin preparation of a project plan and report has been advanced from 
one district. Three other districts are funding similar work by 
consultants. To date, three projects have been submitted to 
Reclamation. The authorized projects in the original bill have not been 
appropriated Federal funds.
    Reclamation will continue its efforts to implement the Lower Rio 
Grande Water Resources Conservation and Improvement Act of 2000 to help 
make the most efficient use possible of the available supply. 
Reclamation is also working with several entities in the Valley to 
field test various methods of controlling water hyacinth and hydrilla. 
These noxious plant species are spreading rapidly and are increasingly 
clogging irrigation district canals and intakes to pumping plants all 
of which greatly restrict the flow of water both within the irrigation 
systems and in the Rio Grande as well.
    The Department's activities in the Lower Rio Grande Valley are 
important components of government service in the area, but they are 
only one part. We applaud the many efforts taken by universities, state 
and local governments, and other federal agencies. We pledge to 
continue the Department's coordination and cooperation as we all work 
together to conserve the water resources that are in such short supply.
H.R. 2990
    Project Authorization: Under P.L. 106-576, projects would include 
on-farm activities to enhance water conservation, such as water 
application metering, concrete lining of canals and other irrigation 
system management improvements. The proposed legislation would continue 
these activities and also enable the Secretary to use cooperative 
agreements to work with the State of Texas, non-Federal entities, and 
institutions of higher education, to develop educational programs and 
establish on-farm training programs for state-of-the-art water 
application and conservation techniques. We are concerned that this 
bill, like the earlier bill, authorizes projects without first 
undergoing the Administration review required by Executive Order 12322.
    Project Eligibility Requirements: In 2000, the Commissioner of 
Reclamation testified on the legislation that became P.L. 106-576, 
stating that funding and eligibility decisions should be made on the 
basis of the relative costs associated with water conservation 
opportunities. The amendments presented in H.R. 2990 adopt the criteria 
established by Reclamation under the 2000 legislation. The Department 
supports this approach, as it provides more certainty to applicants by 
ratifying Reclamation's standards in law.
    One aspect of improving efficiency is ensuring that the 
improvements made provide the highest return. Reclamation's guidelines 
will assist in that. However, given that the authorization level is 
proposed to increase to $47 million, it also may be appropriate to 
analyze the projects (or sets of projects) in the context of the 
established Principles and Guidelines. A simplified approach to the 
analysis could possibly be used, such as a recent model for this area 
prepared by Texas A&M University as a potential tool for evaluating 
projects in the Lower Rio Grande Valley.
    Funding and Cost Sharing: The cost sharing provisions adopted in 
P.L. 106-576 establish a 50 percent federal maximum for construction 
costs. H.R. 2990 would amend Section 4 (b) of P.L. 106-576 to stipulate 
that the 50 percent federal maximum be applied to total project costs 
(e.g. studies, designs, reviews, approvals, construction) rather than 
just construction. This change would simplify the application of cost 
sharing provisions between the federal and non-federal contributions 
for completing a project. The $47 million amount for construction is 
subject to further review when project reports are developed.
Conclusion
    Mr. Chairman, we are very concerned about the effects of the water 
shortage in the Lower Rio Grande Valley and we recognize the importance 
of improving the efficiency of water use and delivery in this part of 
the country, especially in light of the current drought conditions. 
Reclamation would be happy to work with Representative Hinojosa and the 
Committee to continue to address the water supply problems.
    Thank you for the opportunity to present the Department's views. I 
am pleased to answer any questions.
                                 ______
                                 
    Mr. Calvert. Jim Derham, the deputy assistant secretary of 
Western Hemisphere Affairs, United States Department of State, 
be recognized.

STATEMENT OF JIM DERHAM, DEPUTY ASSISTANT SECRETARY, BUREAU OF 
 WESTERN HEMISPHERE AFFAIRS, UNITED STATES DEPARTMENT OF STATE

    Mr. Derham. Thank you, Mr. Chairman. I believe we submitted 
a formal statement to the staff.
    Mr. Calvert. Your full statement will be entered into the 
record.
    Mr. Derham. Thank you.
    Mr. Calvert. You may begin.
    Mr. Derham. Mr. Chairman and member of the Committee, I am 
pleased to discuss our recent diplomatic efforts to obtain 
Mexican water deliveries pursuant to the 1944 treaty on the 
utilization of the waters of the Colorado, Tijuana, and of the 
Rio Grande.
    This treaty governs the allocation between the United 
States and Mexico of the waters from those rivers. It has 
served for almost 60 years as an effective model of cooperation 
between nations sharing a common border and a common resource 
in a manner that has been beneficial to both nations.
    Today our overall relationship with Mexico is strong. Both 
of our countries are committed to cooperative efforts across a 
broad range of activities. The strong relationship with Mexico 
is integral to the well-being and security of the United 
States. Our bilateral relationship is grounded, in increasing 
measure, in shared values and perspectives on the world.
    However, today we see how increasing strains and competing 
demands on a finite resource, a shared resource, have put 
strains on our relationship. The Department of State would have 
not been invited to testify today if we did not have a serious 
problem with Mexico on water. And we believe Mexico must take 
additional measures to make water available to the United 
States in accordance with the 1944 treaty.
    Under this treaty, Mexico must delivery Rio Grande water to 
the United States from six of its tributary rivers in no less 
than an average annual amount of 350,000 acre feet in 
consecutive 5-year cycles. In situations of extraordinary 
drought, any deficiencies existing at the end of a 5-year cycle 
must be made up in the following 5-year cycle.
    In 1969 the United States and Mexico agreed in IBWC Minute 
234 that any deficit in a 5-year cycle must be made up in the 
following 5-year cycle, together with any quantity of water 
required to avoid a deficiency in that cycle.
    Mexico ended the prior water accounting cycle, the one that 
ended in 1997, with an unprecedented deficit of over 1 million 
acre feet. Mexico has claimed it was unable to provide more 
water due to extraordinary drought. The term ``extraordinary 
drought'' is not defined under the treaty, nor do the two 
governments have an agreed-upon interpretation of that term.
    Deliveries in the current cycle are also lagging far behind 
what is called for under the treaty. Unless significant water 
deliveries ensue, Mexico could end the current cycle with a 
cumulative deficit of almost 1.7 million acre feet of water 
owed to the United States.
    This poses a very difficult situation for our two 
countries. It is a fundamental tenet of treaty law that the 
parties must respect the obligations arising under treaties and 
implement those obligations in good faith.
    We believe that, in accordance with Minute 234, Mexico must 
cover the deficit by September 30th of this year and that the 
current cycle obligation is due at the same time, although as a 
practical matter, Mexico may not be able to do so.
    Since this issue was brought to our attention, the 
Department of State has been actively supporting the IBWC's 
efforts. The U.S. And Mexican government entrusted the IBWC 
with application of the treaty and with the settlement of any 
disputes that arise under it. The IBWC is the appropriate forum 
for developing specific plans for water delivery schedules due 
to its technical expertise.
    The Department of State's role has been to negotiate, 
mediate, and prod Mexico on this issue in both Washington and 
Mexico City. The Department and our embassy have done that, and 
Mexico has partially responded. For the past two water cycle 
years, Mexico has delivered more water than the annual average 
of 350,000 acre feet required under the 1944 treaty. This 
effort was made in what was some of the driest years of the 
past 10 years.
    The Department of State has also put this matter at the top 
of the agenda for the last session of the U.S./Mexico 
Binational Commission Committee meeting convened in September 
of 2001. We raised it in the Border Affairs Working Group, with 
the participation of Secretary of State Powell and Mexican 
Foreign Secretary Castaneda.
    Our Ambassador to Mexico City, Jeff Davidow, has worked 
particularly hard to focus the Mexican government's attention 
on the need to make greater progress. The Secretary of State 
has held lengthy discussions on this issue with the Mexican 
Foreign Secretary.
    No less than three other U.S. Cabinet officials, 
Secretaries O'Neill, Norton, and Veneman, have urged Mexico to 
make their immediate water deliveries in conversations they 
have held with their counterparts in the last few months.
    The concern and urgency about this issue is shared by the 
President. President Bush has repeatedly raised the problem 
with President Fox. On multiple occasions President Bush has 
impressed upon President Fox the need for Mexico to do more to 
meet its commitments.
    It was President Bush's efforts in Guanajuato at his first 
meeting with President Fox that led to the conclusion of Minute 
307 last March. This effort at partial fulfillment under the 
treaty represented a good faith effort by Mexico. It is 
unfortunate this positive first step was not followed up, and 
to date Mexico has failed to comply with the terms of 307, not 
only with respect to water deliveries for the past year, but 
also to the commitment to develop a schedule of deliveries for 
this year.
    President Bush again raised the water problem with 
President Fox in strong terms in past March in Monterrey. 
Following that meeting, National Security Advisor Rice 
contacted the Mexican Under Secretary of Foreign Relations, 
Enrique Berruga, and stressed the need for immediate water for 
the benefit of Texas farmers.
    In response, the Under Secretary expects to come to 
Washington soon. Recognizing the urgency of this problem for 
Texas farmers, we intend to again stress to Mexico the critical 
need to redress this matter. We believe we must work together 
for the mutual benefit of both of our countries. Thank you for 
the opportunity to testify.
    Mr. Calvert. I thank the gentleman.
    [The prepared statement of Mr. Derham follows:]

 Statement of James M. Derham, Deputy Assistant Secretary for Western 
              Hemisphere Affairs, U.S. Department of State

    Mr. Chairman and Members of the Committee, I am pleased to have the 
opportunity to discuss with you today recent diplomatic efforts of the 
United States Government to obtain Mexican water deliveries on the 
Lower Rio Grande pursuant to the 1944 Treaty between the United States 
and Mexico on the Utilization of the Waters of the Colorado and Tijuana 
Rivers and of the Rio Grande (1944 Water Treaty).
    This treaty governs the allocation between the United States and 
Mexico of the waters from those specified rivers and tributaries. It 
has served for almost 60 years as an effective model of cooperation 
between nations sharing a common border and a common resource in a 
manner that is beneficial to both nations.
    Today our over-all relationship with Mexico remains solid. Both of 
our countries are committed to furthering cooperative efforts across a 
broad range of activities. A strong relationship with Mexico is 
integral to the well-being and security of the United States. Our 
bilateral relationship with Mexico is grounded, in increasing measure, 
in shared values and perspectives on the world.
    However, today we see how increasing strains and competing demands 
on a finite resource a shared resource have put strains on our 
relationship. We would not have been invited to testify before you 
today if we did not have a serious problem with Mexico on water. It is 
undeniable that this region and its neighbors across the border have 
suffered from prolonged drought. Nonetheless, we believe Mexico must 
take additional measures to make water available to the United States 
in accordance with the 1944 Waters Treaty.
    Under this treaty, Mexico has an obligation to deliver to the 
United States one-third of the flow reaching the main channel of the 
Rio Grande from six Mexican tributary rivers. The treaty mandates this 
delivery be not less as an average amount in cycles of five consecutive 
years than 350,000 acre-feet of water annually. In situations of 
extraordinary drought or serious accident to the hydraulic systems on 
the measured Mexican tributaries, any deficiencies in water deliveries 
existing at the end of a five-year cycle are to be made up in the 
following five-year cycle.
    In 1969 the United States and Mexico agreed in IBWC Minute 234 that 
in the event of a deficit in a five-year cycle, the deficit must be 
made up in the following five-year cycle, together with any quantity of 
water that is required to avoid a deficiency in that cycle.
    Mexico ended the 1992-1997 water accounting cycle with an 
unprecedented deficit of over one million acre-feet of water. Mexico 
has claimed that it was unable to provide more water in the 1992-1997 
period due to extraordinary drought. The term ``extraordinary drought'' 
is not defined under the treaty, nor do the two governments have an 
agreed upon interpretation of that term. Deliveries in the current 
water accounting cycle, i.e. from 1997-2002, are also lagging far 
behind what is called for under the treaty. Unless significant water 
deliveries ensue, Mexico could end this water accounting cycle with a 
cumulative deficit of almost 1.7 million acre-feet of water owed to the 
United States.
    This poses a very difficult situation for our two countries, and is 
simply not acceptable. It is a fundamental tenet of treaty law that the 
parties must respect their obligations arising under treaties and 
implement those obligations in good faith. It is also well established 
that disputes concerning a treaty should be settled in conformity with 
the terms of the treaty and principles of international law.
    We believe that, in accordance with Minute 234, Mexico must cover 
the deficit by September 30, 2002, and that Mexico also has a current 
cycle obligation due at the same time, although as a practical matter 
it may not be possible for Mexico to do so. Mexico has stated that it 
has paid off the past cycle deficit and that due to the continued 
existence of extraordinary drought conditions, it has an additional 
five-years in which to cover the shortfall. However, the final water 
accounting of the waters Mexico has delivered in the 1997-2002 period 
and assignment of those waters to either the past or current cycle has 
not taken place. Thus, whether or not Mexico has paid off the deficit 
and fulfilled the current cycle obligation will not be determined until 
after September 30, 2002.
    Since this issue was brought to our attention in 2000, the 
Department of State has been actively supporting the efforts of the 
International Boundary and Water Commission (IBWC) to redress this 
issue. The U.S. and Mexican Governments entrusted the IBWC with the 
exercise of the rights and obligations of the two governments under 
this treaty and with the settlement of any disputes that arise under 
it. The IBWC is the appropriate forum for developing specific plans for 
water delivery schedules due to its technical expertise in the area of 
water management. Since 1997 this issue has been at the forefront of 
the IBWC agenda.
    The Department of State's role has been to negotiate, mediate and 
to focus attention on this issue in both Washington and Mexico City. 
The Department and our Embassy in Mexico City have done that and Mexico 
has partially responded. For the past two water cycle years, Mexico, in 
what we interpret as a positive step, delivered more water than the 
annual average of 350,000 acre-feet required under the 1944 Waters 
Treaty. This effort was made in what was most likely some of the driest 
of the past ten years.
    The Department of State has put this matter at the top of the 
agenda for the last session of the U.S.-Mexico Binational Commission 
Meeting that was convened in Washington in September of 2001 and 
highlighted its importance in the Border Affairs Working Group, with 
the participation of Secretary of State Colin Powell and Mexican 
Foreign Minister Jorge Castaneda. Once again we stressed the high 
importance of this issue to the United States Government. We urged 
Mexico to make more water available on the lower Rio Grande in order to 
make a good faith repayment on the debt and to avoid a deficit in the 
current cycle.
    Our Ambassador in Mexico City, Jeffrey Davidow, has worked 
particularly hard to focus the Mexican Government's attention toward 
the need to make greater progress in this area. The Secretary of State 
has held lengthy discussions on this issue with the Mexican Foreign 
Minister. No less than three other United States cabinet officials have 
urged Mexico to make immediate water deliveries in conversations held 
with their Mexican counterparts in the last few months.
    Everyone in this Administration is aware of the high priority and 
genuine concern President Bush has for this issue. Every meeting and 
every conversation President Bush has had with President Fox has been 
an opportunity to impress upon President Fox the need for Mexico to do 
more to meet its commitments. It was President Bush's efforts at his 
first meeting with President Fox at Guanajuato that led to the 
conclusion of Minute 307 last March. This effort at partial fulfillment 
of its obligation to the United States under the 1944 Waters Treaty 
represented a true good faith effort by Mexico. It is unfortunate that 
this positive first step, was not followed up, and that, to date, 
Mexico has failed to comply with the terms of
    Minute 307, not only with respect to water deliveries for the past 
year, but also with respect to the commitment to develop a schedule of 
deliveries for this year by December 2001.
    In all of our efforts, we have stressed that any plan to be 
developed must be coupled with a commitment to long-term solutions. We 
urged Mexico to work within the IBWC to develop a comprehensive 
solution to this problem and to develop a formula that would give the 
highest priority to honoring its treaty obligations to the United 
States. We recognize that measures to improve infrastructure and 
conserve water are a must on both sides of the border, as evidenced in 
the legislation you have come to consider. Water is too precious a 
commodity to waste.
    When President Bush traveled to Monterrey in March, he again raised 
the water problem with President Fox in strong terms. Following the 
meeting, National Security Adviser Condoleezza Rice contacted the 
Mexican Under Secretary of State, Enrique Berruga, and stressed the 
need to have a commitment to make immediate water deliveries for the 
benefit of Texas farmers. In response, the Under Secretary has 
consulted with Mexican officials and expects to come to Washington 
soon. Recognizing the urgency of this problem for Texas farmers, we 
intend to meet with Under Secretary Berruga's delegation and again 
impress upon Mexico the critical need to redress this matter. We 
believe that neighbors can not be allowed to become estranged but must 
work together for the mutual benefit of both of their peoples.
    Thank you for the opportunity to testify today. I would be pleased 
to respond to any question you or other members of the Committee may 
have.
                                 ______
                                 
    Mr. Calvert. Carlos Marin, the principal engineer, United 
States Section, International Boundary and Water Commission. 
You may begin your testimony.

STATEMENT OF CARLOS MARIN, THE PRINCIPAL ENGINEER OF THE UNITED 
  STATES SECTION, INTERNATIONAL BOUNDARY AND WATER COMMISSION

    Mr. Marin. Thank you, Mr. Chairman. Mr. Chairman, I'd like 
to request that the written testimony be entered into the 
record.
    Mr. Calvert. Without objection, so ordered.
    Mr. Marin. Mr. Chairman and members of the Committee, I am 
Carlos Marin, principal engineer for the U.S. Section of the 
International Boundary and Water Commission. I am pleased to 
come before you today to present this testimony on behalf of 
Carlos M. Ramirez, commissioner for the U.S. Section, which is 
normally referred to as IBWC, concerning the deliveries of 
waters to the U.S. Section--United States under the 1944 Water 
Treaty.
    The deficiency of these water deliveries by Mexico is a 
great concern to Commissioner Ramirez. He is aware of the 
hardship that the drought and the shortfalls of Mexico 
deliveries have had on the South Texas Region. He has given a 
top priority to the effort of the IBWC to arrive at a 
satisfactory water delivery plan for the short and long-term.
    I have not--Mr. Derham here has covered the requirements of 
the 1994 treaty, and I will just skip that portion of my 
testimony here since that would be repetitive here.
    The U.S. Section, though, continues to urge Mexico to 
provide water from Mexican allocation and insists that Mexico 
provide technical information concerning the conditions in the 
Rio Grande Basin in Mexico.
    The IBWC conducted several technical meetings toward this 
end in 1997, '98, '99, 2000, and 2001, and continues even 
today. These meetings often included the participation of South 
Texas irrigators and officials from the State of Texas. 
Apparently those technical meetings--in those technical 
meetings the IBCW continues discussions aimed at arriving at a 
short and medium-term water delivery plan from Mexico water 
sources and for a long-term effort in assuring deliveries of 
the U.S. Allocation.
    Mexico indicated that drought conditions and low storage in 
its reservoirs made it difficult to make the deliveries. The 
U.S. Section supports the Department of State or just Mexico to 
provide water to the United States from its treaty tributary 
reservoirs and other sources in order to deliver approximately 
400,000 acre feet of water immediately to Texas users.
    In early 2000 Mexico agreed to this request and 
subsequently transferred ownership to the United States of 
188--138,000 acre feet in storage at the international 
reservoirs. Additionally, it agreed to assign the United States 
for a limited amount of time its share of water from the Rio 
Grande from unmeasured tributaries, water normally shared 50/50 
between the two countries.
    This action resulted in a delivery by Mexico during the 
1999/2000 cycle year of approximately 400,000 acre feet. In 
late 2000 negotiations between the two sections of the IBWC 
focused on a plan for the 2000/2001 cycle year.
    President Bush reinforced the need for Mexican water 
deliveries at his meeting with Mexican President Fox in early 
2001. In response to President Bush's initiative, IBWC 
negotiated results in Minute 307 signed in March of 2001. The 
agreement provided a frame work of action for Mexico to deliver 
600,000 acre feet during the 2000/2001 cycle year. The Minute 
also provided a framework for additional discussions for long-
term solutions.
    Unfortunately, Mexico deliveries under Minute 307 only 
reached 227,000 acre feet. Mexico urged--argued that low 
precipitation in the basin prevented it from reaching the 
required volume of 600,000 acre feet. The United States urged 
Mexico to release water from Mexican reservoirs to cover the 
shortfall with contingency plan provided for in Minute 307.
    The United States also urged Mexico to arrive at a water 
delivery plan for the final year of the current accounting 
cycle and to develop understanding to target the United States 
allocation in the future.
    Mexico continues to assert that drought and those storage 
conditions allow for the need to satisfy its own water needs, 
making it difficult to provide water. The United States Section 
continues to assert that with present storage and projected 
inflows into the Mexican reservoirs and reduced irrigation in 
Mexico, that there is sufficient water available in Mexico to 
deliver to the United States a partial fulfillment of its 
obligations.
    The U.S. IBWC will continue to work actively on behalf of 
the U.S. Government and State of Texas, and we welcome your 
support for our efforts. Thank you for the opportunity to 
testify today. And I will be pleased to respond on behalf of 
Commissioner Ramirez to any questions that you or the other 
members of the Committee may have.
    Mr. Calvert. Thank you.
    [The prepared statement of Mr. Ramirez follows:]

      Statement of Carlos M. Ramirez, United States Commissioner, 
              International Boundary and Water Commission

    Mr. Chairman and Members of the Committee, I am pleased to come 
before you today to present this testimony concerning deliveries of 
waters by Mexico to the United States under the United States-Mexico 
Treaty for Utilization of Waters of the Colorado and Tijuana Rivers and 
of the Rio Grande, signed February 3, 1944 (1944 Water Treaty) and on 
the efforts made by the United States Section of the IBWC to obtain 
additional water deliveries from Mexico in fulfillment of its 
obligations to the United States under the 1944 Water Treaty.
Background
    The IBWC is an international organization charged by the United 
States and Mexican Governments with the execution of the provisions of 
the 1944 Water Treaty and settlement of differences that may arise from 
such application. The IBWC is made up of a United States Section and a 
Mexican Section. The United States Section is an independent federal 
agency that operates under the foreign policy guidance of the 
Department of State.
    The Treaty allocates to each country the waters of the Rio Grande 
from Fort Quitman, Texas to the Gulf of Mexico, a length of some 1,100 
miles. The Treaty assigns to the IBWC the responsibility to jointly 
measure and account the waters allocated to each country. The IBWC is 
also responsible, pursuant to the 1944 Treaty, for the construction, 
and operation and maintenance of international storage dams (Amistad 
and Falcon Dams) that allow both countries to make the maximum use of 
their allotted waters. Amistad and Falcon Dams allow control and 
storage of waters from sources in the two countries, which can then be 
released for later use as needed. The Lower Rio Grande Valley in Texas 
depends on these stored waters for irrigation and municipal and 
industrial uses.
Allocation of Waters
    Under Article 4 of the 1944 Water Treaty, the United States is 
allotted all the waters from tributaries in the United States. Mexico 
is allotted all the waters from tributaries in Mexico below Falcon Dam. 
Both countries are allotted one-half of the flows in the main stem of 
the Rio Grande and from unmeasured tributaries not specifically 
allotted. Mexico is allotted two-thirds of the waters that arrive in 
the Rio Grande from six Mexican tributaries between Fort Quitman, Texas 
and Falcon Dam (treaty tributaries). The United States is allotted one-
third of the flows that arrive in the Rio Grande from those treaty 
tributaries a minimum of 350,000 acre-feet as annual average in cycles 
of five years. Should a cycle of five years end in deficit for reasons 
of extraordinary drought or serious accident to the system, that 
deficit shall be made up in the next five year cycle. This provision 
was established because of the erratic nature of the flows in the 
Mexican tributaries. The treaty also considered this erratic nature of 
the flows when it authorized the IBWC to construct and operate and 
maintain the International Dams Amistad and Falcon.
Water Deliveries 1992-1997
    During the period between October 3, 1992 and October 2, 1997, 
Mexico delivered to the United States 726,151 acre-feet of water 
towards fulfillment of its obligation under Article 4, Paragraph B of 
the 1944 Water Treaty. This resulted in a deficit of 1,023,849 acre-
feet of water owed to the United States as of September 30, 1997.
Water Debt Coverage 1997-2000
    In late 1997, the United States Section of the IBWC (U.S. Section) 
requested agreement with the Mexican Section of the IBWC on the volume 
in deficit and application of provisions in IBWC Minute No. 234 for 
coverage of the deficit with waters from Mexico's portion of the Treaty 
Tributaries and the transfer to United States ownership of Mexican-
owned water in storage at the international Falcon and Amistad 
Reservoirs. Mexico provided the U.S. Section a debt payment proposal 
however in April 1999, the U.S. Section objected to the proposal and 
urged application of the Minute No. 234 provisions for debt coverage 
with Mexican waters and requested a technical meeting with the Mexican 
water authorities, in the context of recent agreements that Mexico 
provide more detailed information concerning conditions in the Treaty 
Tributary basins. During a technical meeting in 1999, Mexico informed 
that drought conditions had made it difficult for Mexico to provide the 
runoff and reiterated Mexico's intention to cover the deficit when 
excess flows became available. Mexico stated that Rio Conchos Basin 
reservoirs were at 26 percent of conservation capacity and that the 
reservoirs in the Salado Basin, the larger of the Treaty Tributary 
Basins was at 11 percent of storage capacity. Mexico reported lower 
than normal precipitation for the 1993 1998 period.
    The U.S. Section requested more detailed information but observed 
in late 1999, that based upon the limited information Mexico had 
provided there appeared to be an opportunity for Mexico to operate its 
Treaty Tributary reservoirs in a manner that would allow application of 
provisions of Minute No. 234 relating to debt coverage with Mexican 
owned waters. Further, the U.S. Section observed that storage of 
Mexican owned waters at the international reservoirs was such that 
there was also an opportunity for Mexico to transfer ownership of some 
of those waters to the United States as provided in Minute No. 234. 
Finally, the U.S. Section observed that water deliveries in the current 
cycle (1997-2002) were significantly below the annual average of 
350,000 acre-foot obligation and urged the operation of Mexico's Treaty 
Tributary reservoirs in a manner that targets the United States 
allotment. At technical meetings in early 2000, Mexico informed that 
the deficit could only be covered in the event of excess flows, but 
agreed to an emergency release of waters from the Rio Conchos to 
increase Mexican storage at the international dams where the waters 
could be transferred to United States ownership.
    The U.S. Section in March 2000, reiterated its call for a good 
faith implementation plan comprised of immediate water releases from 
the Conchos River and parallel mid and longer term planning efforts 
designed to cover the deficit and to target the U.S. allocation in 
future years. In tandem with these efforts, the United States 
Department of State initiated a series of demarches with the Mexican 
Foreign Ministry in which it urged Mexico to honor its treaty 
obligations to the United States. In response, the Mexican Section in 
March 2000, agreed to transfer ownership of 137,821 acre-feet from 
international storage in Amistad and Falcon Reservoirs to the United 
States and to temporarily assign to U.S. ownership its 50 percent share 
of the unmeasured tributary flows from Mexico in the Rio Grande reach 
between Fort Quitman and Falcon Dam. These actions were intended to 
provide to the United States the minimum annual average of 350,000 
acre-feet and an additional volume, which the U.S. Section considered 
as a total target goal of 400,000 acre-feet for the water year of 
October 1, 1999 through September 30, 2000. This volume coincided with 
the request of Texas irrigators.
    At the close of the third year of the present five-year accounting 
cycle, that is from October 1, 1997 September 30, 2000, Mexico had 
delivered a total of 407,087 acre-feet of water leaving a prior cycle 
deficit and the current cycle obligation of 1,381,362 acre-feet of 
water.
U.S. Allocation Target Framework Talks 2000-2001
    In June 2001, the IBWC opened discussion concerning a framework 
that Mexico could adopt with respect to management of its treaty 
tributary reservoirs that would target the annual United States 
allotment as a high national priority. However, these discussions were 
deferred in order to develop a water delivery plan for the October 1, 
2000 September 30, 2001 cycle year.
Minute No. 307 Water Deliveries
    In August 2000, the U.S. Section urged the Mexican Section to 
release more waters from storage in Luis L. Leon Dam on the Conchos 
River and Venustiano Carranza Dam on the Salado River; resume technical 
discussions on watershed conditions; continue assignment of Mexico's 
allocation of the unmeasured tributary waters to the U.S.; and adopt a 
framework for Treaty Tributary reservoir operations that would target 
the annual obligation to the United States as a high national priority. 
Mexico agreed to release waters from Luis L. Leon Dam and Venustiano 
Carranza Dam, of which one-third would be allotted to the United States 
and agreed as well to the limited assignment of its portion of the 
unmeasured tributary waters to the United States. In the months that 
followed, the U.S. Section urged Mexico to commit to deliver 600,000 
acre-feet of water to the United States between October 1, 2000 and 
September 30, 2001, i.e. the fourth year of the current cycle to cover 
the 350,000 acre-foot annual average and a good faith effort in 
repayment of the outstanding deficit. President Bush reinforced the 
need for Mexico to commit to making additional water deliveries at his 
meeting with Mexican President Vicente Fox on February 28, 2001 in 
Guanajuato, Mexico. In response to the President's initiative, IBWC 
negotiations resumed in Washington under the auspices of the Department 
of State. This resulted in the conclusion of IBWC Minute No. 307. Under 
Minute No. 307, Mexico and the United States agreed to a framework of 
actions by Mexico committed to ensure that 600,000 acre-feet of water 
would be provided to the United States by September 30, 2001, at the 
latest, based on runoff scenarios described in the agreement. Minute 
No. 307 also identified contingent sources of water should the runoff 
scenarios not produce the water envisioned. Under Minute No. 307 the 
United States and Mexico also agreed to continue discussions within the 
IBWC to arrive at additional measures concerning the prior cycle 
deficit and the current cycle obligation by December 2001. Finally, 
Minute No. 307 called for cooperation by the two Governments concerning 
drought management and sustainable management of the Rio Grande basin 
from Fort Quitman to Falcon Dam.
    Mexico halted releases from Carranza dam before the volume to be 
delivered to the United States under Minute No. 307 was accomplished. 
Mexico stopped the releases because of alleged environmental impact 
resulting from low storage. Further, Mexico had overestimated the 
storage. Mexico also faced protests by its affected water users. 
Concurrently Mexico was providing to the U.S., flows for the unmeasured 
tributaries and treaty tributary. In July 2001, injunctions were filed 
in Mexican Federal courts preventing any further transfers of the 
unmeasured tributary waters to the U.S. The U.S. Section insisted that 
Mexico comply with the obligation assumed in Minute No. 307 concerning 
this source of water. The lifting of these injunctions let to the 
transfer of 92,421 acre-feet to the U.S. ownership in February 2002, 
which was applied to the period that ended on September 2001.
    By February 2002, Mexico had been credited with delivering 427,544 
acre-feet of the 600,000 acre-feet it had ensured that it would provide 
in Minute No.307. This leaves a shortfall of 172,456 acre-feet.
    From October 1, 1997 September 30, 2001, Mexico delivered a total 
of 1,120,032 acre-feet. As of September 30, 2001, the prior cycle 
deficit and the current cycle obligation totaled 1,303,818 acre-feet of 
water owed to the United States.
Current Situation
    The U.S. Section on a number of occasions since October 2001 has 
asserted its concerns to Mexico that the terms of Minute No.307 have 
not been fully met and has requested technical talks to arrive at a 
remedy for the Minute No. 307 shortfall and a water delivery plan for 
the fifth year of the current cycle as required under Minute No. 307. 
The U.S. Section developed a plan for the fifth year and a formula 
under which Mexico would prioritize its treaty obligation to the United 
States in December 2001 and put forth that plan for the consideration 
of the Mexican Section in early January 2002. To date the Mexican 
Section, although continually pressed to do so by the U.S. Section, has 
not given a formal response. The Department of State has likewise urged 
Mexico to conduct immediate technical talks within the IBWC towards 
resolution of this matter. President Bush raised the outstanding 
deficit in waters owed to the United States during his bilateral 
meeting with President Fox at Monterrey, Mexico on March 22, 2002 and 
urged immediate water deliveries to the United States towards 
fulfillment of Mexico's treaty obligation. The Mexican Government 
continues to assert that it does not have sufficient water under 
current climatic conditions to make additional water deliveries to the 
United States and has diverted attention for immediate deliveries to 
the need to develop long-term conservation measures within Mexico 
supported by funding from the North American Development Bank.
    The U.S. Section of the IBWC intends to continue its efforts to 
press the Mexican Section for technical talks aimed at identifying 
additional sources from which Mexico can provide additional water in 
partial fulfillment of its obligations under the 1944 Water Treaty. The 
U.S. Section of the IBWC remains committed as well toward reaching 
agreement with Mexico on a formula by which Mexico would commit to 
giving the highest priority to honoring its treaty commitments to the 
United States in future years. The U.S. Section of the IBWC believes 
that the 1944 Water Treaty can be made to work and should remain in 
force for the benefit of both the United States and Mexico.
    The U.S. Section is also well aware of the urgent need for water, 
and the economic hardships that the South Texas irrigators are 
suffering. We continue to urge Mexico to consider the various water 
sources and volumes identified in recent technical talks that would 
make certain volumes f water available to the South Texas irrigators.
    Thank you for the opportunity to testify today. I would be pleased 
to respond to any questions you or other members of the Committee may 
have.
                                 ______
                                 
    Mr. Calvert. I thank the panel for their testimony. I'll 
start the question period.
    From the testimony and from a meeting that we had this 
morning, I think the panel understands the problem, 
specifically, one, that there has been a drought, certainly; 
but, two, there has been a lack of compliance on the part of 
Mexico to the treaty obligations that are outlined by you, Mr. 
Derham.
    Specifically, obviously, the President--this has the 
attention of the President of the United States. He's brought 
it up, as you mentioned, a number of occasions with Presidente 
Fox in an attempt to get the Administration in Mexico to move 
forward to immediately start helping to resolve the immediacy 
of this problem.
    It seems to me that even if H.R. 2990 was made law 
tomorrow--and, certainly, it's worthwhile legislation that Mr. 
Ortiz, along with others, have introduced that we need to move 
on--that will not resolve the immediate problem that we have 
today. And that is that Mexico needs to move forward to make 
sure that the treaty obligations are met.
    What can you do to assure this panel and to relay a message 
to your superiors in Washington that this is something that can 
be moved on very rapidly?
    Mr. Derham. Mr. Chairman, as I mentioned in the statement, 
President Bush raised this with President Fox 6 weeks ago in 
Monterrey. And my understanding was that this was essentially 
the first subject he raised when he met with President Fox. And 
following that meeting, National Security Advisor Rice spoke to 
Mr. Berruga, who was actually also present in Monterrey, to 
make sure that there was a clear transmittal of communication 
of this message on water.
    At that point we had been told by the Mexican side that 
they are doing some internal deliberations and hoped to be able 
to get back to us on this.
    I spoke to Mr. Berruga yesterday before I came down here, 
and he hopes to get to Washington in very short term. I think 
the message has been transmitted very forcefully by the 
President, and I think--I think the Mexican side is aware of 
the urgency on our side about this. But we need to see some 
results, and we are hopeful that in the very short-term that we 
will get some--a response from the Mexican government.
    Mr. Calvert. One of the reasons we're here today is to--not 
only to listen to the testimony and to ask questions, it's to 
help bring attention to this issue. We don't need to bring 
attention to the Valley, we need to bring better attention to 
our friends in Mexico and other places to make sure that the 
short-term solution, which is additional water from Mexico, is 
addressed.
    In regards to the long-term solution, Ms. Bach, H.R. 2990--
and I'm reading through your testimony, which, by the way, we 
have recently admonished the Administration again, no matter 
what the Administration, we try to get this testimony in as 
soon as possible. And, as I understand, we just received your 
testimony yesterday.
    Ms. Bach. Mr. Chairman, you're being generous about 
yesterday.
    Mr. Calvert. I mentioned this to Mr. Raley, the Department 
of Interior, to his secretary. I try to do my job and read the 
testimony, but it's very difficult to do so without the 
testimony at hand. So please relay that message back.
    Ms. Bach. I most certainly will, Mr. Chairman.
    Mr. Calvert. I would appreciate that. But we have a number 
of challenges throughout the United States, as you well know, 
and I know that your department has been challenged with the 
budget you have and the requirements that you have to meet.
    But, certainly, I can't think of--and, of course, I can 
think of a number of priorities and challenges throughout the 
country, but I can't think of any area that we ought to look at 
more closely than this. So I hope that I can work with the 
Administration and we can work together to move positive to a 
past point. With that I'll recognize Mr. Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman I would like to ask Mr. 
Marin a question to see if maybe I can understand the issue any 
better.
    The International Boundary and Water Commission, if I 
understand correctly, you do have some--your counterpart on the 
Mexican side?
    Mr. Marin. Yes, sir.
    Mr. Ortiz. As created by the treaty?
    Mr. Marin. Yes, sir.
    Mr. Ortiz. But now I understand that recently the Mexican 
government has appointed a water czar. Is this a rumor, or is 
this correct?
    Mr. Marin. It is our understanding, sir, that the request 
from the Secretary of Foreign Relations has gone to the State 
Department to assign a counter to an ambassador, that, like you 
say, they have assigned.
    The State Department, though, has gone on record 
acknowledging that request, but has also reinformed Mexico that 
the State Department does not intend to assign a counter to 
this individual at this time.
    Mr. Ortiz. Now, when you go to Mexico to have talks with 
the Mexican government, do you talk to your counterpart or do 
you talk to the water czar now? Who are you dealing with?
    Mr. Marin. Well, the Mexican commissioner is present at all 
our binational meetings, but recently on this topic this 
embassador for water has been present.
    Mr. Ortiz. So this is very frustrating to us that--this is 
another part of the treaty that they're not really applying the 
treaty, they're not adhering to the treaty by getting somebody 
else to do the work that the Boundary Commission is supposed to 
do.
    Mr. Marin. Well, the--I think the State Department has been 
very clear in stating that they need to empower the Mexican 
commissioner to deal with us to deal on this issue, again, like 
it was in the past. This individual, again, he has been at the 
meetings, so--and, again, mainly is the main speaker at the 
meetings.
    Mr. Ortiz. What do you think about this, the State 
Department, that this has transpired?
    Mr. Derham. Mr. Ortiz, and Mr. Marin has just commented, we 
think we have the channels and the structures to deal with this 
issue. Obviously, if the Mexican government wishes to designate 
somebody to be involved and we really don't comment on that--
and in a way it indicates a certain amount of high level 
attention on their part. But we are really interested, frankly, 
in results and don't really see the need to change our 
structure to deal with this problem. We know what the problem 
is. We know we need to resolve the problem. And so, for this 
reason, we felt that working with the IBWC working toward 
diplomatic channels, we have the means of communicating and 
working on this issue that we need.
    Mr. Ortiz. You touched a little bit on 234, and the way I 
see it, there is no way that Mexico would be able to repay the 
water. Now, is the State Department considering any type of 
penalties against Mexico if they do not pay, which I know they 
won't be able to pay for the water?
    Mr. Derham. Well, we don't consider this cycle closed, 
obviously. We still have another four or 5 months. We have 
certainly received indications from the Mexican side that some 
deliveries will be possible before the cycle is over.
    Whether they are able by the end of September to meet their 
commitment for this cycle as well as the deficit for the 
previous cycle, I would agree with you, seems like a remote 
possibility. At that point we'll assess where we are and see 
what our options are.
    Mr. Ortiz. Of course, that would help some of the people. 
But what crops do we plant in September? That's not going to 
help the farmers at all.
    Mr. Derham. Well, we are pushing Mexico right now for 
deliveries this month. And that was--that was the message that 
President Bush gave President Fox in Monterrey, and that's why 
we are eagerly awaiting a detailed proposal from the Mexican 
side.
    Mr. Ortiz. Thank you. Thank you, Mr. Chairman.
    Mr. Calvert. I thank the gentlemen. Mr. Rodriguez.
    Mr. Rodriguez. Thank you very much. Let me just keep 
following up on that. We've talked--and I'm wondering if there 
is any other discussions regarding any other types of punitive 
actions. Say that we find ourselves in September, they haven't 
delivered any. What are the considerations that can be given to 
other punitive types of actions that might be able to be taken?
    Mr. Derham. Well, at that point, Mr. Rodriguez, we would--
obviously, we have some recourse for noncompliance with 
treaties. We have other things, dispute resolutions perhaps we 
can look at. I would say we're not there yet. And right now 
what we're really trying to focus on are the immediate water 
deliveries and see what sort of progress we can make there. In 
September we'll assess what the shortfalls were and see where 
we go from there.
    Mr. Rodriguez. The problem is that, you know, just like 
with oil--you anticipate a certain amount of revenues coming in 
when you sell oil. You also anticipate--if you're anticipating 
that you're going to be operating with a certain amount of 
water and then all of a sudden it's not there, then we have--
you know, the farmers here and people here have to make 
decisions. So it's almost now in terms of how we're going to be 
dealing with those situations. So, you know, maybe I know that 
there is a real need for us to look at some alternatives there, 
and I don't know maybe some recommendations from you as to what 
is best. Now, let me ask the International Boundary, basically 
what's your responsibility?
    Mr. Marin. We're a technical organization, sir, that we 
look for alternatives to settle these issues, technical 
alternatives.
    Mr. Rodriguez. Do you have any powers or any leverage?
    Mr. Marin. In our dealings with the Mexican section we're 
responsible to do, I guess, what's required under the treaty in 
order to comply with the treaty.
    Mr. Rodriguez. Do you have any rights to sue on your own?
    Mr. Marin. No, sir.
    Mr. Rodriguez. Do you have any other rights that you can 
take, any other types of actions?
    Mr. Marin. No, sir. We would have to get guidance from the 
State Department or the White House.
    Mr. Rodriguez. Have you all looked at developing a plan of 
action that might help to respond to the situation that we find 
ourselves in?
    Mr. Marin. We developed considerable number of plans, and 
most of those were forwarded to Mexico as alternatives in order 
to resolve this issue or at least to provide immediate water 
needs for South Texas. Unfortunately, most of those have been 
unanswered.
    Mr. Rodriguez. Any of those plans deal in terms of how the 
United States has to deal with Mexico in order to make this 
happen?
    Mr. Marin. Yes, sir. We identify--we look at their system. 
We identify resources or sources of water that they have. We 
identify how they could operate their system in order to 
provide this water.
    Mr. Rodriguez. Have you asked our government in terms of 
specifically as to what is a plan that could be presented to 
our administration to be presented to them in terms of making 
it happen?
    Mr. Marin. I guess all of our plans go to different levels 
of government, State Department and so forth. And so we figure 
that that is our document to them that would identify these 
issues. And, of course, we would provide any kind of technical 
support for any of the alternatives that the Administration 
would like to present forward.
    Mr. Rodriguez. So what I gather is that you make 
recommendations in terms of water conservation efforts that 
could be made in Mexico. Have we provided any guidance or 
resources that would have to take place in order for that to 
happen?
    Mr. Marin. Most of our alternatives that come out are not 
considering water conservation but water utilization of what 
they've got now. We look at their system, we identify the 
quantities of water that are in the system, and then we tell 
them, ``Well, if you release from this reservoir, we can get so 
much if you release this.'' If we change the proportions of the 
treaty, maybe change within Minute--the treaty and Minute 234 
that Mexico can provide the U.S. This quantity of water. So we 
don't deal on the conservation part, I guess.
    Mr. Rodriguez. My understanding is that, at least from 
previous comments, you indicated that they have released a 
certain amount of water, or it was just proposed--or it was 
proposed, and they were hoping to do it or did it or didn't do 
it?
    Mr. Derham. Well, under Minute 307, which was signed last 
year following the meeting in Guanajuato, they committed to 
release a certain quantity of water during the rest of that 
year. I think it was on the order of 600,000 acre feet. They 
actually delivered 430,000.
    Mr. Rodriguez. So they delivered 430,000?
    Mr. Derham. That's correct, of that 600.
    Mr. Rodriguez.  Thank you.
    Mr. Calvert. Ms. Napolitano.
    Mrs. Napolitano. Thank you. Very interesting. Mr. Marin, 
how much water, acre feet of water does a U.S. Farmer normally 
utilize?
    Mr. Marin. It's my understanding, ma'am, about 1.2 million 
acre feet a year in the Valley here.
    Mrs. Napolitano. And alongside in the same area what is the 
development of the irrigation upstream in Mexico, and has it 
increased in years, are they supported by the Federal Mexican 
government, and how much acre feet of water do they use per 
foot for their farming?
    Mr. Marin. I guess it's been stated earlier, I think, in 
this U.S. Department of Agriculture and the University of Texas 
study that increase in farming in the Rio Conchos basin has 
increased.
    Mrs. Napolitano. That's the Mexican side?
    Mr. Marin. Mexican side, yes, ma'am.
    Mrs. Napolitano. By?
    Mr. Marin. I don't know the acreage myself.
    Mrs. Napolitano. Percentage? 5, 10, 50?
    Mr. Marin. I would say more like 50 percent or so, and this 
is just a figure that I've heard. I don't know it for a fact. 
And in the past few years, in fact, last year, Mexico used 
approximately 745 million cubic meters of water in that 
district up there, in the Delicias district.
    Mrs. Napolitano. How does that translate to acre feet?
    Mr. Marin. About 650,000 acre feet.
    Mrs. Napolitano. Per year?
    Mr. Marin. Well, last year. And what actions the IBWC did--
because we noticed in the records that we received from Mexico 
they actually started doing the same thing this year. We 
immediately informed Mexico that we were noting this. We were 
putting on the record, you know, that they started irrigation, 
and we figured that they would be using or following the same 
trend that they did last year, and we've--again, they responded 
back to us that that water was already allocated and they would 
intend to use it for irrigation. And right now I believe they 
intend to use close to 600,000 acre feet or 600 million cubic 
meters, which would be about 500,000 acre feet.
    We've expressed to Mexico that we figure that that's one of 
the basins that has water or one of the reservoirs that they 
can make a good faith effort to provide to the U.S. Water.
    Mrs. Napolitano. How much water is being released?
    Mr. Marin. It's 20,000 cubic meters per second, or 20 cubic 
meters per second, which is 35--about 600 cubic feet per 
second.
    Mrs. Napolitano. Is it funded by the Mexican government, 
water systems?
    Mr. Marin. Yes, ma'am.
    Mrs. Napolitano. And there has been some estimate of the 
per-acre water use for farming. Do you have that?
    Mr. Marin. Yes.
    Mrs. Napolitano. And that is?
    Mr. Marin. Well, we understand the volume that they use, 
and it all depends on the crops that they farm. And, of course, 
that area in Delicias, they've planted a lot of pecan orchards, 
which are heavy users of water. And there is some records that 
show that they use as much as maybe five feet of water per acre 
to irrigate while the U.S. Uses 1 or 1.5 feet or so.
    Mrs. Napolitano. So it's 1.5 versus 5?
    Mr. Marin. Yes, ma'am.
    Mrs. Napolitano. Roughly, give or take. I think I had a 
question for Ms. Bach. In that--or maybe Mr. Derham. I'm not 
sure which one would be able to answer it. This has to do with 
the Colorado River, since this is also addressed by the same 
treaty.
    How much water does the U.S. Have to deliver to Mexico each 
year from the Colorado, and has the U.S. Ever been in debt to 
Mexico through the Colorado allocation, and is this comparable, 
because being in California, we deal with the Colorado, and we 
are being pressured by Mexico and some of the environmentalists 
to release more and more water, even though, from our vantage 
point, we are giving the full allocation of their water on the 
treaty.
    And I'm concerned, do we--have we been in debt? Are we in 
any way, shape, or form able to negotiate maybe Colorado versus 
Rio Grande water? Because, to me, if we are on the same treaty, 
how--why have we not addressed it in that manner?
    Mr. Derham. Ms. Napolitano, we provide--under the treaty we 
are asked to provide, I believe, about a million and a half 
acre feet per year.
    Mrs. Napolitano. For?
    Mr. Derham. From the Colorado River to Mexico. And my 
understanding is that we have been in compliance with that 
obligation. Whether further down the road we would look at that 
in connection with the Rio Grande situation is something we 
really haven't addressed yet.
    Mrs. Napolitano. May I ask why not?
    Mr. Derham. Well, because we had been hopeful that we'd be 
able to resolve this in terms of the Rio Grande.
    Mrs. Napolitano. But we're at 5 years, and we're at a 
critical situation here. We're in an emergency.
    Mr. Derham. I understand that. Certainly, under the first 5 
years the treaty does make provisions for the repayment of that 
in that second cycle. It is as we approach the end of the 
second cycle that we see that we're in a situation that might 
be difficult to remedy, and in that context--
    Mrs. Napolitano. But doesn't that bring up something that 
the Mexican government is now saying, that they now have five 
more years to be able to pay it back?
    Mr. Derham. Well, we don't accept that interpretation.
    Mrs. Napolitano. But this is their interpretation 
currently?
    Mr. Derham. Well, I have certainly heard intimidations 
that, yes, that's--that they have some argument that says that 
they are not meeting their commitments. We don't agree with 
that at all.
    Mrs. Napolitano. Thank you, Mr. Chairman I'll wait for the 
next round.
    Mr. Calvert. Mr. Ortiz.
    Mr. Ortiz. Mr. Marin, your agency, I understand, put out a 
report just recently. Am I correct?
    Mr. Marin. Yes, sir.
    Mr. Ortiz. And many are saying that that--many are much 
critical that information that was contained in that report was 
omitted. Can you elaborate a little bit on that?
    Mr. Marin. Yes, sir. In our publication of that report, 
since the document--there was a document published in 2000, I 
believe, with Dr. Brandes, which was sponsored by the lower Rio 
Grande users here, and this report now became an agency report. 
And the only deletions that were made to the report was any 
kind of treaty interpretation or personal opinion. And a lot of 
those personal opinions were changed from being opinions to 
facts, by just changing a few wordings in the document itself.
    So, I mean, I reviewed the document considerably, and I 
just think the only issues that are--or the only information 
that is lacking in that report is actually what was considered 
as treaty interpretation. And I don't think we're in a position 
where the agency--again, I would defer to the State Department 
to make that kind of definition or those interpretations of the 
treaty.
    So, as far as I'm concerned, the document contains most 
of--or I would say 90, 95 percent of the information that was 
there previously. All that it's lacking is treaty 
interpretations or opinions that were removed.
    Mr. Ortiz. But sometimes those of us who read between the 
lines are not satisfied because we need to have somebody who 
advocates our needs. And sometimes we wonder whether the 
agencies that are out there, whether it's the State Department, 
IBWC, the Department of Agriculture, whether they're really 
advocating our position. And there is a lot of people that feel 
the same way I do. And this is very, very disturbing. And I was 
glad to hear Mr. Derham say that when you testified that you do 
not agree that Mexico has complied just because they have given 
us 350,000 acre feet of water. Am I correct?
    Mr. Derham. That's correct.
    Mr. Ortiz. But there is a lot of people out there that this 
is very confusing. We need for our State Department, for all 
these agencies, to come out and let the Federal Government know 
that you are advocating for our people, for South Texas. And I 
hope that we can make it clear to Mexico that, you know, our 
government and the Congress and those of us who represent this 
area in Texas are working together. This is--this is critical.
    I mean, when you go out--and there is a report that came 
out the other day about what we pay for water. You try to go 
out and get a bottle of water. It's 1.50, higher than gasoline. 
That should send us a signal that water is going to be a very, 
very serious problem. And I would much rather have seen the 
entire report because people out there feel that this report 
has been doctored, and maybe it hasn't been doctored, but 
that's the message that's out there.
    Thank you, Mr. Chairman.
    Mr. Calvert. Mr. Rodriguez.
    Mr. Rodriguez. We talked earlier in terms of our 
interpretation of where Mexico ought to be in terms of the next 
5 years or not, whether they should be paying back. Can you 
talk a little bit more about that? Because if they come back 
and say ``Our impressions are that we have an additional 5 
years within to have to pay it back,'' you know, what's--you 
know--
    Mr. Derham. Mr. Rodriguez, my understanding of this is--or 
our interpretation of the treaty and the obligations under the 
treaty are that in a 5-year cycle if they do not meet the 
350,000 acre feet annual deliveries, they can, in cases of 
extraordinary drought, carry that over until the next cycle.
    And, in fact, that's what they did from the '92 to '97 
cycle. However, our interpretation is, and I believe it's 
spelled out fairly clearly in Minute 244, which dates back to 
1969, is that in the following cycle they need to make the 
350,000 acre feet per year deliveries. 243, I'm told, is the 
minute number--234.
    In the following cycle, they have to not only make the 
350,000 acre feet per year delivery, but make up that previous 
deficit. Now, if there is some sort of argument that, well, no, 
you really--you know, you get one more cycle and then, you 
know, you get into that cycle and they can kick it forward, at 
some point we really lose that water, or we never really get it 
delivered. So that is certainly not our interpretation of the 
treaty.
    Mr. Rodriguez.  And then you've also talked about the fact 
that you just recently went and renegotiated a certain amount. 
And we've only gotten 600,000 or so, and we only got a little 
more than half on that amount delivered. And so if you have 
that ruling also and they didn't deliver on that one, what--do 
we have anything that we can do because of that?
    Mr. Derham. Well, the only thing I would add on that is 
Minute 307, which was the agreement reached last year, was in 
the context of this--of this double cycle problem that we're 
dealing with. And this was our attempt or both side's attempt 
to try to focus on deliveries for that year with that quantity 
of water and a scheduled delivery for the remaining year, but 
it is assumed in that overall debt problem. So it didn't add a 
new--I would say it didn't add a new element. It was part of 
the original problem.
    Mr. Rodriguez.  What leverage do we have, because we hear 
about the politics of the state politics and the Federal 
politics on the other side. What leverage do we have, either 
legal or other ways, that--because if President Fox chooses to 
say, ``I'm willing to deliver, but I'm not able to make the 
state to deliver,'' that kind of thing, what are our leverages 
that we can possibly muster up to make it happen?
    Mr. Derham. Well, I would respond there are two most 
immediate leverages. One is the fact that it is a treaty 
obligation. And, certainly, my experience working in Mexico is 
the Mexican government takes their treaty obligations very, 
very seriously. And that is--in dealing with the Mexicans on 
this problem, that is strong leverage, and it helps us sort of 
dealing with the government, and it also helps us in a public 
diplomacy sense, making our case to the Mexican society, 
because a treaty obligation is taken very seriously.
    We also have the leverage that the U.S./Mexico relationship 
is very important to both sides. It's very important to 
President Fox. When President Fox goes into a meeting with 
President Bush and the first subject that President Bush raises 
is water delivery for South Texas and then follows that up with 
Condoleezza Rice calling down to Mexico City to make sure that 
that message was understood and picked up, that is very strong 
leverage for the Mexicans as well.
    I mean, I think--my own sense of this is on the Mexican 
side there is a very strong good faith effort to try to be 
responsive to this. It is--but there are problems, obviously, 
and that--but they are doing or trying to do what they can. I 
think it's important that we keep exercising this leverage.
    Mr. Rodriguez.  Thank you.
    Mr. Calvert. Ms. Napolitano.
    Mrs. Napolitano. I appreciate your statement, but how can 
we now consciously say the Mexican government is really being 
upfront with us when on one hand they're supplying the tools 
for the continuing agricultural development in the area where 
the dams that were built and doing everything they can to 
utilize the water there and then not putting pressure on a 
Governor that is sitting there to release that water? It just 
doesn't quite make sense. And if I'm hearing correctly, in some 
of the statements that have been given to us before, not 
necessarily in this hearing, that there is political 
ramifications.
    Well, we need to be able to get beyond that, and somehow 
the State Department should be able to help us identify to plan 
a commitment, or at least a vehicle that we can start utilizing 
all the time. I mean we're hurting here in this area, and, to 
me, all of the United States should be supporting what we're 
trying to do, and that's move forward with getting that water 
delivered. I mean, I'm frustrated.
    Mr. Derham. And I share this frustration, and I think the 
Department of State, Secretary Powell shares it, the President 
obviously shares it. And I'm not here to defend the way the 
Mexican side has responded on this. They do have, obviously, 
though, competing pressures on this, and it's not an easy issue 
for them. And looking in sort of a broader sweep of our 
relationship with Mexico, the Fox government has been very 
cooperative, very responsive to us in a number of areas.
    Mrs. Napolitano. But not through enforcement.
    Mr. Derham. Water enforcement.
    Mrs. Napolitano. Not to actual deliver the water.
    Mr. Derham. Exactly, and so I would--to me that would 
indicate, given their record in all these other areas, that 
it's not a question of being sort of just cavalier with us on 
this, but that it presents them some very serious difficulty.
    Mrs. Napolitano. So what is the next step, sir?
    Mr. Derham. Well, we need to see what happens immediately, 
based on the contacts the President and Ms. Rice had, and see 
what the Mexican side can offer us, and then we need to assess 
that and see what deliveries we'll get for the remainder of 
this cycle year, and then we have to see where we are.
    Mrs. Napolitano. But this region can't wait for 
bureaucratic solutions, unfortunately. So I'm asking what else 
can we do?
    Mr. Derham. Well, we would hope that part of this process 
or part of the Mexican response would be some immediate water 
deliveries.
    Mrs. Napolitano. But we've been waiting for 5 years. So 
we're back to square one.
    Mr. Derham. Well, we would--we are owed a response on this 
certainly within the next week. And I would hope that we'd be 
able to see something.
    Mrs. Napolitano. Thank you, sir. Ms. Bach, the bureau, do 
they have any--let's see, any projects in this area?
    Ms. Bach. In terms of specific reservoir development for 
irrigation purposes down here, no, we do not, but we have the 
authorization per--
    Mrs. Napolitano. Are you funded?
    Ms. Bach. We are not funded for implementing the bill that 
was passed by the Committee in the last 106th Congress. What I 
have done within my region is I have reprogrammed money up to 
my ability to do so, but in order to enter into construction, I 
would need direct appropriations.
    Mrs. Napolitano. And what does that consist of?
    Ms. Bach. Under the initial bill under the public law for 
the 106th Congress--
    Mrs. Napolitano. Which bill was that?
    Ms. Bach. That was 106-576, and the bill before you today 
is amending that bill. The original legislation was for four 
authorizations. It was for a 50/50 cost share bureau reparation 
with the local entities for a 50/50 cost share. And that would 
be to allow them to do actual water conservation. In our 
language, it's construction dollars, and I would need direct 
appropriations for that.
    Mrs. Napolitano. You're talking about amending the prior 
106th Congress law. Again, we're going into studies, into 
moving forward on figuring out what's necessary. I'm concerned 
as to how soon can we get any information to this area through 
the bureau to assist them, whether it's a desal 
constructionsite, because that would alleviate the use of muni 
water for use for ag water, correct?
    Ms. Bach. There is quite a variety of opportunities and 
options for--
    Mrs. Napolitano. How much money would it take or would H.R. 
2990--does it carry money?
    Ms. Bach. It's an authorization for appropriations.
    Mrs. Napolitano. OK. How much would it take, given--if it 
would pass and get funded, how much would it take for the 
bureau to work with the munis and this whole region to be able 
to address the current situation?
    Ms. Bach. The amount of funds that would be needed are in 
the order to implement both pieces of legislation, both last 
year--last Congress's and this, for the 50 percent that 
reclamation would pay off is approximately $55 million.
    Mrs. Napolitano. 55?
    Ms. Bach. 55 for fully funding both pieces of legislation.
    Mrs. Napolitano. Thank you.
    Mr. Calvert. Thank you. We're going to wrap this panel up, 
but I'm going to make a final statement. Clint Eastwood said in 
one of his famous statements, ``You've got to know your 
limitations.'' As Chairman of this Committee, I deal with 
domestic issues of water within the 50 states, but here we need 
some help.
    Technical compliance until October won't help the farmers 
here in September, as Mr. Ortiz mentioned. Overdevelopment of 
land within Mexico, that, apparently, may be the reason for 
noncompliance. I don't believe, based upon the testimony I've 
heard so far and the information I've received, it's not 
extraordinary drought. It's probably extraordinary expansion of 
water utilization within Mexico.
    This President has paid close attention to this problem, 
and I certainly appreciate his attention and the attention of 
Presidente Fox. Unfortunately, this should have been addressed 
a number of years ago and when that utilization of water and 
land development within Mexico was taking place. And today 
we're here. Mexico expanded their water utilization. They put 
themselves in the position where they find themselves in a very 
difficult position to meet their responsibilities under the 
1944 water treaties that we have entered into.
    Now we're faced with an emergency that I've experienced as 
Chairman of this Committee, unfortunately, a number of times, 
and one that I don't think is of any less peril will be found 
in the southern part of Oregon and northern California, what we 
deem Klamath Valley, which was truly a calamity.
    The largest public hearing in the U.S. House of 
Representatives history, as I understand, took place in the 
Klamath Valley, a community of 15,000 people, where almost the 
entire town showed up. We don't want to experience that here. 
So I would move the gentleman, as I excuse this panel, and I 
know you all have to catch airplanes and leave, but I would--
please let the Administration know and the State Department 
know that this is at a critical point, that this water needs to 
be released and released soon.
    For our friends in Mexico, we want to maintain our close 
friendship and reliance upon one another as great trading 
partners. This won't help if we have this continue in the near 
future. So with that, I thank the witnesses for their testimony 
and for their answering our questions. You're excused.
    Mr. Calvert. Our next panel. Jo Jo White, please come up to 
the dais, General Manager of the Hidalgo and Cameron Counties 
Irrigation District No. 9. Mary Lou Campbell, the 
conservationist, is here as well, Sierra Club, Lone Star 
Chapter, Frontera Audubon Society. Frank Feild is President and 
CEO of the Brownsville Chamber of Commerce. Please take your 
seats.
    Mr. Calvert. Mr. White, you've probably heard from our 
previous witnesses. We need to attempt to keep our testimony to 
within the 5-minute rule so we can have time for questions.
    This applies to the rest of the panel. If you have extended 
remarks for the record, we'll be more than happy to address 
that.
    Mr. White, you're recognized.

STATEMENT OF JO JO WHITE, GENERAL MANAGER, HIDALGO AND CAMERON 
               COUNTIES IRRIGATION DISTRICT NO. 9

    Mr. White. I will be brief. Obviously, there is a lot of 
information already with this first panel that I was going to 
testify on. I'm not going to be repetitive. We do appreciate 
you coming down here from Washington to see the crisis that is 
facing this part of the United States.
    Obviously, you've heard that the Rio Grande River is our 
only viable source of water, and this water supply is supposed 
to be protected by the 1944 Water Treaty. It was noted that 
this treaty is very beneficial to both nations. Obviously, 
there are geographical areas within each nation that receive 
waters that are generated within the boundaries of the other 
nation. Without these waters, these particular geographical 
areas could not be a viable entity.
    Obviously, as mentioned before, the United States has never 
failed on its--on meeting its obligations on the Colorado River 
provisions, even during the most droughty situation in 
California, Arizona, and everything.
    Well, there was a reason for this. Not only was there 
prudent water management in the western states, but also there 
was the insistence of our Federal Government that our treaty 
obligations to Mexico would be fulfilled. That was the main 
reason that water kept going to Mexico.
    Unfortunately, as you all have heard now, Mexico has failed 
in meeting its obligations on the Rio Grande provisions. They 
have claimed that extraordinary drought was the reason for 
their first cycle deficit. Yet, there has been a mass, a mass 
of evidence and data now that has come forward that show Mexico 
had ample rainfall during that time period in question and that 
it had ample reservoir levels in the interior storage lakes in 
Chihuahua where they could have met their obligations.
    It is extremely unfortunate that we presented this 
information to the State Department, to these guys sitting 
behind me that were here in the last panel, we presented this 
to them over 4 years ago. As a matter of fact, it was here in 
Brownsville, Texas that all this documentation was presented to 
them that show Mexico could have met their obligations.
    Yet this--the State Department and the IBWC would not 
challenge Mexico on its assertion that it had extraordinary 
drought that caused this deficit. They said that this would be 
admitting then that this deficit was illegal and, therefore, 
there was a treaty violation. They told us they would not go 
there. They said, ``The reality of the situation is, boys, you 
all are going to have to go through these next 5 years, and 
Mexico will have to pay this deficit off during this cycle.''
    We then asked the State Department and the IBWC at that 
time, ``Would you please force Mexico into an aggressive 
repayment plan at the beginning of the cycle?'' We warned them 
that if they did not do this, then the scenario would take 
place where they could not pay off the deficit.
    Well, obviously, the State Department did not force Mexico 
into any aggressive repayment plan. Since Mexico was not forced 
to the table, they basically gambled on mother nature in paying 
off their deficit. They continued to use the waters that were 
generated with the interior of Chihuahua to meet their own 
needs there without delivering adequate amounts to the Rio 
Grande to meet treaty obligations. This gamble now has failed. 
The big climatic event, the big hurricane that they gambled 
would come and fill up the reservoirs did not occur.
    Now with the remaining timeframe left in the treaty, 
approximately 5 months, this timeframe is like a noose 
stretching and closing in on Mexico's neck, and now they're 
trying to squirm out of this noose by saying they have another 
5-year cycle to pay off this present cycle's deficit because 
they've already paid off the first cycle's deficit with waters 
that have come in during this cycle.
    As said before, this is in direct contradiction to Minute 
Order 234. You all have just heard testimony from the State 
Department that they agreed with our position that Mexico must 
stay current in a present cycle while paying off a previous 
cycle's obligation.
    It's very funny, though. We asked the State Department over 
3 years ago if they agreed with that interpretation, and they 
did. They verbally said they did, just like they did right now. 
We asked them for written interpretation and documentation of 
that stance. We wanted to have something concrete in our hands. 
To this day we have not gotten one bit of written confirmation 
of their stance.
    The real reasons for Mexico's deficit has already been 
brought out. Mexico has no interior water management plan on 
its interior reservoirs that has treaty compliance obligations 
taken into consideration. They have admitted to that. The other 
reason is overexpansion of crop production in the State of 
Chihuahua.
    That overproduction now has reached the point that the 
water shed in that area can no longer supply the needs of that 
overproduction and still meet treaty obligations. It's those 
reasons that we have a deficit situation now. It's not 
extraordinary drought.
    Unfortunately, the main reason to have a water treaty in 
the first place is to make sure there are adequate supplies of 
water during times of shortage. Each party in a water treaty 
has to be protected. Why have a water treaty in the first place 
if there is always going to be ample waters that's going to 
meet everybody's needs? The reason for a water treaty is to 
have something in place to protect those in times of shortage.
    Mexico has not had shortages. They've had mismanagement and 
overproduction. Yet where our bitterness and our frustration is 
focused is not only on Mexico, because if our State Department 
and past and present administration had addressed this very 
aggressively years ago after we presented them with all the 
documentation of what Mexico was doing, at that time, if they 
had addressed this issue, we would not be sitting here today.
    President Bush has always promoted the theme of ``Just do 
the right thing.'' There is a lot of speculation now that this 
region is going to be sacrificed on this issue even though 
we're being illegally exploited by Mexico in order to further 
other agenda items with Mexico that affects the whole United 
States. This very unfortunate.
    If President Bush allows these other agenda items to 
compromise his position on this, he is not practicing what he 
preaches.
    Obviously, without going into any further detail, our 
problem has been with the State Department, the IBWC, and the 
past and present administrations. I now urge you, representing 
the legislative branch of the government, to see what you all 
might be able to do.
    Obviously, one of the first things that you could do, that 
really won't help us now, is to have a Congressional inquiry 
into the State Department's inability or ineptness or whatever 
to handle this situation. Also, you could consider adding 
language to pending and future legislation that deals with 
Mexico that has treaty compliance in it.
    Congressmen, we are on our knees. This is the worst year 
since this crisis--since this water shortage has started. This 
is the worst year of all. Our all-time reserves are at their 
lowest level ever. We have many growers that have gone out of 
business, and there is many of them sitting right here in this 
auditorium that are on the brink. We need assistance 
immediately.
    I beg of you, please do what you can do from the 
legislative branch, because, obviously, the executive branch 
has not addressed this. Thank you very much.
    [The prepared statement of Ms. White follows:]

    Statement of Jo Jo White, Hidalgo & Cameron Counties Irrigation 
                               District 9

    The Rio Grande Valley, due to its unique climate, soil, and river 
delta characteristics, has been a nationally recognized area for 
agricultural production. Citrus, sugar cane, vegetables, corn, melons, 
cotton, grain, etc. have been produced in this region for years and 
this production is the fuel which drives the regional economy. 
Population has literally exploded in this area and it now has one of 
the fastest growth rates in the United States. Because of having a 
semi-arid climate, the key to the continued prosperity and growth in 
South Texas is the assurance of an adequate water supply.
    The only viable source of fresh water for use in this region is 
from the Rio Grande River. This source of water is supposedly protected 
by the provisions of the 1944 Water Treaty between the U.S. and Mexico. 
This Treaty is essential to certain geographical areas in each nation 
that depend upon water supplies produced within the boundaries of the 
other nation. The U.S. is obligated to furnish northwestern Mexico a 
minimum amount of water yearly from the Colorado River and Mexico, in 
return, is obligated to furnish South Texas a minimum amount of water 
in a 5 year timeframe. Obviously, this Treaty benefits each nation in 
respective regional areas that do not have alternative water sources. 
As a note, the U.S. has never failed to meet its Treaty obligations to 
Mexico on the Colorado River provisions.
    Unfortunately, since 1992 Mexico has failed to meet its Treaty 
obligations and now owes the U.S. over 1,400,000 acre-feet of water. 
Mexico claims that the deficit was caused by ``extraordinary drought'' 
which is very debatable due to the findings of the Brandes Report that 
faults Mexico's drought assertion. During the timeframe in question, 
Mexico experienced over 80% of its normal rainfall, had an aggregate of 
over 7 million acre-feet of water remaining in its interior reservoirs 
after each year's growing season was completed, and had numerous years 
when water was stored in the flood pool in the last reservoir on the 
Rio Conchos River before it reaches the Rio Grande. These events 
contradict Mexico's assertion that it did not have available water to 
meet Treaty obligations. Yet, even with this documentation, the U.S. 
State Department would not challenge Mexico on its position. 
Furthermore, Mexico has recently stated that the first cycle deficit 
has been repaid and it now has another 5 years to pay off this current 
5-year cycle deficit. This action is not allowed because of Minute 
Order 234, which specifically states that Mexico must stay current in 
present water obligations while paying off a preceding cycle deficit. 
This language is crucial because it prevents Mexico from rolling a 
deficit over from cycle to cycle.
    The failure of Mexico to provide its obligated Treaty water has 
devastated the Region's economy. Texas A&M University has calculated 
that the economic losses directly attributable to this amount of 
unavailable water has amounted to $1,000,000,000. Being one of the 
poorest regions in the U.S., this type of economic loss is extremely 
hard to swallow. Farmers have gone out of business and others are on 
the brink. The repercussions from these failures have negatively 
affected the lives of all residents who live in the region. Due to the 
lowest water reserves on hand since this inequity began, this year will 
be the most damaging of all.
    Regional stakeholders have pleaded to the State Department and past 
and present Administrations to take the necessary actions to force 
Mexico into compliance. These entities were warned that if aggressive 
water repayments were not implemented by Mexico, the scenario would 
eventually take place where Mexico would not be able to pay its debt 
within the remaining Treaty deadline date. The State Department did not 
heed our warnings and this predicted scenario has now arrived. Mexico 
opted to gamble that Mother Nature would provide a climatic event that 
would fill the reservoirs within the current 5 year Treaty cycle. This 
gamble has failed and Mexico is now trying to escape its obligations by 
ignoring Minute Order 234 and claiming it has another 5 years to pay 
off its existing debt. If our Federal Government had forced Mexico into 
aggressive water repayments years ago as we urged, this unprecedented 
scenario would not now exist. Are U.S. citizens now to suffer the 
consequences because of the failure of our Government to force 
compliance? We believe that it is just as important for the Federal 
Government to prevent a Treaty violation from occurring, as it is to 
react after a violation has occurred. As of present, Mexico still has 
not addressed repayment and the deficit has continued to grow. Many 
farmers are now out of irrigation water and the consequences are 
evident financial ruin. At the same time, agricultural production in 
Chihuahua is booming and record yields have been reported by Mexican 
authorities. The success of this area in Mexico is directly the result 
of the illegal diversion of obligated Treaty water to produce these 
record yields. For years, the State Department has been notified that 
this unprecedented Mexican action has been taking place but no 
corrective actions have come from Washington.
    The Region's state mandated 50-year water plan to meet future water 
needs was based upon receiving the Treaty obligated water from Mexico. 
This plan is now invalid if these obligated waters will not be made 
available. Without these water sources, agricultural water supplies 
will no longer be sufficient to meet the conversion to municipal use. 
Being one of the fastest growing regions in the U.S., municipal water 
demands are escalating tremendously. Full Treaty compliance is 
mandatory if these municipal needs are to be fulfilled.
    Without forced insistence from the U.S. Government, Mexico will 
never meet its Treaty obligations in the future under normal climatic 
conditions. Agricultural water needs in the State of Chihuahua now 
exceed what the watershed will produce due to its over expansion of 
farming acreage and still be able to meet Treaty obligations. This over 
expansion of farmland in Chihuahua not only has caused Treaty obligated 
waters to be withheld from the U.S. but also to other Mexican states 
downstream on the Rio Grande. Mexico has admitted that it does not have 
a water management plan is use on the interior Mexican watersheds that 
takes Treaty obligations into consideration. Past Treaty compliance was 
by accident instead of purposely planned. Basically, adequate rainfall 
fell in areas where Mexico could not capture it behind their numerous 
reservoirs.
    It is somewhat perplexing that Washington may be willing to 
sacrifice a U.S. regional area being illegally exploited by Mexico in 
order to further other agenda items between the two nations. It would 
be more understandable if Mexico's illegal acts benefited its nation as 
a whole instead of just one agricultural region in one Mexican state. 
The question should be why would Mexico act illegally to only promote 
an isolated interior area and risk other agenda items that affect its 
entire nation? The answer is obvious Mexico will continue to illegally 
divert Treaty obligated waters to benefit one agricultural region 
because of the lack of punitive actions from the U.S. Government.
    Mexico continually uses existing drought conditions as the reason 
to justify its water debt position. The most important reason to have a 
water treaty in force is to have the legal right to water in times of 
climatic shortages. Why have a water treaty if ample water supplies are 
always available to both parties. Drought alone is not the reason for 
Mexico's water deficit. Instead, it is because of having no water 
management strategy in practice which has resulted in the over use of 
water to meet over expansion in the State of Chihuahua. California, 
Arizona, Nevada, and other western states have experienced crippling 
droughts in the past, but prudent water management and forced Federal 
insistence has insured that U.S. water obligations to Mexico were 
always fulfilled on the Colorado River system. Obviously, these western 
states would love to have the water that is obligated for Mexico. The 
U.S. Government would act swiftly to prevent a western state from 
diverting the Treaty water. Yet, the Mexican Federal Government has not 
acted to prevent the State of Chihuahua from illegally doing the very 
exact thing.
    The Subcommittee on Water and Power has the ability to expose this 
unprecedented crisis facing this U.S. region to the full House of 
Representatives. Due to the lack of adequate addressment by the State 
Department and Administration, hopefully this legislative branch of the 
U.S. Government will explore ways to pressure resolution to the 
impasse. We are regional U.S. citizens who solely depend upon the fully 
executed mutual provisions of a ratified international Treaty in order 
to survive and prosper. Likewise, regional northwestern Mexican 
citizens also depend upon the same 1944 Treaty for their sole water 
source from the Colorado River. They have never been illegally denied 
this water by the U.S. We are at the mercy of our Federal Government to 
force Mexico into compliance on the Rio Grande provisions of the same 
Treaty. Your immediate attention is urgently needed and most 
appreciated. Time is of the essence!
                                 ______
                                 
    Mr. Calvert. Thank you, gentleman. Mary Lou Campbell, 
Sierra Club, be recognized for 5 minutes.

 STATEMENT OF MARY LOU CAMPBELL, CONSERVATIONIST, SIERRA CLUB, 
          LONE STAR CHAPTER, FRONTERA AUDUBON SOCIETY

    Ms. Campbell. Welcome, members of the Committee, andwelcome 
home, and welcome home for you. It is a privilege to be here 
this morning. I do represent a section of the community that is 
not often heard from or considered to be a water user, but they 
are. And I'm talking about animals and wildlife and the people 
who enjoy them.
    We have found in the Valley that there is a terrific amount 
of people out there who want to come for nature tourism. And 
nature tourism depends upon water to a great extent. As always 
before, nature tourism depends also on agriculture and, thus, 
agriculture gets the water, and then the birds and the animals 
also get the water. It is a cycle. You may think because I am 
not an irrigator--although I do live on a farm, and we do 
irrigate hay for our horses. But, still, why am I here, why am 
I speaking to you is because it is important to the overall 
life and economy of the Valley to have the treaty go forward, 
but not only that, to plan with Mexico. And I think there we 
are somewhat at fault because we have not looked at Mexico and 
said, ``They are our partner in the river and we must plan 
together.'' And that, to me, is the most important thing that 
we can do.
    We cannot say, ``You can't plant this and we can plant 
that.'' What we have do is say, ``Let us work together and see 
how we can all benefit each other and still have water for the 
whole basin of the Rio Grande Valley because--and we're talking 
about the Mexican basin as well as ours, because we share that 
river, and there is no line down the middle of the river, and 
yet we know that each of us are dependent upon it.
    The farmers of Tamaulipas are hurting as much as our 
farmers are. I went to a symposium recently held by Congressman 
Hinojosa that was held in Weslaco, and at that symposium were 
two gentlemen from Tamaulipas who said, ``Let us work with you. 
Let us see what we can do together.'' And that was a very 
encouraging thing to hear.
    I'm not talking about State Department level. I'm talking 
about people-on-people level, because that's what we do best in 
the Valley is work with others. Otherwise, I, as a 
conservationist, would not be asked to be here today to tell 
you about why we depend upon agriculture and agriculture 
depends upon us.
    Many of the farmers and ranchers are looking at the 
wildlife and saying, ``There is an opportunity here. We'll have 
hunting, white-tail deer. For long times we have hunted 
whitewing, and we've looked after that crop, if you will, and 
it is almost an annual crop in Texas. But, also, people are 
looking at bow hunting, wild hogs. They're looking at a variety 
of things, wildlife. Not only wildlife but wild flowers and 
butterflies.
    Every town and village has a festival built around 
wildlife, from Willacy County, which they call Wild in Willacy, 
to Mission where there is a butterfly festival. There is 
birding on the Island and in other spots.
    Also, a farmer, rancher and his wife have discovered 
something else, that these people make great guests, and so 
there are family enterprises built around bed and breakfasts. 
And sometimes it's mistakenly called--or maybe not--bird and 
breakfast. But, at any rate, those are the ways that we can 
work together to conserve.
    Now, to talk about the bill, which is 2990, I think it 
very, very important that we have that. About 6 years ago the 
four counties got together for water planning, Willacy, 
Cameron, Hidalgo, and Starr County. And at that time we said we 
have to have on-farm water conservation and we need the ability 
to get the water to the farmers through the irrigation systems 
in a way that is not wasteful and in a way that will be cost 
effective, and we don't charge--we don't charge nearly what 
water is worth because water is the one thing that man cannot 
do without, water and air.
    But in order to make the connection between agriculture and 
water, we can't make it too expensive either or the farmer 
couldn't afford to grow. So that is why we're coming to 
Congress with H.R. 2990--well, the amendments to the Resources 
Act, to ask for money so that we may be able to retrofit the 
irrigation systems.
    Many of the municipalities have already done this. The city 
of Brownsville has put in new pipes. They had old leaky pipes. 
They found they were losing a terrific amount of water doing 
that, having those pipes. So they have done that type of work. 
We need improvements in the irrigation districts. Many people 
cannot afford them or think that they cannot. Also, there is 
training to be done because how will we use these new 
irrigation systems? And the technology is developing a lot in 
other countries, and also in California I know that there is 
much work being done with using low flow to get the same effect 
that you might get from flood irrigation, and that's not to say 
that everyone in the Valley uses flood irrigation, but it's 
very popular, and if you don't have the means to do something 
else, you may do that.
    When I talk about--and I really want to talk about 
conserving the river. And you may think that's funny if you've 
been down to the mouth of the river now, because the mouth of 
the river is blocked. The Rio Grande no longer flows. And to us 
it is a tragedy because it was once a mighty river, and now--
partly because of the dams in Mexico because that's where we 
get our water. We do not get our water from the Sangre de 
Cristo range. That's all used up before we get it down here.
    So we get almost all of our water from Mexico. So there is 
two reasons why the treaty is very important and also there is 
two reasons why we need, again, to have water planning. I can't 
stress that too much. I think if you do anything or if you take 
home anything today, think about planning for the future for 
our children and our grandchildren, if not, the Valley will 
simply not be as it once was. It's no longer as it once was, 
but as we live here and we see it develop, we want it to 
develop in a way that we can leave it to our children and to 
our grandchildren, and I think you who live here realize that. 
You in California have your areas.
    All of us wish that we could leave something better for our 
children. So we need to look at better ways to manage water, 
better ways to use water. We need to look at desalination, both 
groundwater and seawater. We have a vast reservoir out here in 
the Gulf of Mexico, and many of the cities and towns are 
banding together to talk about desal and having a desalination 
plant that will serve various communities.
    You say, ``Well, that won't help the farmers,'' but it will 
because it will free up water for farm use. The municipalities 
have first call on the water in the Valley. They are supposed 
to get it no matter what else happens. But if they will go more 
and more toward desalination, that means that the farmers will 
have that much more water. Groundwater is the same way.
    So I appreciate your coming. I appreciate your listening to 
me. I do want you to take home a thought that what the 
whitewing says, it says, ``Who cooks for me?'' And that is what 
the farmers and ranchers have been hearing when they see the 
bird and breakfast people come, ``Who cooks for me?'' So there 
you are. Thank you for being here.
    [The prepared statement of Ms. Campbell follows:]

            Statement of Mary Lou Campbell, Mercedes. Texas

    It is my privilege and duty to come before you today to share my 
thoughts on the subject at hand--Lower Rio Grande River Water 
Security--Opportunities and Challenges. I am speaking today on behalf 
of Sierra Club and Frontera Audubon Society, although I am a member of 
many local, state and national organizations having the well-being of 
our environment as their goal. It is important to note that I represent 
the environmental community on Region M, Rio Grande Regional Water 
Planning Group.
    The Rio Grande River rises in the Sangre de Christo Mountains and 
flows through the San Luis Valley. Here in the Lower Valley of Texas 
the once mighty Rio Grande has been reduced to a mere trickle that 
cannot reach the Gulf of Mexico. A sand bar has closed the mouth of 
this river estuary. The torrent that once carried sand and gravel, yes, 
even flecks of gold ore, to build and replenish our Gulf of Mexico 
beaches is no more. The Rio has been dammed and diverted, over-used and 
blocked by invasive, introduced varieties of plants and trees. The 
water that once flowed from the Sangre de Cristo Range of Colorado and 
New Mexico no longer reaches the Valley. We must depend on the Pecos 
and a few small tributaries from the United States. The principal 
source of water for the Lower Rio Grande comes from Mexico--the Rios 
Conchos, San Juan, Salado and others. The major rivers have dams on 
them to supply Mexico's burgeoning population and industrial growth. 
(Much of it the result of NAFTA policies.) This growth, compounded by a 
major drought in Northern Mexico, leaves little water for South Texas. 
Even if Mexico would or could pay the due portion of the Treaty of 1944 
debt, this water would not solve our long term problems. I would like 
to join others who have suggested that we turn this seeming impasse 
into an opportunity to work with Mexico on water planning for the 
future of both nations.
    Although Texas Senate Bill One suggests a fifty-year horizon for 
the purpose of water planning for Texans, the members of the committee 
of Region M must deal with the realities of here and now. We are in the 
process of amending our original plan to more properly reflect the 
changes and challenges that we see. To be effective the plan must be a 
living document. The municipalities have first call on water so long as 
it is available, in reality the municipal and irrigation users must 
depend on each other. The cities and towns do not all have pump 
stations on the river, so some must rely on irrigation transport to get 
their water to them. The Region M plan calls for an aggressive approach 
to water conservation and use and reuse by municipalities, thus making 
more water available in the system. Part of conservation is also the 
updating of lines and meters within the towns so that the system can 
operate with minimal water loss.
    Not only must we think of water conservation, we must look for new 
sources of water. This strategy must include desalination of both 
ground water and sea water. There are several small programs running on 
desalination of ground water, with more planned as we learn about 
sources of supply. The Texas Water Development Board is currently 
working on a Ground Water Availability Report for our area. The coastal 
regional water planning groups, in order to optimize available 
resources, are working together to plan for desalination of sea water. 
Certainly, desalination of sea water is a viable option. The region is 
located on the Gulf of Mexico. We believe that problems of cost and 
waste disposal can be worked out for an efficient and bountiful supply 
of water not only for our coastal communities, but, in time, for the 
entire Valley.
    Prior to Senate Bill One, which established the regional planning 
groups, the lower Rio Grande Valley formed a water planning group. That 
group was the nucleus for Region M. Key to the plan were improvements 
to the irrigation canal delivery system and on farm conservation. This 
is as true today as it was in 1996, when the group first met. Some of 
the improvements identified were:
    <bullet> LImprovements to irrigation canals, many are very old with 
cracked concrete linings, leaks, breaks etc
    <bullet> LApplication of region-wide on-farm metering and 
volumetric pricing
    <bullet> LInstallation of on-farm high-tech application methods
    <bullet> LTraining for on-farm high-tech management
    <bullet> LNon-agricultural water conservation
    <bullet> LImpacts of urbanization on irrigation water requirements
    <bullet> LRegion-wide water accounting system for accurate 
measurement of the Water Conservation Projects
    <bullet> LSCADA System to more effectively monitor and manage the 
delivery of water from the Falcon-Amistad Reservoir system to the Lower 
Rio Grande Valley
    While we recognize that this is a very impressive list of 
improvements, we believe that they are essential to the long term 
viability of agriculture in the Lower Rio Grande Valley. We have been 
noted and still are a ``bread-basket'' to the world. However, without 
water-saving improvements to our water systems, we will no longer be 
able to sustain that place and honor. The committee acknowledges the 
help of the United States Agricultural Research Center in Weslaco, the 
Texas Agricultural Extension Service of the Texas A&M University System 
in Weslaco and the Department of Agricultural Sciences of Texas A&M 
University of College Station, Texas in planning. We will depend upon 
them for help in training for the implementation of these water saving 
methods.
    I ask for your support of H.R.2990 and the amendments thereto that 
pertain to the viability of agriculture in the Rio Grande Valley of 
Texas.
    As a volunteer for the environment, I believe that human and 
wildlife values for water are of equal importance. Some of our plants 
and animals live in a water dependent locale, others need only access 
to water for drinking or food source and yet others can thrive in an 
arid atmosphere. Yet, they all need some type of moisture, if only 
limited to the occasional drop of dew. We must consider wildlife and 
their habitat in our planning for water. One thought would be to ensure 
adequate freshwater flows in the river. On the United States side 
almost none of the water taken from the river is returned whether for 
domestic or on-farm use. In Mexico, much of what is returned is not 
treated and may even prove a risk to both man and animals. The (once 
and future) estuary at the mouth of the river is an important nursery 
for white shrimp, bait fish and sportsfish, namely snook. The bays and 
estuaries of Texas are a multimillion dollar nursery ground for the 
Gulf of Mexico.
    In the past the leaking canals and wide-spread use of ``flood 
irrigation'', proved to be a source of water for wildlife. Other than 
the Rio Grande and the Arroyo Colorado, we do not have springs and 
streams in the lower valley, so the wildlife has become dependent on 
canals, livestock tanks and overflow of antiquated irrigation towers. 
Many of our species have ``moved to town'' where a source of fresh 
water is often the runoff from lawn watering and car washing. 
Recognition is growing throughout the valley of the value of native 
birds, plants and animals. Nature parks and nature trails are being 
established. Texas Parks and Wildlife has established the regional 
birding trails. Again under the umbrella of Texas Parks and Wildlife a 
Texas Birding Center is being built in the Valley with satellite 
centers in seven valley cities. A National Butterfly Center is planned 
for Mission.
    The U.S. Fish and Wildlife Service manages three National Wildlife 
Refuges: Santa Ana, Laguna Atascosa and Lower Rio Grande.
    These refuges, when completed, will establish a wildlife corridor 
along the Rio Grande from Boca Chica Beach to Roma and Rio Grande City. 
In addition Laguna Atascosa has both beach and bay habitat for bird and 
animal and plant species. These three refuges represent millions of 
dollars worth of expenditures both to buy and maintain. They are an 
important part of the economy to the Valley. We are learning that 
hunters and fishers, birders and hikers bring new dollars.
    Tourism is the third largest industry in Texas. Nature tourism is 
the fastest growing sector of the tourism industry. Wildlife watching 
is the Number One sport in the United States, with birding the fastest 
growing hobby. Texas is the Number One birding destination in the 
United States. The Rio Grande Valley is the Number One birding 
destination in Texas, with over 500 species sighted, including more 
than 40 rare or endangered species. Over 200,000 people come to watch 
birds and wildlife every year, accounting for more than $100 million in 
spending. Using a multiplier effect of 1.7, wildlife watching accounts 
for over $170 million in local economic impact annually. Nature tourism 
in the Valley sustains over 2,000 jobs and accounts for approximately 
$100,000 per year in local spending. It is essential that we have 
enough water to maintain habitat.
    For the above and other good reasons that others will testify to, 
we ask for funding so that the Valley will continue to thrive and that 
we who live here can use our resource both wisely and well.
    Thank you for the opportunity to testify, Mary Lou Campbell
                                 ______
                                 
    Mr. Calvert. Mr. Feild, from Brownsville Chamber of 
Commerce.

 STATEMENT OF FRANK FEILD, PRESIDENT, CEO, OF THE BROWNSVILLE 
                      CHAMBER OF COMMERCE

    Mr. Feild. Good morning, Mr. Chairman and members of the 
Committee. Welcome to the end of the river. Thank you for 
taking time from your families and busy schedules to visit us.
    Water issues in our area are extremely complicated. There 
are a lot of agencies and players involved. Many claim to be in 
charge while few want to accept responsibility. Our water 
source is an international boundary, and anything we do 
requires agreement with Mexico, who has the same problem with 
their own agencies, players, and responsibility.
    Brownsville's National Weather Bureau chief says we're in 
the third or fourth year of a seven to 9-year drought. Our 
water reserves are dangerously low. In Brownsville, we pray for 
hurricanes, since their rains will fill our reservoirs.
    Mexican farmers in the Rio Conchos basin are using water 
that belongs to Rio Grande Valley farmers and then using their 
increasing wealth and political muscle to keep Mexico from 
releasing our water in compliance with the 1944 treaty.
    What water we do have coming down the river is blocked by 
aquatic plants, requiring the watermaster to use our farmers' 
water just to push the municipal water downstream. This 
aggravates an already desperate situation.
    When the water reaches municipalities, particularly on the 
Mexican side of the river, they don't have reservoirs for 
storing the excess. So we watch as millions of gallons rush 
past us toward the ocean every day.
    Finally, the mouth of the Rio Grande River has been plugged 
by a sandbar for most of the last 15 months, obscuring the 
international boundary and causing unimaginable environmental 
consequences.
    I wish I could offer you a package of silver bullets to fix 
these problems. What I can offer is the assurance that we're 
not going to just whine about our lot in life, but we're going 
to do all we can to ensure that we have a reliable, cost-
efficient, quality water supply for municipal, industrial, and 
agricultural use. If we fail, not only will our crops and 
landscape dry up and blow away, but so will our economy.
    But at the end of the river we're blessed with creative 
leadership in this time of crisis. Brownsville's Public Utility 
Board has spent years developing strategies to efficiently use 
water and move away from reliance on the river.
    I've provided fact sheets on four of their key programs. 
The Brownsville Weir and Reservoir Project is an in-river 
reservoir designed to catch and hold some of this excess water. 
Our brackish groundwater desalination plant will provide nearly 
half of the city's daily water needs when it becomes 
operational. The resaca restoration project will give us 
additional water storage capacity and protection from flooding 
during future hurricanes. The water reclamation project will 
use treated effluent for landscaping and agriculture.
    Congressman Salomon Ortiz is intimately familiar with each 
of these critical projects and will be asking for your help to 
move them along. Please support our Congressman and you'll be 
helping this community.
    We also need to modernize our agricultural water delivery 
systems, which currently use 85 percent of the water taken from 
the river. Even modest savings here could equal more water than 
municipalities use. We support 2990 legislation.
    Experts tell us the solution of choice for the aquatic 
plant blockage is chemicals. However, the Mexicans are afraid 
their water processing plants can't filter out the chemicals. 
We may have to assist them with technical and financial support 
to upgrade their capabilities, or even begin selling them 
treated water.
    Another alternative might be a major Corps of Engineers 
dredging operation to remove aquatic plants from the river. Our 
problems are mild compared to what the 600,000 plus inhabitants 
of our sister city, Matamoros, Mexico, are facing. They're 
trying to run an antiquated water processing and distribution 
system for a population that is growing by leaps and bounds. 
They are also victims of the Mexican agriculturalists in the 
Rio Conchos basin who are withholding water. But Matamoros is 
our neighbor, and we have a moral obligation to help them if we 
can.
    The Cross Border Institute for Regional Development, known 
by the acronym CBIRD, is a binational public/private initiative 
to promote regional partnerships, introduce new technologies, 
and encourage strategic economic development visions. It was 
conceived by Dr. George Kozmetsky, architect of Silicone Valley 
and the Austin Telecommunications Corridor.
    CBIRD recognizes that unless we solve the water and 
telecommunications problems in our region, we will never move 
forward. CBIRD is currently developing a binational, regional 
program to address our water issues. This is not just another 
agency trying to take charge, but an honest broker and 
facilitator who can pull together diverse players to 
communicate, cooperate, and collaborate. Thank you for the 
opportunity to testify.
    [The prepared statement of Mr. Feild follows:]

 Statement of Frank E. Feild, President & CEO, Brownsville Chamber of 
                                Commerce

    Good morning, Mr. Chairman and members of the committee. Welcome to 
the end of the river.
    Thank you for taking time from your families and busy schedules to 
visit us.
    Water issues in our area are extremely complicated. There are a lot 
of agencies and players involved. Many claim to be in charge, while few 
want to accept responsibility. Our water source is an international 
boundary, and anything we do requires agreement with Mexico--which has 
the same problem with their own agencies, players, and responsibility.
    Brownsville's National Weather Bureau Chief says we are in the 3rd 
or 4th year of a 7 to 9 year drought. Our water reserves are 
dangerously low. In Brownsville, we pray for hurricanes'since their 
rains will fill our reservoirs.
    Mexican farmers in the Rio Conchos Basin are using water that 
belongs to Rio Grande Valley farmers; and then using their increasing 
wealth and political muscle to keep Mexico from releasing our water in 
compliance with the 1944 treaty. What water we do have coming down the 
river is blocked by aquatic plants; requiring the watermaster to use 
our farmers' water just to push the municipal water downstream. This 
aggravates an already desperate situation. When the water reaches 
municipalities, particularly on the Mexican side of the river, they 
don't have reservoirs for storing the excess; so we watch as millions 
of gallons rush past us toward the ocean every day. Finally, the mouth 
of the Rio Grande river has been plugged by a sandbar for most of the 
last 15 months; obscuring the international boundary and causing 
unimaginable environmental consequences.
    I wish I could offer you a package of silver bullets to fix these 
problems. What I can offer is the assurance that we are not going to 
just whine about our lot in life, but do all we can to insure we have a 
reliable, cost efficient, quality water supply for municipal, 
industrial and agricultural use. If we fail, not only will our crops 
and landscape dry up and blow away, but so will our economy.
    But, at the end of the river, we are blessed with creative 
leadership in this time of crisis. Brownsville's Public Utility Board 
has spent years developing strategies to efficiently use water and move 
away from reliance on the river. I have provided Fact Sheets on four of 
their key programs. The Brownsville Weir and Reservoir Project is an 
in-river reservoir to catch and hold excess water. Our brackish 
groundwater desalination plant will provide nearly half of the City's 
daily water needs when it becomes operational. The resaca restoration 
project will give us additional water storage capacity and protection 
from flooding during future hurricanes. The water reclamation project 
will use treated effluent for landscaping and agriculture. Congressman 
Solomon Ortiz is intimately familiar with each of these critical 
projects and will be asking for your help to move them along. Please 
support our congressman and you will be helping this community.
    We also need to modernize our agricultural water delivery systems, 
which currently use 85 percent of the water taken from the river. Even 
modest savings here could equal more water than municipalities use. We 
support the 2990 legislation.
    Experts tell us the solution of choice for the aquatic plant 
blockages is chemicals. However, the Mexicans are afraid their water 
processing plants can't filter out the chemicals. We may have to assist 
them with technical and financial support to upgrade their 
capabilities, or even begin selling them treated water. Another 
alternative might be a major Corps of Engineers dredging operation to 
remove aquatic plants from the river.
    Our problems are mild compared to what the 600,000 (+) inhabitants 
of our sister city, Matamoros, Mexico are facing. They are trying to 
run an antiquated water processing and distribution system for a 
population that is growing by leaps and bounds. They are also victims 
of the Mexican agriculturalists in the Rio Conchos Basin who are 
withholding water. But, Matamoros is our neighbor and we have a moral 
obligation to help them if we can.
    The Cross Border Institute for Regional Development, known by the 
acronym CBIRD, is a bi-national, public-private initiative to promote 
regional partnerships, introduce new technologies and encourage 
strategic regional economic development visions. It was conceived by 
Dr. George Kozmetsky, architect of Silicone Valley and the Austin 
Telecommunications Corridor. CBIRD recognizes that unless we solve the 
water and telecommunications problems in our region, we will never move 
forward. CBIRD is currently developing a bi-national, regional 
conceptual program to address our water issues. This is not just 
another agency trying to take charge, but an honest broker and 
facilitator who can pull diverse players on both sides of the river 
together to communicate, cooperate, collaborate, coordinate and 
integrate.
    Thank you for the opportunity to testify.
                                 ______
                                 
    Mr. Calvert. I thank you, gentleman. Mr. White, I 
understand your anger, and I understand your frustration. 
Before I got into this kind of work, I was a businessman, and I 
dealt with daily problems, regulations, and payroll, and the 
rest of it.
    You can deal with issues that you can control, but it's 
difficult to deal with things that are outside of your control. 
And that's what you're faced with, something that's not the 
fault of your own, but you're placed into a situation that is 
extremely frustrating.
    I want to assure you, though, that this President--and I'm 
certainly going to convey the message to him, and all of us, 
certainly our colleagues, Mr. Bonilla, and all to the President 
the suffering that's taking place here and the problems that 
will only grow in severity in the next number of weeks and 
months if this isn't addressed immediately.
    Unfortunately, I'm sitting here looking at a senate 
resolution that apparently was passed Wednesday, calling on 
Vicente Fox not to give anymore water to the United States 
that's not part of the previous bilateral agreement. Of course, 
this is a part of the bilateral agreement, but I would like to 
get the authority of the President to make sure the water is 
delivered to the United States as per the treaty.
    But I can imagine that you're representing not only 
yourself and your irrigation district and the farmers that take 
place, but all of the farmers in this entire Valley, and the 
reason we're here, at Mr. Ortiz' insistence--and he didn't have 
to insist too hard, because I understand. I, unfortunately, 
have to go around the country, and I've heard problems within 
our own country, but we can deal with those generally. It's 
difficult to deal, as I mentioned earlier, with things that are 
outside the province of the Congress. But the State Department 
certainly can, essentially, and we'll do everything we can to 
help.
    Mr. White. I appreciate that, sir. I would like to say, 
obviously, due to the situations that we face now, unless we 
don't get some immediate relief soon and continued relief 
monthly, this is going to become a boiling point down here, and 
it's going to be very unfortunate if incidents take place that 
would be detrimental to both the United States and Mexico.
    Mr. Calvert. I understand. And I'll certainly work with the 
people represented here on this panel, who--to work toward 
appropriations on public law 106-576 and to work with Mr. Ortiz 
on his legislation. We have legislation throughout the United 
States and we need to have better water policy through the 
country, certainly in the west and in the southwest, on water 
because these crises are going to grow throughout this country 
and we need to address it more specifically in our priorities.
    Ms. Campbell and Mr. Feild mentioned this also in his 
testimony the issue of nonnative species of plants that have 
entered into this system. This, obviously, is taking up a lot 
of water. This is something that's happening throughout the 
United States, by the way, Orlando, and now this other species 
that apparently is not only blocking the river, but I'm sure 
absorbed up a lot of water in the process.
    I don't know how the environmental community feels about 
this, and so I guess I'm going to ask you, since you're here, 
about using extraordinary ways to try to rid the river of this 
species. Sometimes it takes extraordinary means to do something 
like this. Has there been talk in the environmental community 
of using chemicals that in the short run may seem somewhat 
odious, but in the long run could provide for better and more 
healthy river systems?
    Ms. Campbell. There are problems, yes, I'll be frank with 
you. We are dealing, though, with an invasive species, 
nonnative species, exotic species, if you will. Never mind how 
it got there.
    Yes, it is an exotic species. It is not native. It is not 
something--we prize our native plants, but this is not a native 
plant. We have been attending the meetings. Right now it is in 
the hands of Mexico. It is not in the hands of the 
environmentalists.
    We, as a rule, do not believe that spraying should be 
introduced into the river. There are, however, some products 
that are more short-lived than others, and so we have--we are 
looking at it. We're not saying that we do--across the board do 
not approve. We are saying that there is a question in our 
minds because the Rio Grande, when it is open, is a very 
important estuary to the Gulf of Mexico. It is terrifically 
productive, particularly for white shrimp, for snook, which is 
a game fish. The only place that snook breed, other than 
Florida, is at the mouth of the river.
    So we need to be very, very careful about what we do. 
Sometimes we think, ``Well, this is for a very good reason, so 
let's go ahead and do it,'' but then we don't think of the 
consequences. And these invasive species were introduced, 
quote, unquote, for a good reason, perhaps, but without looking 
at the consequences of how they might block the river. And, 
yes, we are aware that they use water, and, yes, we are aware 
that they are there, and, yes, we have been down to the river. 
So we will try our best to work within the parameters that we 
are given, but we will also be there to advise or to point out 
problems that may arise.
    And Mexico is right to question because they don't want to 
poison their people by something. And, you know, I can't speak 
for Mexico except to say that I have been in meetings. They do 
want biological studies. And that appears to me to be what is 
holding up the poison, if you will, of the invasive species.
    Mr. Calvert. Appreciate your help. Thank you. Mr. Ortiz.
    Ms. Campbell. By the way, I do have written testimony, and 
I would ask that that be--
    Mr. Calvert. It will be entered into the record, and we 
will keep the hearing open to enter any testimony into the 
record.
    Ms. Campbell. Very well. Thank you.
    Mr. Ortiz. Thank you, Mr. Chairman, and I want to thank the 
witnesses for their eloquent testimony this morning. I feel 
like my good friend Mr. White. We've been working on this issue 
for many years. I am angered by what has transpired in the 
past, and I can assure you these members who are here will not 
let you down. We're going to fight for you, and we're going to 
fight for our community, and I have in the last few weeks 
considered maybe imposing sanctions on Mexico. And this is only 
on my own personal. We need to be sure that they get our 
attention, and trade is very important because it's two 
countries, and maybe formulate a plan that those areas where 
they are using or utilizing some of this water, prohibit their 
exports from coming into this country. This is only a 
consideration now. I hope that we can in a very amicable way 
arrive soon at a solution.
    Do you think, Mr. White, that sanctions might work?
    Mr. White. Congressman, I don't know. Obviously, any type 
of punitive actions possibly could do some good. The problem we 
have now, we're so behind the eight-ball in time that by the 
time those sanctions take effect and would force Mexico to the 
table, we might be out of business. That's our concern right 
now.
    Obviously, though, for the future, they're going to have to 
be considered. Short time approaches. I really don't know with 
the limited supply of water Mexico has. They do have some 
water, though. They can give us some water that will help 
alleviate our position right now and can do that continually at 
least through the growing season.
    No, it will not meet all of our needs, but it will reduce a 
lot of our losses. One thing that might be considered is actual 
economic reparations to these people that have suffered down 
here because of the inability or the unwillingness of our 
Federal Government to protect us. It is the State Department's 
responsibility to protect U.S. Constituents who are impacted by 
this treaty. If they are not going to do that, then these 
people should be entitled to reparations for the damages that 
inactivity has cost them. So that could be something else also 
considered.
    Mr. Ortiz. We'll look at that because I think that we have 
the responsibilities--sometimes those of us, you know, might 
not have the votes to get things done.
    Mr. White. I understand.
    Mr. Ortiz. But, as you can see, this is a bipartisan 
committee. And I love my Chairman. He's a great guy. No, we 
have worked--not only do we--are we members of this National 
Resources Committee and a member of this Subcommittee, but 
we're also members of the Armed Services Committee. And you'll 
see that most of the members serve on both committees, as Mr. 
Rodriguez, myself, and my Chairman here.
    But I think that they understand the frustration that this 
community and other communities are going through, and we want 
for you to give us your recommendations as to how you see or 
what we need to do to repair this damage. And I agree with like 
when the gentleman in the State Department said, ``Maybe by 
September we'll get the water.'' Well, this is not going to 
help the farmers. There is a season for planting. September is 
not the season to begin planting at all.
    And I know that this is one of the second--next to Las 
Vegas, Nevada, this is the second largest populated place in 
the nation, growing by leaps and bounds.
    Mr. Feild, how is that impacting now, you know, that since 
we're growing so much, and, economically, has this community 
felt the impact?
    Mr. Feild. This community has not really felt the impact 
yet, Mr. Congressman. I think we're just beginning to wake up. 
Some of the leadership here has seen the problem coming and has 
tried to plan for it. I--without appearing to throw bricks, our 
media has not kept our people informed of the problem and, all 
of a sudden, we have a crisis thrust upon us which has created 
a lot of fear and panic in the community.
    Realistically, we constantly have to be looking for 
solutions. Not just solutions for today's problems, but 5 
years, 10 years, 20 years down the road. Those are the things 
that we need to be looking at. All we can do right now is 
react. We--the factor of being able to plan has been taken away 
from us. We can plan for what's going to happen in 10 years, 
and that's where we need to be.
    As far as what impact that this is going to have on our 
economy, obviously, there is a great deal of uncertainty now as 
to what our water futures are. That impacts on recruitment of 
new industries. It impacts on expansion of existing industries. 
And the fact that we are tied at the hip with Mexico, 
Matamoros, and sister city relationships all up and down the 
border means that what happens in one area is going to impact 
dramatically in the other area.
    So we can't look at this just as the U.S.'s problem. We 
can't look at it just as U.S. Farmers' problem. It also 
involves the municipalities. It also involves Mexico, their 
farmers, their municipalities. It's a regional problem for all 
of the people who drink from the river.
    Mr. Ortiz. Thank you. You know, somebody told me one time 
that they had developed a herbicide by the name of Komeen or 
something like that. Has that been tested? Is that a safe 
chemical?
    Mr. White. Yes, sir. We use it all the time on our interior 
canal systems. It's used widely throughout the Valley, even in 
a lot of water treatment plants in your--you know, in the 
reservoirs and everything. It's just a copper-based product 
that basically the plant will take up and will fragment its 
cells. It's used quite commonly everywhere.
    Mr. Ortiz. Because, if I understand correctly, Ms. 
Campbell, the hydrilla is eating up the native plants. Am I 
correct when I say that, or is it not?
    Ms. Campbell. I really wouldn't say that. That's not my 
understanding of the hydrilla eating up the native plants. What 
it is doing is taking up space in the river and taking up 
water, and that is the problem, and blocking the flow of water.
    Komeen is something that is being studied, and it can be 
used if properly applied. It does have a rather short life. It 
just needs to be--it should be applied in flowing areas, which 
right now the river is not. But, there again, I would leave 
that to other people, except tell you what I know about it. I 
am neither a chemist nor a scientist.
    Mr. Ortiz. But if I understand correctly, Mexico government 
is against utilizing these chemicals. Is that a problem?
    Ms. Campbell. They are against using the chemicals, yes, 
sir, mainly because many of their processing--they do not in 
many places have water processing testing plants that might 
screen out chemicals. Some people even use the water directly 
from the river for domestic purposes.
    Mr. White. Congressman, the Mexican border towns now 
realize that this is a tremendous, tremendous problem and 
something has to be done. They have agreed now to have a 
chemical treatment as a experimental project done below the 
intake of Matamoros, which is the last, you know, draining 
water intake on the Mexico side.
    So there is going to be a test pilot, so to speak, where 
they will use some different chemicals to see how they will 
work and also what the end results will be. They will be 
monitored and everything. So they realize that the problem is 
just as--it's probably greater for them than it is for us in 
certain situations. So they want to do something just as much 
as we do.
    Mr. Ortiz. Do they have an effective date when they might 
start doing such a thing?
    Mr. White. Supposedly, all this has to be arranged through 
the IBWC, and let me tell you, as you can see from our 
experiences with IBWC on this water issue, there is no telling 
how long it will take.
    Mr. Ortiz. We'll put a little fire under that. Thank you, 
Mr. Chairman.
    Mr. Calvert. Mr. Rodriguez.
    Mr. Rodriguez. Thank you, Mr. Chairman, Mr. Feilds, and I 
guess all three of you, I wanted to ask you one question and 
I'll also make some comments. But one basic question. And I 
gather from some of your comments that the seriousness of the 
situation has not filtered down to the grass roots, and at 
least maybe some indications of that are that we still have 
some segments of the community that might not understand how 
serious this situation is.
    And I would want maybe to get some feedback from all three 
of you as to what else we might be able to do, informing 
coalitions or other groups or working with the other side, in 
helping to educate each other as to what needs to happen on 
both sides in order for it to occur.
    And I know that, you know, from my perspective, I've worked 
real hard to get a World Birding Center in Starr and Hidalgo, 
and I don't know if people understand the importance of the--
what the Audubon Society has done for the birds. Two-thirds of 
all the species of North America--Mr. Chairman, two-thirds of 
all the bird species of North America come through Cameron, 
Hidalgo, and Starr, those three counties, and most people don't 
realize that. And we--it's not only in terms of the importance 
of those species, but also the importance of the tourism and 
the dollars that it brings.
     And I know Mr. Feilds realizes the resource that it 
brings. A lot of people think of, ``Well, birds, what does that 
mean to me?'' But it means dollars. It means a lot of other 
things, and I know that it's difficult. I reside in an urban 
area and I have a--and I also represent rural area, and I have 
a rough time explaining to urbanites the importance of farmers 
and the fact that we all have a stake in farming, and we all 
eat, and we all have a stake. If the farmers are having 
trouble, we're all having trouble.
    And so I also want to just indicate that I heard all three 
of you loud and clear. I also heard, Mr. White, your 
frustrations with both the State Department and any Federal 
administration, and I would say that that occurs also not only 
with the Democrats but Republicans aside. We always--we seem to 
have as a Congress from the legislative branch, you know, have 
difficulty with the bureaucrats, and we sometimes share that 
same frustration from that perspective, but I wanted to get 
your feedback as to what else we might be able to do to help 
educate, help coordinate, and help get support both from Mexico 
and from this side on the subject.
    Mr. White. Congressman Rodriguez, I'd like to say one 
thing. The A&M report out now shows that the lack of having 
this treaty obligated water, this 1,500,000 acre feet of water, 
has cost this region $1 billion, and that's with a ``B.''.
    We are the lowest per capita income region in all of the 
United States. You can't tell me that it hasn't affected 
everybody indirectly in this whole region when you take $1 
billion out of the economy. That's from Brownsville all the way 
to McAllen, whatever. Everybody has been affected.
    Mr. Rodriguez.  If I can interrupt you right there, for the 
Chairman and for Grace Napolitano, Starr County, which I 
represent, in the 2000 census was one of the poorest counties 
in the entire United States.
    Mr. White. Yes, sir. And taking this amount of revenue out 
of our economy has been a huge hickey, and right now the sad 
thing is this is the worst year that we're facing. What the 
damages are going to be this year could far overshadow what 
that $1 billion did from each of the other past years. It could 
very well double or triple individual years within that $1 
billion timeframe. It's very scary, very, very scary.
    Mr. Rodriguez.  I want to get some feedback from all three 
of you as to maybe what other recommendations you might have as 
to what else we could do to reach out to the other side, those 
people that might feel the same way that we do in terms of kind 
of making things happen.
    Mr. White. Well, Congressman, I'll shut up after one other 
thing, but I know we have had a conservative effort to get with 
the Mexican growers on the Tamaulipas side, and this is getting 
to be a very good union now. We're holding our hands because we 
realize that the problem to our whole situation--their water 
comes from our same source, this Rio Grande River, and for 
every drop that we're supposed to get from the treaty, they get 
two drops. Well, since we haven't gotten our one drop, it's 
been a double impact on them.
    They know that the State of Chihuahua has been illegally 
hoarding and using this water. We are in agreement on that and 
we have reached out to them. So in the sense of making it known 
throughout the community, we have gotten that working now in a 
binational sense where we're going arm in arm together.
    Ms. Campbell. I think regional water planning is very 
important, and by the region I'm talking about the whole basin. 
But I would also say that perhaps we might look at the--the 
Texas experience with Senate Bill 1 where we were divided into 
regions and each of us in the regions where we lived then 
studied those problems and those good things that we had and 
are coming up with recommendations.
    Now, the Senate Bill 1 has a 50-year life-span, if you 
will, and most of us won't be around at the end of that time. 
But we do feel that we are looking ahead and that we are 
planning ahead. How we might make a sovereign country come to 
the table and do that type of planning with us, I can't give 
you that answer. But I can say that perhaps through diplomatic 
sources we might get them to look at similar problems that we 
have had in Texas and then to look at planning with Mexico.
    Now, in our region and committee, which I sit as an 
environmental representative, strangely enough, we always have 
an interpreter present. People from Mexico and from the Mexican 
water authorities are always welcome. And that is part of our 
plan.
    We have had to revise our plan over what it was because we 
did not get the water from Mexico, and it does not look as if 
we are going to have it in the conceivable future. So we are 
looking then at other more innovative ways, which I spoke 
about, and also we are looking, and the farmers and ranchers 
are looking, at ways to augment their income by tourism and 
that nature tourism that I spoke about, and that you spoke 
about the World Birding Center, which was one of the entities 
of this whole nature tourism in the Valley because now almost 
every little town has a nature center and they invite birds and 
they put out feed for them and they leave native plants for 
them.
    And I have a little bit of just a few suggestions that I'll 
bother you with, but it is in my testimony also. Over 200,000 
people come to the Valley to watch birds and wildlife every 
year, every year, accounting for more than 100 million in 
spending.
    Now, I'm not saying that that should surpass agriculture. 
I'm not saying that at all, and I don't want to leave that 
impression. What I am saying is that we can work together on 
this and that we can look at agriculture to go on, because 
we've been known as a bread basket since the '20's. At any 
rate, we want to continue to be a bread basket. We're proud of 
that.
    We do not want to see our Valley become a parking lot, if 
you will. And that is what may very well happen if we do not 
keep agriculture alive. If our growers cannot continue to grow 
and work, then that land will have to be sold at some time. And 
where will it go? It will go to that urban sprawl, and that's 
what scares a lot of us. And that would also dry up one of the 
life bloods of the Valley, which is nature tourism. Thank you.
    Mr. Calvert. Thank you. Gentleman, time has expired. Ms. 
Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chair. There were comments 
by Mr. White that I also was questioning who and why the State 
Department hadn't moved forward on this years ago since they 
know--and I know I was briefed by Congressman--my colleague, 
Solomon Ortiz a year and a half ago, who called me to his 
office, ``The water commissioner is here, why don't you talk to 
him?'' And so we sat and talked about it.
    Well, you kind of expect agencies to take care of things, 
but, somehow, it's been lacking. For whatever reason they have 
not moved forward. That's why I had suggested earlier that 
maybe a congressional inquiry, as was brought up, might move it 
forward. But even that, that's not going to help now. The 
crisis is here now.
    Is there any movement by the affected communities, their 
mayors, to appeal to the Governor for emergency legislation to 
be able to draw Federal funds, declare it an emergency area, 
and at least begin the process of being able to address this? 
We do it for hurricanes. We do it for fires. We do it for other 
things. Why not--I mean, you're in dire straits.
    You're losing not only money, you're losing habitat, you're 
losing a lot of businesses. The economy and the people are 
being affected, not just on this side, but on the other side. 
How do we maybe get some of these folks to sit and understand 
how critical--how important this is? Then the other--and I'm 
sorry that my friends from the Bureau and from the State 
Department left because one of the things--
    Mr. White. I'm not surprised.
    Mrs. Napolitano. Well, we really should have them sit and 
answer some questions because one of the questions I have is 
dredging. What can they do? And my specific question to the 
lady was ``Are you funded?'' And, of course, they're not.
    Well, excuse me, then how do you expect to be able to help 
the region be able to address some of the issues if you don't 
have the funds to carry out projects?
    Dredging is essential. Now, if it's choking the lifeline 
out of the river, then we need to get the Bureau to move on 
that, and that's some of the things that I was hoping that 
somebody would--they're still here? No? OK. But both agencies. 
And one of the other things is do the agencies talk to each 
other?
    Mr. White. I don't know that. I really don't know.
    Mrs. Napolitano. Do they communicate? And especially for 
this area as regards this region, any idea?
    Mr. White. The only thing I can tell you is over 4 years 
ago I was in Washington. We were sitting in the State 
Department, we had some very high State Department people in 
there. And after we pled our case to them, they said, ``I want 
you to know this is of the highest priority, of the highest 
priority.'' And, I mean, they hit the table, ``This is of the 
highest priority to get this thing resolved.''.
    Mrs. Napolitano. How long? For 5 minutes maybe.
    Mr. White. Oh, yeah, but just kept hammering, ``It is the 
highest priority.'' Well, by God, that was 4 years ago. I 
wonder what has happened to the low priority items. That was 4 
years ago.
    Mrs. Napolitano. And one of the things is the 
Administration has changed. Sometimes with leadership changes 
they take different priorities. But maybe if we find out who in 
the State Department to talk to and we start with them and 
bring them to the table and say, ``OK. What have you done in 4 
years?''.
    Now, one of the other things that I wanted to ask are the 
water districts in the communities prepared to take action if 
the Federal assistance comes down? Anybody?
    Mr. White. In what way, ma'am? I don't quite follow you.
    Mrs. Napolitano. In dealing with trying to address the 
immediate need.
    Mr. White. Economically?
    Mrs. Napolitano. Economically. Of course, water deliveries 
and other things. But, I mean, if you--and I'm not saying about 
release of water because that's still very contentious.
    Mr. White. Well, obviously, what I was referring to a while 
ago about economic reparations, that would go more or less to 
the ag community. As it is now, the cities in a sense have not 
been impacted by this water shortage because of the unique way 
we run the Rio Grande System. Their water supplies are 
protected. They have not had a shortage.
    Mrs. Napolitano. But if you were able to take some of that 
muni water and transfer it to water, wouldn't that be of some 
help if you had ability to deal with additional water supply to 
the muni?
    Mr. White. Oh, yes. I mean, any type of water supply would 
help.
    Mrs. Napolitano. I mean, putting everything into a puzzle, 
fitting a puzzle, it isn't just one thing that's going to help 
address this, it's many things, and it's all agencies working 
together. Am I correct?
    Mr. White. That's correct. As a matter of fact, the next 
panel coming up, they're going to address that in depth.
    Mrs. Napolitano. Then with Ms. Campbell, I agree with you, 
we need to look at desalination. We need to be able to look not 
only at desal, but conservation, which California has done, 
also storage, because you apparently don't have aquifers. So 
maybe storages.
    Ms. Campbell. Well, we do have some aquifers. But some of 
that water is not potable. And so we're looking at desalination 
of groundwater also as well as seawater. So, yes, and we have 
some--we do use some wells in the Valley. I myself have three 
wells. So we look at everything, or try to.
    And as far as dredging in the river, there has been some 
dredging. A cutter dredge has been used to work the hydrilla. 
But one of the things about it is it makes small particles and 
then they go off and grow more. It kind of acts like a mother 
and lets it go every place. So it would have to be a dredging--
a large dredging operation. I'm not sure.
    Mrs. Napolitano. With some pesticide added to it so it 
doesn't come back.
    Ms. Campbell. Perhaps. And I'm not advocating that, you 
understand. We're just brainstorming here. Because I would have 
to look at all the measures to see--to support that.
    Mrs. Napolitano. Thank you very much.
    Mr. Calvert. Thank you, gentlelady. OK. I certainly thank 
this panel for your testimony and for answering our questions. 
We appreciate it very much. Mr. White, I can tell you have a 
final comment.
    Mr. White. Mr. Chairman, there is one grower sitting right 
behind me that came up and wants to know if he could just make 
one brief comment during this segment.
    Mr. Calvert. We'll make an exception here, and we'll have 
this gentleman make a brief comment so we can move on to the 
last panel. Please, for the record, please state your name.

 STATEMENT OF SAM SPARKS, PRESIDENT, VALLEY WATER DISTRICT AND 
                      IRRIGATION DISTRICT

    Mr. Sparks. My name is Sam Sparks, and I'm president of 
Valley Water District and Irrigation District. We have released 
our manager. We let him go because we have no water to sell so 
we had no income, and, as a result, we have paced the district 
way down.
    But as far as seeking out support in Mexico to help us as 
we deal with this, I think the political ramifications would 
spark tremendous movement on behalf of Mexican interest if we 
just said, ``Look, a million and a half acre feet of water 
that's flowing down to you from Colorado--the Arizona and the 
California interest can do that and put in new lands and do 
with that water and will make great use of it. Now, you're 
getting a million and a half there and you're getting 60,000 
for Juarez, and you owe us 450,000 and you can't pay us 450,000 
while we're delivering a million and a half plus 60,000 to 
you?''.
    Just take that water and say to Mexico--the beneficial 
users over in Mexico, if they saw they were going to lose 
Colorado water, don't think they wouldn't put pressure on Fox 
to deliver water out of the Rio Conchos down here to this area. 
But we could just say, ``Look, we're going to take the Colorado 
water and we're going to sell it to the Arizona and the 
California interest, and we're going to take that money and 
come to the Rio Grande Valley and we're going to shrink the 
irrigation districts down to 40 percent of the size they are 
now, and we're going to only count on water that originates in 
the United States to meet this need.''
    Mr. Calvert. Thank you. Thank you, gentleman. I thank this 
panel.
    Mr. Cantu. May I have permission to address you?
    Mr. Calvert. Just a very quick statement. Please state your 
name and occupation for the record.

               STATEMENT OF ARNOLDO CANTU, FARMER

    Mr. Cantu. My name is Arnoldo Cantu. I'm a retired teacher, 
retired lieutenant coronal from the Air Force. I'm farming and 
doing a beautiful job of planting seed in dry land. I wish you 
would--before I start, how many of you are farming on the 
panel? Are you a farmer?
    Mr. Calvert. No, sir.
    Mr. Cantu. Well, only a farmer can tell you right now the 
problems that we have. Not one farmer would cease planting to 
feed the people in the United States. We do not have the water 
to even make our money. We have been for 5 years we had a 
horrible time. Who do we talk to?
    For the last few years a tremendous amount of people have 
tried to help us. We cannot keep on blaming the lack of water. 
It's a whole situation. In Oregon and California a little 
sardine kept the farmer from getting the water. Here we have a 
lot of things keeping us from getting the irrigated water. We 
need help and we need help yesterday, not today.
    Congressman Ortiz will verify that I was in Washington in 
April, and we addressed a Hispanic group of congressmen out 
there, and yet--they're wonderful people, but being wonderful 
doesn't help to survive. The dinosaurs disappeared. We don't 
know now why. Farmers will disappear from this area if we do 
not get help.
    And I want to thank you people for being here, and look 
closer to what we're doing. We're all trying to help one 
another. We need help now, not tomorrow. Thank you very much.
    Mr. Calvert. Thank you, gentleman. I appreciate your 
comments, and that's why we're here. And I'm going to introduce 
the last panel, Mr. Ken Jones, executive director, Lower Rio 
Grande Valley Development Council; Carlos Rubinstein, the Rio 
Grande Watermaster, Texas Natural Resources Conservation 
Commission; and Wayne Albert, General Manager, Harlingen 
Irrigation District; and James McCarthy, rancher and farmer.
    Mr. Calvert. I thank the witnesses. You've probably--you've 
been in the audience and heard our request. Please keep your 
testimony to within 5 minutes. Any additional comments, 
exhibits, et cetera, will be entered into the record. And with 
that, Mr. Jones, you may begin your testimony.

 STATEMENT OF KEN JONES, EXECUTIVE DIRECTOR, LOWER RIO GRANDE 
                   VALLEY DEVELOPMENT COUNCIL

    Mr. Jones. Mr. Chairman, members, good afternoon. It's good 
to have each of you here. It's a pleasure to be here with you 
today.
    For the record, my name is Ken Jones, and I'm the executive 
director of the Lower Rio Grande Valley Development Council, 
the regional council of government serving Cameron, Hidalgo, 
and Willacy County.
    My testimony today will focus on H.R. 2990 and how this 
legislation relates to the regional water supply plan completed 
for this region.
    In addition to the Development Council, I'm also 
representing today the Rio Grande Regional Water Planning Group 
that is comprised of eight counties. These counties included, 
in addition to the aforementioned three, Starr, Zapata, Jim 
Hogg, Webb, and Maverick.
    Region Water Planning Group was created as a part of 
implementing Senate Bill 1 as approved by the Texas legislature 
in response to the statewide drought conditions that occurred 
here in the late 1990's. There are 16 water regional planning 
groups in Texas charged with the development of the statewide 
water supply plant.
    The development council was selected by the Water Planning 
Group as the designated political subdivision to provide the 
administrative support and physical accountability for the 
planning for within the same county region.
    Prior to the passage of SB1, the Rio Grande Valley took the 
initiative to seek and receive funding to develop an integrated 
water resource plant. Referenced on page 2 of my written 
testimony are the detailed recommendations cited within that 
particular plan. And for the purposes of saving time, I want to 
focus on the first one, which states the irrigation canal 
system must be improved to reduce the transmission losses to 
the maximum extent possible.
    This recommendation was the basis for the Lower Rio Grande 
Valley Water Resources Conservation and Improvement Act of 
2000, which H.R. 2990 proposes to amend.
    As the Texas statewide process got under way, the Rio 
Grande Regional Water Planning Group built on this prior 
planning for all eight counties within this region. This 
expanded planning was completed in January of 2001 and later 
approved by the Texas Water Development Board.
    On page 3 of my written testimony is the outlining of the 
water management goals identified within this most recent plan, 
and I want to focus briefly on the first two priorities that 
occurred in more recent regional planning. That is to optimize 
the supply of water available from the Rio Grande and minimize 
irrigation shortages through the implementation of agricultural 
water conservation measures.
    As noted in the recommendations of both of these plans, 
improving the infrastructure for water conveyance systems and 
on-farm conservation measures provide the maximum water yield 
for every dollar spent. And that's worth repeating.
    As noted in the recommendation of both of these plans, 
improving the infrastructure for water conveyance systems and 
on-farm conservation measures provides a maximum yield for 
every dollar spent.
    So, in conclusion, as a region we have united to assess our 
water supply needs. Priorities have been set, and plans have 
been completed. And with your support of H.R. 2990 we'll be one 
step closer to plan implementation. Thank you for the 
opportunity to be here.
    Mr. Calvert. Thank you, gentleman.
    [The prepared statement of Mr. Jones follows:]

   Statement of Kenneth N. Jones, Jr., Executive Director, Lower Rio 
                   Grande Valley Development Council

    My name is Kenneth N. Jones, Jr., Executive Director of the Lower 
Rio Grande Valley Development Council (LRGVDC). The LRGVDC is the 
Regional Council of Governments representing the three (3) southernmost 
counties in Texas: Cameron, Hidalgo and Willacy Counties. The LRGVDC is 
a voluntary association of local governments created in 1967 to deal 
with the regional planning needs that cross the boundaries of 
individual local governments, and this is accomplished through 
cooperative action by Cameron, Hidalgo, and Willacy counties. The 
LRGVDC provides an effective link between both federal and state 
government programs and the cities and counties where people are 
served. Membership in the LRGVDC include cities, counties, school 
districts, educational institutions, special purpose districts and 
others. The LRGVDC has more than 35 years of experience and performance 
in intergovernmental cooperation.
    My testimony today will focus on the extensive planning that has 
taken place in the region to address water supply needs, and to provide 
supporting documentation as to the critical importance and urgent need 
for the passage of H.R. 2990.

REGIONAL WATER PLANNING EFFORTS
1995 - 2002
    In late 1995 at the conclusion of the hurricane season, it became 
painfully evident that inflows into the Amistad and Falcon Reservoir 
system were continuing to decline with no relief in sight. As reservoir 
levels were rapidly approaching the lowest levels since the 
construction of Falcon Dam in the late 1950's, water rights holders 
within this region rallied together to assess the situation and 
determine the next steps that should be taken.
    Through these initial meetings and deliberations, a general 
consensus was reached that a comprehensive water supply plan was needed 
to evaluate the current and projected water supply situation for all 
water users and provide recommendations for meeting the water supply 
demands for the region.
    As support expanded for the development of this water supply plan, 
the LRGVDC was successful in 1997 to secure federal, state and local 
funding to prepare an ``Integrated Water Resource Plan'' (IWRP) for 
Cameron, Hidalgo and Willacy Counties. To guide this process, a Policy 
Management Committee was created comprising representatives of 
municipal, agricultural, industrial, private and environmental 
interests. This planning process was successfully completed in February 
1999 with final Plan approval by the Region. Recommendations cited for 
immediate action included the following:
    The Irrigation Canal System must be improved to reduce the 
transmission losses to the maximum extent possible.
    Justification--The irrigation canal system delivers untreated water 
to both irrigators and domestic customers throughout most of the Lower 
Rio Grande Valley. The study revealed significant water losses in this 
aging delivery system. Also, the full benefit of the on-farm water 
savings cannot be achieved without these canals improvements. A program 
to reduce these loses will provide a greater quantity of water for 
beneficial use.
    Economic incentives must be established to encourage irrigators to 
implement on-farm water conservation measures such as, metering, poly 
or gated pipe and drip or micro jet systems and to provide education to 
receive maximum benefit.
    Justification--Since approximately 85% of the current water 
consumption in the Lower Rio Grande Valley is in agricultural 
production, water conservation will have a significant impact. 
Additionally, agricultural economics is marginal for many crops 
produced.
    An enhanced region-wide municipal and industrial water conservation 
program must be established.
    Justification--Water conservation programs have been adopted by 
many of the municipalities and water supply corporations. The ``Water 
Smart'' program has been pursued Valle-wide.
    A region-wide water accounting system must be established to permit 
the accurate measurement of the efforts of implementation of water 
conservation projects.
    Justification--In the development of the technical analysis for 
these recommendations, a number of water related data sets available 
from sources in the Valley and at the State level were reviewed and 
utilized. In many cases, inconsistencies were noted between the data 
sets and the level of accuracy was inadequate. To measure water 
conservation actions recommended, a reliable and complete region-wide 
water accounting system is needed.
    As the region's IWRP process was getting underway, there was also a 
statewide drought occurring. During 1997, the 75th Texas Legislature 
enacted Senate Bill 1 (SB 1). S.B. 1 established a ``grass roots'' 
approach to plan for the State's future water supply. This approach 
called for the preparation of regional water plans by appointed 
Regional Water Planning Groups (RWPG's). The IWRP process took place 
during the development of the S.B. 1 legislation which incorporated 
many aspects of the Lower Rio Grande Valley's planning efforts.
    The Rio Grande Regional Water Planning Group (RGRWPG) for Region 
``M'', is one of 16 local bodies established by the Texas Water 
Development Board (TWDB). The RGRWPG consists of 19 voting members 
representing 10 of the 11 interest group categories specified in S.B. 
1. Only one category was excluded which is, river authorities, since no 
river authority exists in this region. The RGRWPG also consists of non-
voting members representing federal and state agencies and Mexican 
representatives.
    Eight counties are represented within the RGRWPG which are: 
Cameron, Hidalgo,, Jim Hogg, Maverick, Starr, Webb, Willacy and Zapata 
Counties. The objectives of these regional water plans was to assess 
future water demands against current and projected water supplies and 
include specific recommendations for meeting identified water needs 
through the year 2030, and longer term needs through the year 2050. The 
Regional Plan was adopted by the RGRWPG in December of 2001 and adopted 
by the TWDB in April 2002.
    The RGRWPG Plan noted five (5) Water Management Goals to meet the 
region's water supply needs. These goals are:
    <bullet> LOptimize the supply of water available from the Rio 
Grande;
    <bullet> LMinimize irrigation shortages through the implementation 
of agricultural water conservation measures and other measures;
    <bullet> LReduce projected municipal water supply needs through 
expanded water conservation programs;
    <bullet> LDiversify water supply sources for domestic, municipal 
and industrial (DMI) uses through the appropriate development of 
alternative water sources (e.g., reuse of reclaimed water, groundwater 
and desalination;
    <bullet> LRecognize that the acquisition of additional Rio Grande 
water supplies will be the preferred strategy of many DMI users for 
meeting future water supply needs.
    As it is clearly noted in the recommendations of the RGRWPG Plan 
and the earlier IWRP, priority emphasis is placed upon improving 
infrastructure in both the water conveyance systems and on-farm 
conservation measures. When considering achieving the maximum water 
yield for every dollar spent, these infrastructure improvements rise to 
the top. If these Plan recommended improvements are fully implemented, 
a water savings of approximately 260,000 ac-ft/yr could be achieved 
which is an amount equivalent to meeting the current raw water DMI 
needs of Cameron, Hidalgo and Willacy Counties. These three counties 
comprise over 80 percent of the total population in the RGRWPG's eight 
(8) County region. This amount is also approximately equivalent to the 
additional DMI water demand projected for the year 2050.
    In summary, it is clear that H.R. 2990 is in direct support of, and 
consistent with, the water supply planning that has been conducted for 
this region. Additionally, H.R. 2290 is crucial to the economic 
survival of the agricultural community in our Region. Further, this 
Bill provides for a major step in the implementation of the IWRP and 
RGRWPG Plans. The drought coupled with Mexico's non-payment of water 
consistent to meet that country's obligations under the terms of the 
1944 Treaty, heightens the urgency for approval of H.R. 2990. As a 
region we have united to access our water supply needs, to set 
priorities and to complete the plans. Now, as a region, we are seeking 
your support for H.R. 2990 to take a positive step towards Plan 
implementation.
    Thank You.
                                 ______
                                 
    Mr. Calvert. Mr. Rubinstein.

 STATEMENT OF CARLOS RUBINSTEIN, RIO GRANDE WATERMASTER, TEXAS 
           NATURAL RESOURCES CONSERVATION COMMISSION

    Mr. Rubenstein. Mr. Chairman, more extensive comments were 
submitted to the Committee, and I'll be as brief as I can.
    The United States began the year with the least amount of 
water for January at Amistad and Falcon as compared to any year 
within the current 10-year cycle. Texas water utilization and 
markedly reduced inflows over the past few months, coupled with 
Mexico's low reserves have caused water levels at Falcon Lake 
to drop rapidly.
    We have increased our releases from the upstream reservoir, 
Amistad, to maintain Falcon and meet our water demands in the 
lower Rio Grande. Given current conditions, we are predicting 
that by the end of May or mid-June, both Amistad and Falcon 
will reach new low levels. This will not only impact 
recreational activities, but they also impact power generation 
capabilities at both international reservoirs.
    Lack of water inflows to the Rio Grande, be it from drought 
or lack of water deliveries by Mexico, directly and singularly 
affect irrigation water use. Within the court mandated system 
we operate from the Rio Grande, irrigation water rights have a 
lower priority of use as compared to municipal.
    Irrigation, however, remains a critical and integral part 
of our local economy. Impacts due to lack of irrigation water 
over the past 10 years includes the following: Average 
irrigation diversions from the Rio Grande below Amistad for the 
United States just prior to cycle 25, or 1992, total 1,333,000 
acre feet per year. Average irrigation use from 1997 to 2001 
was reduced to 770,000 acre feet, a 563,000 acre-foot or 42 
percent reduction on average.
    Irrigation districts in the lower Rio Grande began April 
2002 with 266,000 acre feet less water than they had in April 
2001. This deficit equates to slightly over 1 month of total 
peak irrigation water use.
    All of this has contributed to a loss of approximately 
103,000 acres of irrigated land in Cameron and Hidalgo counties 
alone as compared to 1992 totals.
    The highest priority pool held by the TNRCC's Rio Grande 
Watermaster program at the Amistad and Falcon is the water 
reserved for all municipal uses. It is reestablished monthly to 
cover roughly 1 year's average municipal diversions. Municipal 
releases from Falcon, downstream along the Rio Grande and it's 
conveyance through irrigation districts rely heavily on 
irrigation water being in the conveyance channels. In essence, 
municipal water rides on top of irrigation water.
    As irrigation districts run out of irrigation water, they 
will require pushwater to simply convey municipal water to end 
users. Authorizing the use of pushwater represents an 
additional in-system loss that directly affects all irrigation 
water right accounts.
    At least three irrigation districts in the lower Rio Grande 
are likely to run out of irrigation water in the coming weeks--
in the coming months. Each of these districts serve various 
municipalities.
    While present before the drought, growth of noxious aquatic 
vegetation, particularly water hyacinth and hydrilla, has been 
aided by the lower than normal flows and warmer weather and 
water temperatures. The growth of these non-native aquatic 
weeds has inhibited water flows, increased water use as well as 
water loss due to increased plant consumption as well as 
evaporation.
    Additionally, the weed mats have reduced channel capacity 
for water conveyance and affected telemetry flow measurement 
stations.
    Of principal concern to the Rio Grande Watermaster program 
is the amount of water in excess of actual demand that at times 
has been released from Anzalduas Dam to push the demand water 
to the end users. At times the release has been increased by as 
much as 500 cubic feet per second above calculated demand to 
ensure timely delivery of water within travel time estimates.
    The amount of water over demand released to meet U.S. Needs 
approached 1,000 acre feet per day during the spring and summer 
months of 2001.
    Over a peak 1-week period, the amount released in excess of 
demand roughly represents the total amount of water that many 
of our small and medium-size municipalities utilize in an 
entire year. These releases over demand result in an overall 
system loss that is to the detriment of the entire system and 
to irrigation water right holders and accounts in particular.
    Many Federal and state funded remedial actions have been 
implemented over the past few years to include mechanical 
removal of the weeds as well as introduction of predatory 
insects. A pilot project, the introduction of predatory fish, 
or triploid carp, is nearing completion. Once approved, as many 
as 20,000 triploid carp, costing between $5 and $10 apiece, 
will be required to address weed infestation.
    Other folks have already testified about our efforts to use 
chemicals in the Rio Grande to combat this problem. Thank you.
    Mr. Calvert. Thank you, gentleman.
    [The prepared statement of Mr. Rubinstein follows:]

 Statement of Carlos Rubinstein, Rio Grande Watermaster, Texas Natural 
                    Resource Conservation Commission

BACKGROUND
    The Rio Grande Watermaster is responsible for allocating, 
monitoring and controlling the use of surface water in the Rio Grande 
Basin from Fort Quitman to the mouth of the Rio Grande. The 
jurisdiction covers 1173 miles of Rio Grande, 382 miles of U.S. 
tributaries and approximately 1600 water right accounts.
    Unlike elsewhere in Texas where water is a flow resource, surface 
water in the Rio Grande below Amistad is a stock resource meaning that 
water accumulates in Amistad and Falcon reservoirs and is released on 
demand. Amistad and Falcon reservoirs are considered one system with 
water frequently released from the upstream dam (Amistad) to replenish 
Falcon reservoir and meet the demands in the Lower Rio Grande Valley. 
The watermaster is the authorized agent allowed to request releases of 
United States water held in storage at Amistad/Falcon.
    Water rights and distribution in the Rio Grande are based on two 
factors: 1. the maximum volume assigned by law to each water right 
holder, by use, and 2. priority of the use. All water rights have a 
maximum annual allowable, but because the total legal demand for water 
always exceeds the supply, only the highest priority uses receive the 
full amount of their water right. The following are the weighted 
priorities:1) Domestic Municipal and Industrial (DMI) uses (highest 
priority), 2) operational, and 3) carry over balances for irrigation 
water accounts. In order to provide for and protect this municipal 
based priority system the watermaster divides all U.S. waters held in 
storage at Amistad/Falcon into three distinct pools. The highest 
priority pool is the water reserved for all municipal uses. It is 
reestablished monthly to cover roughly one year's average municipal 
diversions (225,000 acre-feet). The second highest priority pool, 
reestablished monthly, is water held in reserve (75,000 acre-feet) to 
cover in system losses and ensure conveyance of water even in periods 
of low flow and drought. The lowest priority pool is reserved for 
agricultural interests and consists of leftover water after the 
Municipal and Operating pools have been reestablished. This irrigation 
water pool consists of leftover irrigation storage that has not been 
used and new net inflows. Consequently, it is the irrigation reserve 
that is directly affected by in system losses exceeding inflows and 
lack of water deliveries. This priority based system also mandates that 
municipal water be treated differently from irrigation in the 
allocation process. At the beginning of the calendar year, each 
municipal water right holder's account is replenished to its full 
amount. No leftover water is rolled over to the new year. Agricultural 
accounts on the other hand are replenished only when monthly inflows 
are in excess of losses and the water needed to reestablish the 
Municipal and Operating reserves.

CURRENT CONDITIONS
Lake Levels
    The United States began the year with the least amount of water for 
January at Amistad/Falcon (32.49% or 1,080,676 acre-feet) as compared 
to any year within the current 10 year drought cycle. Mexico's storage 
balances at Amistad/Falcon have, since late 2000, consistently remained 
at or near record low levels. Texas water utilization and markedly 
reduced inflows over the past few months coupled with Mexico's reserves 
have caused water levels at Falcon lake to drop rapidly. We have 
increased our releases from the upstream reservoir (Amistad) to 
maintain Falcon and meet our water demands in the lower Rio Grande. It 
is however evident that absent a significant weather pattern change 
resulting in beneficial inflows, both Amistad and Falcon reservoirs 
will hit new low levels this year.
    Amistad's previous low level was recorded on August 4, 1998 at an 
elevation of 1058.4' consisting of 763,121 acre-feet. Falcon's low 
level was recorded on August 3, 2001 at 246.98' or 199,434 acre-feet. 
On 4/24/02 Amistad was at 30.92% capacity with an elevation of 1067.47' 
or 974,471 acre-feet, while Falcon was at 9.62% capacity with an 
elevation of 250.62' or 255,373 acre-feet. The United States reserves 
have consistently remained below previous levels for this time of the 
year, now having dropped to 30.1% or just slightly over 1,000,000 acre-
feet. (At conservation capacity the United States can store 3.3 million 
acre-feet at Amistad/Falcon).
    Given current conditions we are predicting that by the end of May 
or mid June both Amistad and Falcon will reach new lows. This will not 
only impact recreational activities but may also impact power 
generation capabilities at both international reservoirs.
Irrigation Water Supply
    Lack of water inflows to the Rio Grande, be it from drought or lack 
of water deliveries by Mexico, directly and singularly affects 
irrigation water use. Within the court mandated system we operate for 
the Rio Grande, irrigation water rights have the lowest priority use. 
Irrigation however remains a critical and integral part of the local 
economy.
    Impacts due to lack of irrigation water over the past 10 years 
include the following:
    <bullet> LAverage irrigation diversions from the Rio Grande below 
Amistad for the United States just prior to cycle 25 (1992-97) totaled 
1,333,071 AF. Average irrigation use from 1997 - 2001 was reduced to 
770,036 AF, a 563,035 AF or 42% reduction.
    <bullet> LIrrigation Districts in the Lower Rio Grande began April 
2002 with 266,000 acre-feet less water than they had in April 2001. 
This deficit equates to slightly over one month of total peak 
irrigation water use.
    <bullet> LThe estimated loss of approximately 103,120 acres of 
irrigated land in Cameron and Hidalgo counties as compared to 1992 
totals.
Municipal Water Supply
    The highest priority pool held by the TNRCC's Rio Grande 
Watermaster program at Amistad/Falcon is the water reserved for all 
municipal uses. It is reestablished monthly to cover roughly one year's 
average municipal diversions (225,000 acre-feet). Municipal releases 
from Falcon, downstream along the Rio Grande and its conveyance through 
irrigation districts rely heavily on irrigation water being in the 
conveyance channels. In essence, municipal water ``rides'' on top of 
irrigation water. As irrigation districts run out of irrigation water 
they will require ``pushwater'' to simply convey municipal water to end 
users.
    Authorizing the use of pushwater represents an additional in-system 
loss that directly affects all irrigation water right accounts below 
Amistad, to the benefit of the accounts that use pushwater and the 
detriment of all others, particularly in reduced allocations and 
increasing the possibility that negative allocations may have to be 
implemented from the irrigation accounts further reducing the amount of 
water available for irrigation.
    At least three irrigation districts in the lower Rio Grande are 
likely to run out of irrigation water in the coming summer months. Each 
of these districts serve various municipalities.
Aquatic Weeds
    While present before the drought, growth of noxious aquatic 
vegetation (i.e. water hyacinth and hydrilla) has been aided by the 
lower than normal flows and warmer weather and water temperatures. The 
growth of these non-native aquatic weeds has inhibited water flows, 
increased water use as well as water loss due to increased plant 
consumption as well as via evaporation. Additionally, the weed mats 
have reduced channel capacity for water conveyance and affected 
telemetry flow measurement stations at Anzalduas pool near Mission, 
Texas and downstream to the Gulf of Mexico.
    Of principal concern to the Rio Grande Watermaster program is the 
amount of water, in excess of actual demand, that at times has been 
released from Anzalduas dam to ``push'' the demand water to the end 
user. At times the releases have been increased by as much as 500 cfs 
above demand to ensure timely delivery of water within travel time 
estimates. The amount of water over demand released to meet U.S. needs 
approached 1,000 acre-feet per day during spring and summer months of 
2001. Over a peak week's period the amount released in excess of demand 
roughly represents the total amount of water that many of our small to 
medium size municipalities utilize in one year. These releases, over 
demand, result in an overall system loss that is to the detriment of 
the entire system and to irrigation and mining water right holders and 
accounts in particular.
    Many federal and state funded remedial actions have been 
implemented over the past few years to include mechanical removal of 
the weeds as well as introduction of predatory insects. A pilot 
project, the introduction of predatory fish (triploid carp), is nearing 
completion. Once approved as many as 20,000 triploid carp costing $5-
$10 per fish will be required to address the weed infestation.
    Discussions continue with Mexico regarding the use of approved 
aquatic herbicides to further combat the noted explosive growths along 
the lower reaches of the Rio Grande.
                                 ______
                                 
    Mr. Calvert. Mr. Halbert.

    STATEMENT OF WAYNE HALBERT, GENERAL MANAGER, HARLINGEN 
                      IRRIGATION DISTRICT

    Mr. Halbert. Mr. Chairman, Committee members, we, again, 
appreciate the opportunity to be here and speak to you. My name 
is Wayne Halbert. I'm general manager of the Harlingen 
Irrigation District, and I represent irrigation districts that 
supply water to over a million acres of farmland and raw water 
to municipalities that service 1.5 million people.
    Our testimony is in support of H.R. 2990, and that's what I 
will try to stick to mostly, and I will--I have submitted full 
testimony, and I'll try to summarize that at this time.
    For the past several years, as has already been testified, 
the Rio Grande Valley and the border region has been involved 
in integrated resource management studies that have tried to 
determine what our resource is, what our resource potentials 
are going to be over the years, and where we can get to from--
through conservation efforts and through whatever efforts might 
be out there to make our resource stretch through the year 
2050.
    The Rio Grande Valley districts have partnered with Bureau 
of Reclamation since the 1950's doing conservation projects, 
and we have--so we have some idea of what projects we might 
could do in the future to fit into this integrated resource 
management program.
    This program has revealed some very important things to us 
and has showed us that what projects are--give us the most bang 
for the buck and how we might--how we might seek other ways to 
supply our water needs. Many developed projects that we worked 
on back in the '50's and '60's and '70's remain undone and are 
still very viable projects, but they remain undone simply 
because there was not enough funds to accomplish them and the 
funding chain through BOR dried up as far as the loans were 
concerned.
    Various changes in water resource conditions have made this 
slow process of trying to each district develop its 
conservation work. It's made that slow process unworkable and 
unacceptable. Dryer than normal conditions over the past 9 
years have exhausted much of our water supplies, explosive 
developments in Mexico which have utilized much of the water 
that we expected to get over the years, that explosive 
development has taken away much of that water and deprived the 
U.S. Of greater amounts of water resource and accelerating the 
crisis.
    Admittedly, part of the Mexico issue may be drought 
related, but the greater part is a change in Mexico's 
operations of their system that's deprived the U.S. Users of 
that water.
    Population explosion of the Rio Grande Valley is something 
that we've already experienced and something that these studies 
tells us is even going to be much, much worse. Expect to double 
our population over the next several years, and, obviously, the 
need for that type of water is on an all-time increase.
    All of these pressures have turned up the heat on the water 
resource for the Rio Grande. Today you've heard Valley concerns 
and frustrations over various issues, and we're pleased that 
you're here to hear these issues. But what we really want to 
offer you is a blueprint for at least some of the solutions. We 
know that many of these issues are going to be very difficult 
issues to work through, and though I'm as frustrated as anyone 
else, and being a farmer myself, we need water today just like 
everyone else does, but we also have to look to see where we're 
going to be tomorrow, next week, or next year irregardless of 
what happens today. And we want to give you a blueprint of some 
of the solutions for that.
    The comprehensive water resource studies that you've been 
provided through the testimony and through other means show us 
that we do have solutions that could provide a balance to the 
fragile economy and environment of the border region.
    We know that through conservation projects that have been 
listed and have shown--been shown--a part of which have been 
shown to you and a part of which are in this bill could supply 
at least the amount of water that the municipalities use in any 
given year.
    Now, our 2990 does not provide that much water, but 2990 is 
a significant beginning for being able to do that. And we know 
that--we know that through projects like the ones that are in 
2990 that we have the opportunity to get there through 
conservation projects.
    You all saw the slides this morning that showed some of the 
amounts of money that were needed for us to be able to get 
there in 2050, and, obviously, we're talking about a portion of 
that in these projects, but it is a beginning.
    Agriculture use is 85 percent of the water today that's 
available in our system. And, therefore, agriculture has to be 
the target for the major conservation projects. 2990 provides 
that means by which we can get there, and most of the 
irrigation systems that are listed in 2990 are projects that 
would greatly improve their ability to deliver water not only 
to farmers, but free up water for them to be--to utilize to 
spread that throughout the farming community and also make 
available water for urban growth in the area.
    Most of the irrigation systems, as I said, were built in 
the early 1900's, and many of the delivery systems that are the 
life blood of these municipalities and irrigation districts 
also need to be and must be renovated. There has been in a lot 
of cases very little improvements done to much of that 
irrigation system since that particular time.
    The agricultural economy is extremely important to our 
region. A large portion of the workforce is dependent on the 
agricultural industry. The border aspects of the region only 
increases this problem and the agricultural layoffs create 
immediate social problems far beyond the normal expectations, 
social problems that affect both sides of the river because 
much of our work force is so dependent on agriculture.
    We testified a couple of years ago that an undependable 
water supply could do irreparable damage and would push our 
local unemployment figures out of sight. And now you have a 
Texas A&M report that estimates that as many as 30,000 jobs 
have been lost over the past 9 years, and that's directly 
related to the Mexico shortfall alone.
    We have a greater shortfall than just the Mexico issue that 
the conservation issues could address. But just the Mexico 
issue alone is involved in that A&M study.
    The importance of this legislation has been escalated and 
accelerated, obviously, by the past several years of drought, 
Mexico's use of the water resource without complying with the 
treaty. And we recognize that we may have to live and grow in 
the future on less water than what we've been accustomed to.
    The latest work at A&M University economy has documented 
losses approaching $1 billion. You've heard all that testimony 
before over the past 9 years, again, attributed solely to the 
Mexico withholding of water. But I think there is a greater 
story here than just the Mexico withholding of water. We are 
actually using--we are actually using approximately 5 to 
600,000 acre feet less per year than we were accustomed to 
before, and, obviously, the 350,000 acre feet that we're not 
getting from Mexico is a great portion of that, but it's not 
the total problem.
    We have a problem here that's far beyond just the Mexico 
issue. It's a problem of conservation that we have to deal with 
in our issues also, and I think we need to say that.
    We continue to lose farms and businesses that have been a 
part of the Rio Grande Valley heritage for over a hundred 
years, mostly because the water resource demands the past 7 
years have been inadequate. The greatest impacts of these 
losses today are to our agricultural community. However, 
associated impacts are obviously beginning to crop up in our 
communities also. We're seeing community businesses that have a 
problem with their businesses simply because of the overflow 
from the agricultural problem.
    Water shortages, shortages to the general populace have 
been held to a minimum, but we are rapidly approaching a crisis 
in this arena. As I told you all this morning, that when we 
take the Mexico issue out of the water, we all of a sudden 
increase our municipal use from 15 percent to about 50 percent 
of our water, and that puts agriculture in an extremely 
critical position even quicker.
    This legislation allows us to turn these tragic losses 
around and provide new life and new hope to the whole Rio 
Grande border region. The infrastructure that is needed to 
solve these problems is apparent. Districts have planned these 
needed projects for years and anticipated accomplishing them 
over the next 20 or so years.
    Testimony today has shown you that we do not have that 
luxury. We have to get to where we thought we were going to get 
to 20 years down the road, we have to get to there as quickly 
as possible. Every few acre feet of water not conserved is 
another family farm gone, another few jobs lost, another 
business who had to close their doors. Our future, I must tell 
you again, is in your hands. We appreciate your support of H.R. 
2990. And thank you for the opportunity.
    Mr. Calvert. Thank you, gentleman.
    [The prepared statement of Mr. Halbert follows:]

   Statement of Wayne Halbert, General Manager, Harlingen Irrigation 
    District Cameron County 1, President, Texas Water Conservation 
         Association, Vice President, Texas Irrigation Council

    Mr. Chairman, Committee Members and staff, thank you for the 
opportunity to testify before you today on behalf of the communities 
and water districts along the Texas Border. I am Wayne Halbert, General 
Manager of the Harlingen Irrigation District and represent irrigation 
districts that supply irrigation water to over a million acres of 
farmland and raw water to municipalities for over 1.5 million people. 
Our testimony is in support of H.R. 2990, which amends the Lower Rio 
Grande Valley Resources Conservation and Improvement Act of 2000, to 
authorize additional projects under that Act, and for other purposes.
    For the past several years the Border Region has been deeply 
involved in Integrated Resource Management studies to determine a 
direction for our communities to take in water resource management. The 
State of Texas gave direction to these studies in 1997 with legislation 
that required even more comprehensive determinations of water resource 
status. These studies have given us some stark revelations as to 
unprecedented predictions in population growth and needs for water 
resources over the next few years. The Rio Grande Valley Irrigation 
Districts have partnered with the Bureau of Reclamation on projects 
since the early 1950's. Most of the Districts have utilized BOR loan 
programs to do conservation projects. Many developed projects remain 
undone due to a lack of funding available to meet the needs. Districts 
have systematically chipped away at these projects within their budget 
restraints.
    Various changes in the water resource condition have made this slow 
progress unacceptable and has placed the agricultural and municipal 
supply needs in peril. Drier than normal conditions over the past nine 
years have exhausted water supplies and caused thousands of acres of 
land to become unproductive and unable to sustain the industry that 
depends on that production. Explosive developments in Mexico, which 
share the waters of the Rio Grande, have deprived the United States of 
a greater amount of the water resource, accelerating the crisis. 
Admittedly a part of the Mexico issue is drought related but a greater 
part is a change in Mexico's operations of their system that has 
deprived the U.S. users of over a year's supply of water and placed 
Mexico in violation of the terms of the 1944 Water Treaty.
    The population explosion in the Rio Grande Valley area is escalated 
by the massive legal and illegal migration from Mexico for which 
Congress continues to struggle with solutions even today. As if our 
population problems are not enough, Mexico's along the border are many 
times worse and they draw from the same resource.
    All of these pressures turn up the heat on the water resources for 
the Rio Grande. Today you have heard valid concerns and frustrations 
over various issues that we desperately need congressional help with, 
but we also want to offer you a blue print for at least some of the 
solutions.
    In the comprehensive water resource studies of which you have been 
provided testimony today, an emphasis was made to seek solutions that 
would provide balance to the fragile economy and environment of the 
border region. The committees and consultants were charged with the 
responsibility of finding ways to provide an adequate water supply for 
the least amount of impact, both financial and physical. Our goal was 
to find enough firm yield water to provide for the municipal, 
industrial, environmental and agricultural needs of the region and to 
dovetail that plan into the expected growth needs of the Valley.
    The studies looked at desalinization, reverse osmosis, runoff 
reuse, groundwater recovery, new dam sites, long distance pipelines and 
any other opportunity that presented any semblance of credible water 
supply. After several years of study it has become apparent that 
because agriculture uses 85% of the water available, agriculture must 
be the target for the major water conservation projects.
    H.R. 2990 provides the authorization for the Bureau of Reclamation 
to implement the programs and projects that surfaced as the most cost 
effective way to provide for the water resource needs of the Texas 
Border region. Most of the irrigation systems were built in the early 
1900's and many of the delivery systems that are the lifeblood of the 
municipalities as well as agriculture must be renovated. Improvements 
to these canals would provide annually one half of a years current 
municipal needs in saved water. Other conservation projects that 
include volumetric accounting of the water and new technologies in 
water delivery could save another 75% of the municipal current annual 
needs. All of these projects can be accomplished for construction costs 
of from $0.02 to $3.07 per 1000 gallons which projects on a debt 
service basis from a fraction of a cent to $0.23 per 1000 gallons of 
water saved. The projects outlined in this legislation could more than 
double the water available for municipal and industrial use without 
collapsing the agricultural economy.
    The agricultural economy is extremely important to our region as a 
large portion of the workforce is dependent on the agriculture 
industry. The Border aspects of the region only increases this problem 
and agricultural layoffs create immediate social problems far beyond 
the normal expectations. We testified a couple of years ago that an 
undependable water supply could do irreparable damage and would push 
our local unemployment figures out of sight. We now have a report from 
Texas A&M that estimates as many as 30,000 jobs have been lost over the 
past nine years directly related to the water shortage on the Mexico 
shortfall alone.
    The importance of this legislation has only been accelerated by the 
past several years drought condition and recent information that 
indicate explosive demands in Mexico on the water resource. We 
recognize that we may have to live and grow on less water than we have 
been accustomed to. The latest work by Texas A&M University economist 
have documented losses approaching one billion dollars over the past 
nine years attributable solely to Mexico's withholding of water from 
the four county region of the Lower Rio Grande Valley. We continue to 
lose farms and businesses that have been a part of the Rio Grande 
Valley heritage for over a hundred years, mostly because water resource 
demands the past seven years have been inadequate. The greatest impacts 
of these losses today are to our agricultural community; however, the 
associated impacts are beginning to take their toll to the Border 
Region as a whole. The cost of water to the general public is on the 
rise and will continue to do so as the scarcity of the resource 
manifests itself. Water shortages to the general populace have been 
held to a minimum but we are rapidly approaching a crisis in this arena 
also.
    This legislation allows us to turn these tragic losses around and 
provide new life and new hope to the whole Rio Grande Border Region. 
The infrastructure that is needed to solve these problems is apparent. 
Districts have planned these needed projects for years and anticipated 
accomplishing them over the next twenty or so years. Testimony today 
has shown you that we do not have that luxury. Every few acre feet of 
water not conserved is another family farm gone, another few jobs lost, 
another business who had to close their doors. Our future is in your 
hands.
    We appreciate your support for H.R. 2990. Thank you for your 
attention.
                                 ______
                                 
    Mr. Calvert. Mr. McCarthy.

        STATEMENT OF JAMES McCARTHY, RANCHER AND FARMER

    Mr. McCarthy. Thank you, Mr. Chairman and members of the 
Committee. I appreciate the opportunity to speak here on behalf 
of the people and the agricultural communities of Texas Border 
Region in support of H.R. 2990.
    My name is James McCarthy. I'm a member and former chairman 
of the board of directors of the Farm Credit Bank of Texas, 
which is the headquarters bank of the Tenth District of the 
Farm Credit System, a nationwide network of cooperative lending 
institutions that provide credit and financially related 
services to farmers, ranchers, and their cooperatives.
    I am also--I'm not totally active right now, but I was a 
farmer and rancher all my life. I've operated farms and ranches 
in the Rio Hondo area of the Rio Grande Valley for over fifty 
years producing cotton, sugar cane, cattle, and children, not 
necessarily in that order.
    Both as a director for the Farm Credit Bank of Texas and as 
a farmer and rancher, I'm very concerned about the critical 
water shortages facing southern Texas. I applaud you good folks 
for your introducing 2990 to amend the Lower Rio Grande Valley 
Water Resources Conservation and Improvement Act of 2000 to 
authorize additional projects to conserve and improve the 
supply of water in the Valley.
    Likewise, I applaud you for holding this legislation 
hearing here today and all the members of the Texas delegation 
and the Chairman and the little lady from California. 
Appreciate you for being here too.
    Mrs. Napolitano. Also a Texan.
    Mr. McCarthy. Especially my friend Solomon Ortiz for this 
work you do for your constituents. We who live and farm along 
the border of Texas are very fortunate to have Members of 
Congress who work so hard with our best interest at heart to 
improve the infrastructure to which we depend on for our 
livelihood and quality of life.
    Agriculture is a critically important part of the economy 
of the Texas border region. Every year it produces tens of 
millions of dollars worth of food and fiber and amounts to one 
in five jobs in the region.
    Agriculture needs water to survive. Along the border 
agriculture makes up over 80 percent of the area's demand for 
water, as you've heard a good bit of testimony here today.
    However, the region is also experiencing tremendous growth 
in its municipal populations and other industries. As a result, 
the municipal and industry water use, which now amounts to a 
little over 15 percent of total water consumption, is projected 
to double to 30 percent by midpoint of the century. And my 
colleague, Mr. Halbert, has already made mention of 50 percent, 
and I imagine he's closer to right than I am.
    Unless efforts are undertaken to improve the region's 
supply of water, the only way to meet the increased demand for 
municipal and industrial growth in the region will be to reduce 
the amount available to agriculture, which would be 
devastating.
    The 2000 Act is clearly a step in the right direction, but 
more must be done to enable agriculture to survive in the 
region and to ensure that burgeoning municipal water needs are 
met.
    What H.R. 2990 does is to authorize funding for 15 
additional projects, which we definitely sorely need, that will 
repair and improve canals, install needed pipelines, pumping 
equipment, and other water conservation improvements all up and 
down the river. It also increases the funding authorization for 
these projects from 10 million to 47 million, and there is no 
question that these projects are needed because of the water 
crisis in this region. Thus, I urge the Committee to report the 
bill favorably to the house.
    In addition, Mr. Chairman, you should know that there is 
another serious situation that has made a bad agricultural 
water shortage in the Texas Border Region even worse, the 
failure of Mexico to honor its obligation to deliver the water 
to the area that they have agreed to by treaty. The problems we 
now face would not be so critical if they had done what they're 
supposed to do.
    I would like to address this matter while I'm here because 
a resolution of this problem will determine just as much as the 
good work you and the Administration will do with this 
legislation, whether our region can overcome our water crisis. 
After all, water conservation measures are meaningful only when 
we have water to conserve.
    Under the treaty Mexico has a duty to make up deficits, and 
there is no justifiable reason for Mexico not to do so. Despite 
water shortages in Texas in the 1990's, Mexico in the area of 
six tributaries received 90 percent of normal rainfall and has 
stored water available to begin eliminating the deficit.
    In 2000 our government pressed Mexico for action on the 
deficit, and Mexico agreed to take some steps to correct the 
problem. However, since then Mexico has only partially complied 
with the promises. In July of 2000 I testified before this same 
Committee on water shortage problems. At that time it was 
brought to your attention to this problem with Mexico's failure 
to honor its treaty obligations. I asked them for Federal 
action on Mexico's failure and specifically suggested 
withholding U.S. Obligated agricultural and industrial water 
from Mexico on the Colorado River System or the upper Rio 
Grande System as a way of forcing Mexico to honor its 
obligations on the lower and Middle Rio Grande. A number of 
congressmen at the hearing agreed with my recommendation. 
Unfortunately, the government never took action.
    Let's look where we are now. Almost 2 years later, the 
deficit has only increased. Quiet diplomacy on the part of the 
United States has failed. Also, I understand from the news 
reports and from talking to people involved that Mexican 
President Vicente Fox has made every effort he can to solve 
this problem. However, he has encountered incredibly stiff 
resistance from entrenched political machines in some of the 
northern Mexican states. These forces don't care about Mexico's 
legal obligations nor the harm their actions might cause to 
U.S./Mexico relations. And they can care less about their 
people in the state of Tamaulipas, across the border from us, 
who are suffering equally as much as we are from the water 
shortage. They ignore everything--they ignore everything but 
their own selfish political agenda.
    In summation, the people of the Texas Border Region along 
with their counterparts across the Rio Grande, the farmers in 
the state of Tamaulipas in Mexico, can survive only if the 
treaty is honored. President Fox has done all he can. It's time 
now for the U.S. Government to take real action. Close the gate 
on the Colorado River and the treaty will be honored. Thank 
you.
    [The prepared statement of Mr. McCarthy follows:]

       Statement of James A. McCarthy, Farm Credit Bank of Texas

    Mr. Chairman and members of the Committee on Resources, thank you 
for this opportunity to speak to you on behalf of the people and 
agricultural communities of the Texas Border Region in support of H.R. 
2990.
    My name is James McCarthy. I am a member and former Chairman of the 
Board of the Farm Credit Bank of Texas, which is the headquarters bank 
of the Tenth District of the Farm Credit System, a nationwide network 
of cooperative lending institutions that provide credit and financially 
related services to farmers, ranchers, and their cooperatives.
    I am also a farmer and rancher. I have operated farms and ranches 
in the Rio Hondo area of the Rio Grande Valley of Texas for over fifty 
years producing cotton, sugar cane, cattle, and other commodities.
    Both as a director for the Farm Credit Bank of Texas and as a 
farmer/rancher, I am very concerned about the critical water shortages 
facing Southern Texas. I applaud Congressmen Ortiz along with 
Representatives Bonilla, Gonzalez, Reyes, Rodriguez, and Hinojosa for 
introducing H.R. 2990, to amend the Lower Rio Grande Valley Water 
Resources Conservation and Improvement Act of 2000 to authorize 
additional projects to conserve and improve the supply of water in the 
Valley.
    Likewise, I applaud you for holding this legislative hearing today, 
and all the members of the Texas delegation, especially my close 
friend, Solomon Ortiz, for the work you do for your constituents. We 
who live and farm along the border of Texas are very fortunate to have 
Members of Congress who work so hard with our best interests at heart 
to improve the infrastructure on which we depend for our livelihood and 
quality of life.
    Agriculture is a critically important part of the economy of the 
Texas Border Region. Every year, it produces tens of millions of 
dollars worth of food and fiber and accounts for one in five jobs in 
the region. And, agriculture needs water to survive. Along the Border, 
agriculture makes up over 80 percent of the area's demand for water.
    However, the region is also experiencing tremendous growth in its 
municipal populations and other industries. As a result, the municipal 
and industry water use, which now accounts for a little over 15 percent 
of the region's total water consumption, is projected to double to 30 
percent by the midpoint of this century.
    Unless efforts are undertaken to improve the region's supply of 
water, the only way to meet the increased demand for municipal and 
industrial growth in the region will be to reduce the amount available 
to agriculture, which would be devastating.
    Agriculture doesn't have enough water now to begin with. In recent 
years, we have experienced severe droughts that have devastated the 
region's farmers and ranchers. The massive losses of crops and 
livestock due to lack of water have run into the hundreds of millions 
of dollars, and resulted in many farm and ranch bankruptcies and 
foreclosures.
    Thus, farmers were pleased when Congress enacted the Lower Rio 
Grande Valley Water Resources Conservation and Improvement Act of 2000. 
That Act recognizes the need to stretch our water supplies with 
projects that foster water conservation. Under the 2000 Act, the 
Department of the Interior's Bureau of Reclamation works with the State 
of Texas and local governments to develop and fund projects to make 
improvements to irrigation canals and pipe lines, to install water 
meters in irrigation canals, and to take other actions to improve the 
distribution of water to farmers and ranchers.
    The 2000 Act is clearly a step in the right direction, but more 
must be done to enable agriculture to survive in the region and to 
ensure that burgeoning municipal water needs are met.
    The 2000 Act only authorized the funding of four water management 
improvement projects, and the potential for additional water 
conservation in the region is so much greater. For example, most of the 
irrigation systems in the region were built in the early 1900s, are 
inefficient in conserving water, and still are waiting to be renovated, 
even with the 2000 Act in place.
    What H.R. 2990 does is to authorize funding for 15 additional 
projects, projects that will repair and improve canals, install needed 
pipe lines and pumping equipment, and make other water conservation 
improvements all up and down the river. It also increases the funding 
authorization for these projects from $10,000,000 to $47,000,000. There 
is no question that these projects are needed because of the water 
crisis in this region, and thus I urge the Committee to report the bill 
favorably to the House.
    In addition, Mr. Chairman, you should know that there is another 
serious situation that has made a bad agricultural water shortage in 
the Texas Border Region even worse the failure of Mexico to honor its 
obligation to deliver the water to the area that was agreed to by 
treaty. The problems we now face would not be quite so critical as they 
are if that water were to be made available to us.
    I would like to address this matter while I am here because a 
resolution of that problem will determine just as much as the good work 
you and the Administration will do with this legislation whether our 
region can overcome our water crisis. After all, water conservation 
measures are meaningful only when we have the water to conserve.
    In 1944, a treaty was signed by the United States and Mexico called 
the ``Utilization of the Colorado and Tijuana River and of the Rio 
Grande,'' February 3, 1944, 59 Stat. 1219. The intent of this treaty, 
which is still in effect, is to allocate the surface waters of the Rio 
Grande and Colorado Rivers between Mexico and the United States. The 
two countries agreed that, in exchange for Mexico drawing 1,5000,000 
acre feet of water annually from the Colorado river (which lies 
primarily in the United States), we would receive 350,000 acre feet of 
water annually from six measured tributaries of the Rio Grande that lie 
in Mexico.
    However, as has been recognized by the Mexican and U.S. Sections of 
the International Boundary Water Commission, which oversees 
implementation of the treaty, Mexico for almost a decade now has been 
in a state of deficit with respect to its obligations under the treaty 
to deliver Rio Grande water to the United States.
    During the 1992 through 1997 cycle, Mexico accumulated a deficit of 
1,023,849 acre-feet of water it was supposed to provide (at the rate of 
350,000 acre feet a year) from the six Rio Grande tributaries. During 
the current five-year cycle, beginning October 1, 1997, through 
September 30, 2001, the deficit is an additional 279,970 acre-feet, for 
a total deficit of 1,303,819 acre-feet. Of more immediate concern, so 
far this fiscal year (through April 6, 2002), Mexico has only provided 
7,912 acre feet of the 350,000 it is supposed to provide during the 
year.
    Under the treaty, Mexico has the duty to make up its deficits, and 
there is no justifiable reason for Mexico not to do so now. Despite 
water shortages in Texas in the 1990s, Mexico in the area of the six 
tributaries received 90 percent of normal rainfall, and has stored 
water available to begin eliminating the deficit.
    In 2000, our government pressed Mexico for action on the deficit, 
and Mexico agreed to take some steps to correct the problem. However, 
since then Mexico has only partially complied with its promises the 
deficit continues to be over 1,300,000 acre-feet.
    In July 2000, I testified before this same committee on the water 
shortage problem, and at that time brought your attention to this 
problem with Mexico's failure to honor its treaty obligations. I asked 
then for Federal action on Mexico's failure, and specifically suggested 
withholding U.S. obligated agricultural and industrial water for Mexico 
on the Colorado River system or the Upper Rio Grande System, as a way 
of forcing Mexico to honor its obligations on the Lower and Middle Rio 
Grande. A number of the congressman at that hearing agreed with my 
recommendation. Unfortunately, the Government never took that action.
    Look where we are now, almost two years later the deficit has only 
increased. Quiet diplomacy on the part of the United States has failed. 
Also, I understand from news reports and from talking to the people 
involved that Mexican President Vicente Fox has made every effort he 
could to solve this problem. However, he has encountered incredibly 
stiff resistance from the entrenched political machine in some of the 
northern Mexican states. These forces don't care about Mexico's legal 
obligations nor the harm their actions might cause to U.S.-Mexico 
relations. And, they could care less about their people in the State of 
Tamulipas across the border from us who are suffering equally as much 
as we are from the water shortage. They ignore everything but their own 
selfish political agenda.
    In summation, the people of the Texas Border Region along with our 
counterparts across the Rio Grande, the farmers in the State of 
Tamulipas in Mexico can survive only if the treaty is honored. 
President Fox has done all he can. The time is now for the U.S. 
Government to take real action. Close the gate on the Colorado River, 
and the treaty will be honored.
    Thank you for allowing me to present this testimony today.
                                 ______
                                 
    Mr. Calvert. Thank you, gentleman. Regarding the issue of 
H.R. 2990 and to approve public law 105-676, which I'm sure 
I'll be working with my colleagues to initiate some 
appropriations for hopefully in this budget year, lining 
canals, improving your irrigation system, have you calculated 
how much water you can conserve doing that?
    Mr. Halbert. Yes, we have. We have calculated--well, I 
don't have the figures right here in front of me for how much 
just the canal lining or pipelines, but through the total 
projects that we have we've calculated that we can save 
approximately the amount of water that's--hold on. Maybe I do 
have that. Ken, why didn't you speak up?
    OK. Here it says that improvements to irrigation canals 
cumulative cost of $98,000 would create a water savings of 
119,700 acre feet of water per year.
    Mr. Jones. I wish it was $98,000. It's $98 million.
    Mr. Halbert. $98 million. I'm sorry. Just a few decimal 
points will make that work. $98,400,000 will give us 119,700 
acre feet per year, and there is an additional 139,600 acre 
feet for our own farm improvements, which also include some 
stuff that's within districts. That has not been split out 
actually to what we may most traditionally think of as on-farm 
improvements.
    Mr. Calvert. You've got a 120,000 acre feet of additional 
yield plus an additional--
    Mr. Halbert. 139,000 acre feet of yield for an additional 
105 million. That was the figures that we gave you this 
morning. Approximately 203 million will produce approximately 
259,000 acre feet per year.
    Mr. Calvert. And what's your--just for the record, again, 
what's your present consumption on water in the Valley right 
now?
    Mr. Rubenstein. Consumption of water for municipalities 
downstream from Amistad is roughly 225,000 acre feet per year. 
Irrigation typically would need 1,300,000. Because of the water 
shortage that's been on average reduced to 770,000.
    Mr. Calvert. So this would literally double the amount of 
water as far as domestic--
    Mr. Rubenstein. And half make up the average deficit for 
irrigation.
    Mr. Jones The approximately 260,000 acre feet, put in 
another perspective, looking at year 2050 on the increased 
water supply demands for municipal industrial use, that annual 
amount would more than adequately cover the year 2050 projected 
growth and demand for M&I water use. That's pretty significant.
    Mr. Calvert. Mr. Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman I'm just curious, you 
know, Congressman Bonilla and I introduced legislation to 
commission the Agricultural Department to conduct an impact 
study as to how this has impacted not only the agricultural 
community but all the community here. And, Mr. McCarthy, you 
are--have been a farmer for many years, a president of the Farm 
Bureau or whatever for many years. Did they ever call you?
    Mr. McCarthy. No.
    Mr. Ortiz. Did they contact any of you?
    Mr. Jones. No, sir.
    Mr. Halbert. No, they didn't contact us. We did send 
inquiries telling them that information--we could give them 
information or point them toward information, and we received 
no effort whatsoever back from them to do so.
    Mr. Rubenstein. Congressman, we provided the water use data 
that I've testified to here today.
    Mr. Ortiz. Have you had a chance to read the report?
    Mr. Rubenstein. I have not.
    Mr. Ortiz. Not much to read. It's inconclusive. 2990, you 
know, this is our bill. Most of us who represent South Texas 
co-sponsored this bill. We support it. We're going to go back. 
We're going to talk to our Chairman, continue to talk to him. 
He's receptive. And I think we can get some of the other 
members to support this bill. This is very, very important 
report. To be able to conserve some of the water and, of 
course, you need some of the money to be able to do that.
    And, that's right. Mr. McCarthy appeared before our 
Committee in Washington and this was his recommendation, shut 
off the water from the Colorado River, and nothing was done 
about that. And maybe this is the time, Mr. McCarthy, that we 
need to do that and be serious about that this time.
    Mr. McCarthy. Get them off the dime.
    Mr. Ortiz. I'll tell you what, this has been great 
testimony today, and we appreciate your testimony, and I know 
that my other great friend, Mr. Rodriguez, has a question.
    Mr. Rodriguez.  Thank you. Thank you, Mr. Chairman. Let 
me--you indicated in terms of the bill is, I think, 55 million, 
and is that based on--I think it's based on some kind of match; 
is that correct?
    Mr. Halbert. That's correct. The bill is based on a 50 
percent cost share.
    Mr. Ortiz. This other 98 million that you talked about, 
that's in addition above that, or part of that?
    Mr. Halbert. No, no, it's a part of that. It's a part of 
that. Yes, sir. We--the problem that we ran into when we first 
originally submitted or began to work on the legislation, the 
prior legislation, we ran into problems with--I don't want to 
say problems, but we ran into the concerns with the Bureau of 
Reclamation that we did not have--though we felt comfortable 
with the projects, that we did not have enough information on 
each one of those projects to submit them in the bill.
    So what we did was we carried it down to the ones that we 
had sufficient planning already done to be able to document 
what was needed. And there is--there is continued--there is 
other projects that are in the planning stage now that will be 
able to be submitted in an amendment in a year from now.
    Mr. Ortiz. But in order for us to either yield or save 
259,000 acre feet, we were saying that we need that $98 million 
from the fed and then you do the match?
    Mr. Halbert. That's correct.
    Mr. Ortiz. So it's not 55, but 98?
    Mr. Halbert. That's correct. On the--right. Now, that's 
not--that wouldn't--that will cover more projects that are 
listed in the bill.
    Mr. Ortiz. I understand, but it's projects that would 
yield--that let me get one other clarification. Of the 350,000 
acre feet that they owe us per year, that now it's over 1.5 
million acre feet, two-thirds of that goes to the other side?
    Mr. Rubenstein. That's correct.
    Mr. Ortiz. So it's only about 100--
    Mr. Rubenstein. No, no, no. Mexico is required to deliver 
to the United States 350,000 acre feet on average per year. 
However, where it comes from is the Mexican tributaries. The 
water that enters the Rio Grande from those tributaries is 
split, two-thirds to Mexico, one-third to the U.S. So Mexico 
would have to release or deliver to the Rio Grande three times 
that amount of water for us to get the 350.
    Mr. Ortiz. But we only yield that 350?
    Mr. Rubenstein. That's correct.
    Mr. Ortiz. On our side?
    Mr. Rubenstein. Minimum.
    Mr. Ortiz. Is that correct?
    Mr. Halbert. I think there is a misunderstanding in what 
you're saying and what Carlos is saying. The 350,000 is what 
they are required to give or one-third of the inflows that 
reach the Rio Grande, but at a minimum 350. In other words, if 
the inflows into the Rio Grande out of those six major 
tributaries amounts to more than a million acre feet, for 
instance, then our portion of that would be greater than the 
350, but they are required to give us the 350.
    Now, other waters from the Rio Grande from our side are 
included--we get other inflows from our side that raise the 
amount. The 350 is not all that we have a yield of from us.
    Mr. Ortiz. And I know--as a rancher, I know that you have 
to plan for, you know, what to plant. As farmers you have to 
plan what you have to do next year. And I recall we had a 
meeting with President Fox, and one of the things he told us, 
Mr. Chairman, was that as we talked about oil, you know, most 
of their revenues from Mexico, 80 percent, come from the oil 
revenues that we purchase from them.
    And one of the things that he was asking of us was that he 
would prefer a constant price on the oil versus the 
fluctuation. And, of course, he likes it when it's up, but he 
doesn't like it when it's down. But he would prefer a deal that 
would be constant because of the fact that that allows him to 
run the government and the flow of resources.
    But the same applies to the rancher and farmer. You need to 
know the flow that's coming in in anticipation of what's going 
to occur next year, and I think that's very key. If we look at 
some negotiations that we establish at least some understanding 
for the next so many years that this amount is going to be 
coming in so that the farmer can plan on that and assume that 
that's the amount of water that's going to be there, otherwise, 
you find a situation that you can't afford to plant if you 
don't know what is expected and that doesn't come in.
    Mr. Halbert. Can I respond a little bit to that? The reason 
for the fluctuation was that originally it was more difficult 
for Mexico to--it was more difficult for Mexico to determine 
how much that water would be because under flood conditions or 
excess water, there would be more water coming to the system.
    There has been a lot of talk about in previous 
conversations about the dams that Mexico has built. The reality 
is the dams are not the problem. The dams should make it easier 
for Mexico to do exactly what you said. They can even out the 
amount of flow that they allowed the U.S. To have and still 
plan for their own management, but they've refused to do this. 
But the dams are not the problem. They should be a tool for 
them to use, not a tool to use against us.
    Mr. Calvert. Ms. Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chair. A couple of things. 
Mr. Rubinstein, what is the No. 1 priority project to address 
the water issues in the basin, and how can the government help?
    Mr. Rubenstein. Again, as has been testified by Mr. Jones, 
the biggest bang for the buck to actually generate additional 
water for us is the irrigation improvements that have already 
been identified in the regional water plan.
    Mrs. Napolitano. Is there a coalition to begin moving 
forward on that, on those projects?
    Mr. Rubenstein. The regional water plan is mandated by the 
state. It gets state approval for those projects to carry 
forward. It represents the interest of this region, so, 
obviously, you have at least that advocacy group being carried 
forward, and also the irrigation districts that are represented 
here today.
    Mrs. Napolitano. Is it being funded?
    Mr. Jones. Through a reclamation at this time, no. That's 
why the appropriations are needed to make it happen. At the 
state level the regional water planning groups are in the 
process of submitting an infrastructure financing report to the 
state probably to this next state legislative session to look 
at the actual situation within each of the regions on what the 
water providers are able to pay for and what they're not able 
to pay for. So we're hopeful that at this next state session 
that we'll have some financial assistance opportunities at the 
state level to assist in whatever appropriations may be 
available at the Federal level to make some of these things 
happen.
    Mrs. Napolitano. Has there been a coalition formed to move 
forward with all the parties that are concerned that are 
affected?
    Mr. Jones. In terms of--I think so, yes. In terms of 2990 
and the--
    Mrs. Napolitano. I'm not talking about 2990. I'm talking 
overall the issues to--I believe to get not only the release of 
water, but also all the different things that you're supposed 
to look at that are purportedly in the study that was released.
    Mr. Jones. Yes, and many of the players are here in this 
room today.
    Mrs. Napolitano. OK. Mr. Halbert, in your report you talk 
about many developed projects remain undone for lack of 
funding. Is that state funding, Federal match? What are you 
referring to?
    Mr. Halbert. Back in the 1950's, '60's, and '70's, the 
Bureau of Reclamation had a small projects program where the 
districts were able to receive funding from the Bureau of 
Reclamation on loans. They were loaned fundings that they were 
able to use those fundings to do these projects. Those funds 
ran out, and when those funds ran out, the districts were no 
longer able to finance the projects so that a lot of those 
projects have remained undone.
    Mrs. Napolitano. Do we know why the Bureau has not 
continued funding these projects, and has there been a push to 
be able to get them refunded or funded again?
    Mr. Halbert. We've made the effort. I guess we're asking 
you to make that push. We've made the effort definitely from 
this end. But we have had a very difficult time getting the 
Bureau funding.
    Mrs. Napolitano. In looking at some of the testimony you 
have presented to us, you indicated that studies looked at 
desal, reverse osmosis, et cetera, et cetera, and all those, 
and yet, as stated before, 80 percent of the water available is 
used by ag. In not having the studies before me or having the 
synopsis of them to being able to understand what they are 
recommending, what out of those can help be able to work with 
moving this forward?
    Mr. Halbert. Well, the studies--what the studies will tell 
you is that there is--that you can do certain projects for so 
many cents a thousand gallons, say, and you can do other 
projects for so many cents a thousand, and so on down the road. 
And what the studies actually tell you is that these projects 
that we're talking about for the construction projects on 
irrigation on irrigation facilities give you the greatest yield 
of water for the dollars spent, and that's what those studies 
tell us.
    They don't tell us that desal and these other projects are 
bad projects. They just tell us that they don't return to us 
the amount of water per dollar spent that the irrigation 
project returns to us. So that's the reason that we're pushing 
so hard for--
    Mrs. Napolitano. Are they broken down in short-term, long-
term?
    Mr. Jones. In terms of the water planning and two 
components to the year 2030 considered as near term and for the 
year 2050 as long-term.
    Mr. Rubenstein. And if I may add, the principal water 
management strategy for meeting our needs for municipalities 
goes through the year 2050. The acquisition of water rights 
within the Rio Grande System. That assumes, obviously, a 
conversion of irrigation water rights to municipal use and that 
comes at a price within the system we operate in. The sooner 
you can make the improvements to conserve the water to actually 
increase the yield in irrigation, the more feasible it will 
become for municipalities to be able to implement that 
management strategy.
    Mrs. Napolitano. Which brings to mind another question. 
What are you doing for conservation? Are you doing municipal-
wide water conservation? Are you retrofitting tanks? Are you 
retrofitting the shower heads? What's going on? Are you at 
least moving in that direction?
    Mr. Rubenstein. Yes, ma'am. In fact, this morning we had 
representatives from PUB with us, and I'll mention that they 
are but one example of municipalities that are looking at their 
water conservation ordinances. They've reduced the thresholds 
for when mandatory--in other words, the amount of water that a 
household will have to use before increased rates kick in to 
promote conservation, promotion of water conservation systems 
within the city, looking at reuse of waste water as a 
conservation measure.
    Mrs. Napolitano. I'd like to ask has the Bureau of 
Reclamation been helpful in getting funding for the replacement 
of low flush toilets? That has saved us an inordinate amount of 
money.
    Mr. Jones. That particular issue I'm not aware of any 
participation.
    Mrs. Napolitano. Thank you, sir.
    Mr. Calvert. Thank you, lady. I want to thank this panel. 
Back in 1973--we mentioned the Colorado River--I wrote my term 
paper on the issue of the Colorado River as it entered into 
Mexico, and that was the year of the big drought, if everybody 
remembers, back then in 1972, and a huge issue of Mexico. Of 
course, it wasn't the quantity of water because, as mentioned 
in earlier testimony, we have always met our treaty obligation 
to Mexico. We had a quality issues back that day as far as the 
water because of solidity of the river because of the drought. 
But it's worth noting that this year is the lowest level that 
community has ever been at in the last 30 years since the year 
1970. And so we are potentially facing another drought 
condition on the Colorado River.
    And, by the way, the Colorado River, as you probably all 
know, is the most adjudicated river in the United States and 
maybe in the world. And I'm in the mist of right now trying to 
work out some agreements on it. So it's an interesting concept 
to take a look at using the Colorado River and, certainly, I'm 
sure we'll get some publicity in Nevada, and Arizona and other 
states, and California, and it's certainly something the State 
Department, I'm sure--that would get the attention of Mexico. 
No doubt about it. I certainly thank this panel. I appreciate 
your being here, and you're excused, and we hope to see you 
again soon. Mr. Ortiz, I understand that you have--
    Mr. Ortiz. Mr. Chairman, we have with us today a young man 
who understands the seriousness of the problem we're facing 
today, the critical situation we're in. His name is Ingeniero 
Salvador Trevino Garza. Mr. Trevino Garza is the general 
manager of the Junta de Aguas y Drenaje. And we've been talking 
about the possibility of maybe having an open alliance between 
our two countries, and you have some time now, Mr. Trevino 
Garza, to say something to this panel.

STATEMENT OF SALVADOR TREVINO GARZA, GENERAL MANAGER, JUNTA DE 
                        AGUAS Y DRENAJE

    Mr. Trevino Garza. Thank you very much, Mr. Chairman and 
members of the board. Thank you for the brief time to say 
something. Matamoros is, of course, the friendship, that Mr. 
Ortiz said, city here with Brownsville. We're the last city of 
the river.
    For the last 2 years we've been without water for the 
citizens in our city. There are some things that you've been 
saying here, and probably one of them was from Mrs. Campbell, 
if I can recall correctly the name, about working together, 
working with people.
    We have been really working very good with the people here 
in the Valley, with PUB, with the watermaster, and Texas 
Natural Resources to even help our city of Matamoros. And part 
of the situation that we feel it will help the lack of water 
that not only the farmers or the city of the--let's say the Rio 
Grande Valley or Texas area, but also in Tamaulipas we're 
suffering, is, of course, because of the lack of water or maybe 
because it's not getting into the river from the people that it 
should take it over there.
    Maybe we can work together on different issues, planning, 
you know, our infrastructure. Mr. Feild, I think, from the 
Brownsville Chamber of Commerce said whatever happens to 
Matamoros is going to affect Brownsville. Well, whatever 
happens to Brownsville is going to affect Matamoros. Whatever 
the Rio Grande Valley gets affected is going to affect us.
    But if we can work something together for planning for 
infrastructure on both sides of the border, planning for 
conservation--I mean, we did already have a visit from the 
Texas Natural Resources & Conservation of what do we do in our 
city for us to make some conservation of water to try to also 
talk to our agriculture farm people, you know, to don't waste 
much water.
    So I think we can try to work together with all these 
issues also, of course, with the compliance of the treaty 
between both countries. I mean, our Governor is working on 
Tamaulipas, and we do have a group that is fighting, of course, 
but we don't have water.
    Farms are with zero the last 2 years. They haven't been 
able to get water from their irrigation systems. And, like I 
told you also, the city has already suffered. But if there is a 
possibility for you as members of the board to also try to look 
for some kind of an alliance work between Mexico and the U.S., 
not just at higher levels, but here, like Ms. Campbell said, 
you know, we're very good to work with people, and there is few 
people here from Brownsville and the area can say that, to also 
make a force, and I'll take it also to our mayor and our 
Governor to try to work together because this lack of water is 
not just hurting like I've been hearing, you know, on the U.S. 
Side. It's also the Mexican side.
    Mr. Calvert. Question. And I certainly appreciate the 
gentleman coming forward. Obviously, your community is 
suffering as much as Brownsville. And so you're suffering if, 
in fact, this treaty obligation is not being met by Mexico, it 
seems, based upon earlier testimony. And maybe you can help me 
understand the political reality of what's going on in Mexico 
today. Is it true--we have a Governor of one particular state 
that is--that said he's not going to release water. And that 
not only affects Brownsville, but that affects you. And I 
believe we heard testimony for every gallon of water that's 
released, that you're supposed to get two gallons of that. Is 
that basically correct?
    Mr. Trevino Garza. Well, Matamoros is, let's say, four 
times bigger than Brownsville, our population. And, yes, in 
this case not just Matamoros, but the state is suffering if the 
water is not released. We do our work, and we do have the 
statistics, like I heard Mr. Ortiz say, we have the satellite 
picture of the irrigation on Chihuahua state, you know, what's 
going on.
    We also have the precipitation that has been going on for 
the last 10 years, and there is a drought, but it has rained. 
So what I'm saying is I think that if we work something 
together between both Governors, not just at the higher level, 
but also here with the community, the Valley and also, in this 
case, Tamaulipas, can get the benefit because right now 
whatever water, even if it's not being complied with the treaty 
that they've been giving to the U.S., basically it's not 
getting to Tamaulipas.
    So it's not really just Matamoros. It's not just the U.S., 
it's also Tamaulipas. So I've been willing to take what I've 
heard very interesting this day to my mayor and to my Governor, 
and with the Governor we do have already all the community or 
different representative areas from the citizens to get 
involved for the water issues to maybe work something out also 
together with the people.
    Mr. Calvert. Mr. Ortiz.
    Mr. Ortiz. I think that it would be important for you to--
and you know most of the players in this room, am I correct 
when I say that?
    Mr. Trevino Garza. That's correct.
    Mr. Ortiz. For you to get together and maybe start from the 
grass roots and move up and get our Governor, our friend 
Yarrington on the Mexican side of Tamaulipas. He understands 
the seriousness of the problem as well because it is impacting 
on his constituents.
    Mr. Trevino Garza. That's correct.
    Mr. Ortiz. And I'll be willing to work with you, and I know 
most of the members of this Subcommittee, and we talked to 
President Fox--this is why it's very frustrating, because we've 
been to the top levels. But maybe since we've been to the top 
levels, let's begin with a grass roots movement and look at the 
different angles, including sanctions and all.
    You know, I worked very hard to get money for two 
substations to inspect vehicles coming in from Mexico to this 
country, and they have to realize that this is a two-way 
street, not a one-way street. We're going to put a lot of fire 
up maybe after this hearing this morning.
    Carlos, you know what we can do. Let's get together and I 
think that this would be an open alliance to let people in both 
countries know that we mean business, and that we're going to 
do something about it.
    Mr. Trevino Garza. And one of the reasons that I came to 
ask you if I could come forward was, you know, when you 
mentioned penalties, we already have a penalty over there 
without water. And, of course, it would be tougher to have 
another one.
    There are some things to be looked at, and that is one of 
those. But there were some other simple issues, you know, Jo 
White mentioned here about the chemicals on the river and all 
that. Matamoros, we're already using those chemicals. The 
hydrilla is on my lagoon now. It's not only on the river. So 
those are some things that we can work out with our people here 
and see if we can get the support from higher levels to some 
kind of work, an alliance to push for the whole area, not 
just--it's a region, like they said.
    Mr. Ortiz. Thank you very much.
    Mr. Calvert. Thank you. I want to close this by thanking 
all the witnesses that came forward today, certainly the 
audience and the members of the media that hopefully will 
report this story far and wide, because, obviously, attention 
needs to be brought to this issue. I want to thank our host, 
Mr. Solomon Ortiz, for his hospitality in hosting our Committee 
here in the community and we look forward to working with you 
and this administration.
    Mr. Ortiz. Thank you, Mr. Chairman, for making time for us 
in this community, and we hope that this will not be the last 
visit.
    We thank Congresswoman Napolitano, Congressman Rodriguez, 
the staff did a fine job, and all the witnesses and the 
audience who were with us this morning. Thank you so much.
    Mr. Calvert. Thank you. We are adjourned.
    [Whereupon, the Subcommittee was adjourned].

    The following information was submitted for the record:
    <bullet> LBlankinship, David R., Texas Parks and Wildlife, 
Statement submitted for the record
    <bullet> LCarpenter, George W., General Manager, Hidalgo 
County Irrigation District Number One, Statement submitted for 
the record
    <bullet> LCombs, Susan, Texas Agriculture Commissioner, 
Statement submitted for the record
    <bullet> LLucio, Hon. Eddie Jr., State Senator, Texas State 
Senate, Letter submitted for the record
    <bullet> LMaley, Joe, Director of Organization, Texas Farm 
Bureau, Statement submitted for the record
    <bullet> LOliveira, Hon. Rene O., Texas House of 
Representatives, Statement submitted for the record
    <bullet> LPrewett, Ray, Texas Citrus Mutual and Texas 
Vegetable Association, Statement submitted for the record
    <bullet> LRosson, C. Parr III, Aaron Hobbs and Flynn 
Adcock, Department of Agricultural Economics, Center for North 
American Studies, Texas A&M University, Statement submitted for 
the record

    [A statement submitted for the record by Mr. Blankinship 
follows:]

  Statement of David R. Blankinship, Texas Parks & Wildlife Department

    In February 2001, the estuary of the lower Rio Grande was separated 
from the Gulf of Mexico by a sand bar. The confluence of the Rio Grande 
with the Gulf of Mexico has been lost since this date except for a 3-
month period from the end of July to the first week of November 2001 
when a channel was opened using machinery. The formation of the sand 
bar resulted from the normal sand transport process along the western 
Gulf of Mexico and low flows in the Rio Grande. Since the mid-1990's, 
flows from the Rio Grande to the Gulf have been low enough to result in 
a gradual closing of the river mouth. Today, the river mouth remains 
closed even though water flows past the last gauge near Brownsville. 
The net amount of water that reaches the mouth of the river is not 
enough to reconnect or maintain a confluence with the Gulf of Mexico.
    As a result of the loss of the estuary of the Rio Grande, estuarine 
dependent organisms that normally utilize the habitat during part of 
their life cycles have been unable to do so. Studies conducted in the 
months following the closing of the river mouth have shown that some 
economically and ecologically important species have been impacted. 
Production of white shrimp (Litopenaeus setiferus), common snook 
(Centropomus undecimalis), and striped mullet (Mugil cephalus) have 
been drastically reduced.
    The estuary of the lower Rio Grande is unique in this arid region 
despite its relatively small size. There is not another river that 
flows into the Gulf of Mexico for more than 100 miles to the north or 
south making the Rio Grande all the more important for the production 
of some estuarine dependent species. One of these species is the common 
snook mentioned above. Common snook do not reproduce in large numbers 
farther north than the mouth of the Rio Grande yet its relative 
abundance in the estuary of the Rio Grande has shown that the estuary 
is an important habitat for juvenile production.
    The loss of habitat such as the estuary of the Rio Grande is 
potentially disturbing to the marine ecosystem of south Texas and 
northern Tamaulipas. The loss of such an estuary due to reduction of 
freshwater inflows might also give us warning of the potential for 
similar occurrences in other regions of the United States if freshwater 
inflows are not insured. Freshwater inflows are the lifeblood of our 
bays and estuaries.
                                 ______
                                 
    [A statement submitted for the record by Mr. Carpenter 
follows:]
               HIDALGO COUNTY IRRIGATION DISTRICT NO. ONE
                              P.O. BOX 870
              EDINBURG, TX. 78540 WILLARD FIKE, PRESIDENT

                     D.L. MCGUFFIN, VICE PRESIDENT
                        MARK J. FRYER, SECRETARY
                     R.L. (BOBBY) BELL,JR, DIRECTOR
                        LAWRENCE RICE, DIRECTOR
                         KIRBY CAVIN, ATTORNEY
                 GEORGE W. CARPENTER, DISTRICT MANAGER
                 ESTELLA GARZA, TAX ASSESSOR/COLLECTOR

The Honorable Solomon Ortiz
U.S. House of Representatives
3505 Boca Chica Blvd. Suite 200
Brownsville, Texas 78523

Re: Written Testimony -- Congressional Field Hearing

Dear Congressman Ortiz,

    On behalf of Hidalgo County Irrigation District Number One, its 
Board of Directors and farmers, I want to express our gratitude for 
your untiring and aggressive efforts to resolve the water crisis in the 
Lower Rio Grande Valley.
    HCID 1 has a project (Curry Main Pipeline Project) approved under 
Public Law 106-576.
    A more extensive project (North Branch East Main Project) is 
included as a part of H.R. 2990.
    The Congressional Subcommittee Field Hearing held on May 3, 2002, 
in Brownsville included testimony regarding H.R. 2990.
    Although, I was not appointed to give oral testimony at the 
hearing, your staff thought that written testimony might be accepted 
which was in fact delivered to the subcommittee staff at the beginning 
of the hearing.
    Because our testimony was not officially accepted for the record by 
the chairman, I am sending you a copy to either be submitted or used by 
you in any way which may be beneficial in passing this amendment.
    Thanking you again for your efforts,

George W. Carpenter
District Manager

cc: Larry Meyers, Meyers and Associates
                                 ______
                                 
    [A statement submitted for the record by Ms. Combs 
follows:]

        Statement of Texas Agriculture Commissioner Susan Combs

    I want to thank U.S. Rep. Solomon P. Ortiz for convening this 
timely hearing today examining the growing water crisis in the Lower 
Rio Grande Valley and ways to assist the region with water conservation 
projects included in H.R. 2990. The water crisis in this region has 
been fueled by Mexico's failure to completely abide by the 1944 U.S.-
Mexico Water Treaty. This failure has had a dramatic impact on the 
entire Lower Rio Grande Valley economy but especially agriculture. I am 
hopeful this hearing will demonstrate to Congress the importance of 
H.R. 2990 and other such efforts to ensure the Lower Rio Grande Valley 
has an adequate water supply.
    All the empirical evidence available to us indicates that water is 
available to meet the terms of this treaty, and that drought is not an 
issue. We have satellite photos showing reservoir shoreline changes 
during high irrigation periods in Chihuahua starting in March and 
ending in September and October. In addition, a recent Texas A&M 
University Extension Service analysis of acreage, yields and crops in 
Chihuahua from Mexico's agricultural agency, SAGARPA, demonstrates that 
the region has been changing its crop profile. Over the last decade, 
agricultural production in Chihuahua has moved from low-value crops 
that require lower amounts of water, such as barley, wheat and soybeans 
to higher-value crops that require more water, such as alfalfa, 
peanuts, tree fruits, cantaloupes and onions. Interestingly enough, 
this changeover has occurred during a drought. In fact, the same Texas 
A&M University report found that 1997--a drought year--was a record 
year for acreage and production of irrigated crops in Chihuahua. The 
report also has found that overall, Chihuahua crop yields are up 8 
percent during the drought years of 1995-99.
    In contrast, it is estimated that the aggregate value of the 1.5 
million acre-foot water debt to the United States since 1992 has 
amounted to a nearly $1 billion net loss to the Lower Rio Grande 
Valley's overall economy. This damage includes lost wages, rents, 
interest, profits and other net income, along with 30,000 jobs 
eliminated from 1992-2002, according to another Texas A&M University 
study on the value of Rio Grande Valley irrigation water.
    Based on Mexico not providing its annual 350,000 acre-feet of 
water, the direct loss in crop sales in this region is approximately 
$11 million per year. Based on the entire debt of 1.5 million-acre feet 
of water, the overall direct loss in crop sales is approximately $477 
million. A minimum of 1,720 farmers in Cameron, Hidalgo, Maverick, 
Starr, Webb, Willacy and Zapata counties are estimated to be affected 
by the water debt to the United States.
    On behalf of these farmers, Texas agriculture and the Lower Rio 
Grande Valley's economy, I urge you to consider all means available to 
bring relief to those affected, including H.R. 2990 and S.1577, and to 
develop a resolution to this dispute that is acceptable to all parties.
                                 ______
                                 

    [A letter submitted for the record by Mr. Lucio follows:]
    [GRAPHIC] [TIFF OMITTED] T9406.001
    
    [GRAPHIC] [TIFF OMITTED] T9406.002
    
    [GRAPHIC] [TIFF OMITTED] T9406.003
    

    [A statement submitted for the record by Mr. Maley 
follows:]

  Statement of Joe Maley, Director of Organization, Texas Farm Bureau

    Texas Farm Bureau greatly appreciates Congressman Ortiz and 
Chairman Calvert for arranging this field hearing on this important 
issue. It is an honor to have the U.S. House of Representatives 
Committee on Resources, Subcommittee on Energy and Water, in the Rio 
Grande Valley of Texas.
    The U.S.-Mexico Water Treaty of 1944 has been a critical instrument 
in guiding the development of the Rio Grande Valley. Cities, 
agriculture and industry have all relied upon the assurances provided 
by the treaty in making long term investments in this region. While 
some may try to characterize this as a ``local issue'', it is not--it 
is an ``International issue'' for both the United States and Mexico. It 
is vital that both the countries honor the treaty.
    The 1944 treaty obligates Mexico to allow an average of 350,000 
acre feet of water flow to the Rio Grande River annually during five 
year cycles, while obligating the U.S. to allow an average of 1,500,000 
acre feet of water flow to Mexico from the Colorado River. During the 
1992-1997 cycle, Mexico accrued a deficit of 1, 024,000 acre feet. That 
deficit has continued to increase during the 1997-2002 cycle, and could 
total approximately 1,700,000 acre feet by this October. Mexico has 
failed to accept responsibility for this deficit or address existing 
problems in order to ensure future compliance.
    Severe water shortages in the Rio Grande Valley have caused South 
Texas severe economic consequences. Many agricultural operations in the 
region have gone out of business, or, are in dire jeopardy due to the 
lack of Treaty obligated water. U.S. water reserves for use in this 
region are at all time lows. Even greater economic losses will occur 
this year unless there is a resolution to this crisis. While our focus 
is on U.S. producers, we understand the same crisis exists for neighbor 
boarder areas in Mexico which also depend upon the Rio Grande River.
    The Rio Grande Valley area has experienced a decline of over 
100,000 acres of irrigated farmland since 1992. This has resulted in a 
dramatic decline in income for many producers. Agricultural related 
business and industry and the communities they serve have suffered from 
the loss of economic activity.
    Job opportunities have also suffered due to Mexico's failure to 
meet its obligations. Farm laborers play a vital role in the production 
of food and fiber. With the reduction in irrigation, and the depressing 
effect that has on farm production and capital, the need for farm 
workers has diminished. This creates hardships for these workers and 
their families. It also threatens the long term availability of an 
adequate farm labor workforce.
    We need to reduce our dependence upon Mexico and the weather to 
supply significant portions of water resources to meet regional needs. 
Improvements in the irrigation canal systems need to be expedited. The 
proposals contained in H.R. 2990, which was introduced by Congressmen 
Hinojosa, Ortiz, Bonilla, Gonzalez, Reyes and Rodriguez, contain many 
needed improvements to the canal system. Their favorable consideration 
and expedient completion should be a priority.
    Advances in technology and conservation need to be implemented to 
better utilize the limited available water. Alternative water sources 
need to be explored and developed, along with water quality improvement 
efforts.
    Agricultural producers have made long term investments based upon 
the assurance that our government will protect those investments by 
enforcing the Water treaty. Producers have suffered financially from 
our government's failure to force Mexico to comply with the treaty. 
Federal compensation or support of these producers must be given 
serious consideration.
    It is important to point out that producers may also suffer by 
having their normally irrigated crop land considered ``dryland'' for 
crop insurance purposes. An irrigated farm without a dryland history is 
assigned the county T-yield, which is dramatically lower than irrigated 
yields. Also, due to the greater risk involved with raising non-
irrigated crops, the premium is greater. This results in irrigated 
producers paying more in premiums for coverage that provides less 
protection than they would normally have.
    Texas Farm Bureau calls upon the federal government, through the 
State Department, to aggressively enforce compliance with the 1944 
Water Treaty. Should these efforts fail, other options can and should 
be considered by Congress. We encourage efforts to improve efficiencies 
in the water system. We also call upon the federal government to 
provide adequate protection or compensation for producers who suffer 
losses caused by treaty non-compliance.
    Texas Farm Bureau calls upon Mexico to make timely and diligent 
efforts to pay down its water debt. We also call upon Mexico to make 
changes in its water policy and reservoir management practices to 
ensure that it can and will comply with the treaty in the future.
    Again, ``Thank you'' to the Committee for holding this hearing to 
bring attention to this critical issue. Thanks also to the committee 
for considering improvements contained in H. R. 2990 to the current 
water canal system. Texas Farm Bureau will continue to work to bring 
about a positive resolution to the treaty issue.
Summary:
    Texas Farm Bureau requests that the Federal Government ensure that 
Mexico comes into, and stays within, compliance with the U.S.-Mexico 
Water Treaty of 1944, Minute No. 234 and Minute No. 307.
                                 ______
                                 
    [A statement submitted for the record by Mr. Oliveira 
follows:]

  Statement of The Honorable Rene O. Oliveira, Member, Texas House of 
                            Representatives

    I respectfully request that this be entered as written testimony 
for consideration by your distinguished committee. Given the urgency of 
our region's water problems, and as the local state representative, I 
am grateful that you selected Brownsville to conduct your hearing.
    The Rio Grande Valley of Texas is an area precariously caught 
between international agreements, unfavorable climate cycles, and the 
impact of the water management practices of another nation on the Rio 
Grande, our primary water source.
    Mexico's repayment of the existing water debt, and future adherence 
to the 1944 treaty, are essential to the well being of local 
agriculture. Our problems do not stop there, however. Other long-term 
issues, such as improving irrigation infrastructure, the implementation 
of large-scale regional desalinization and reverse osmosis programs, 
and improving the Rio Grande's water quality, should be given careful 
Congressional consideration.
    As you will hear today, our current irrigation system is largely 
outmoded, resulting in large levels of water evaporation and water 
losses through irrigation canal seepage. Above ground irrigation 
systems also lose large amounts of water due to diminished water 
pressure and lack of water volume at the field pump outlet as a result 
of these conveyance inefficiencies. Combined, existing water conveyance 
systems result in a loss of an estimated 25 percent of our local water 
supply.
    By improving water conveyance through the lining and covering of 
irrigation canals and using drip pipe irrigation, thousands of acre 
feet of water could be saved each year. Our goal must be to use less 
water while increasing crop yields. Federal assistance, such as the 
elimination of a required local match for irrigation system 
improvements, is essential in ensuring that these much-needed 
improvements are made.
    To ensure the region's future water supply needs, federal 
assistance is also vital to the development of desalinization and 
reverse osmosis programs in the Rio Grande Valley which is expected to 
exceed a population of 2.1 million residents by 2050. In the portion of 
the Mexican state of Tamaulipas adjacent to the Rio Grande, where the 
corresponding local population currently exceeds 2 million residents, 
population growth is projected to be proportionately greater than in 
the Rio Grande Valley.
    In Tamaulipas, the water use ratio of agriculture to municipal use 
is even greater than it is in Texas where agriculture uses the vast 
majority of water. This will place even greater demands on an already 
strained and degenerating Rio Grande River, now the principal water 
supply for cities on both sides of the river.
    Additionally, local water experts affirm that in Brownsville's 
corresponding Mexican city of Matamoros, Tamaulipas, with an estimated 
population exceeding 500,000 residents, the municipal water delivery 
system is antiquated, resulting in a loss of at least half of the water 
that city draws from the Rio Grande. Again, management of our shared 
resource is impacted by factors beyond our local or state control.
    Water quality is also of vital concern as usage of the Rio Grande 
increases. Pesticide runoff, nutrients, volatile organic compounds, 
dissolved solids, trace elements, and the presence of myriad chemicals 
from increased industrialization near the river are affecting the 
safety of the water source. High nutrient levels have also driven the 
proliferation of water hyacinth and hydrilla, plants which are 
obstructing river flow, depleting water oxygen levels, and negatively 
impacting the river's riparian habitat.
    Further, because of reduced flows in the Rio Grande, salt water 
from the Gulf of Mexico has encroached further upriver, increasing 
salinity, and thereby diminishing the quality of water for both 
agricultural and municipal uses. Also due to decreased river flows, the 
mouth of the Rio Grande at the Gulf of Mexico recently closed requiring 
bulldozers to reopen it. Its flow to Gulf of Mexico is of great 
importance to shrimp estuaries and the reproductive migrations of red 
drum, snook and spotted sea trout.
    Federal assistance in vitally needed as testimony will underscore 
today. The water debt and 1944 treaty compliance, federal assistance 
with improvements in irrigation improvements and desalinization and 
reverse osmosis projects, Mexico's impact on our shared water source, 
and attention to Rio Grande water quality should be closely examined by 
the federal government. Your assistance and leadership are greatly 
appreciated.
                                 ______
                                 
    [A statement submitted for the record by Mr. Prewett 
follows:]

   Statement of Ray Prewett, Texas Citrus Mutual and Texas Vegetable 
                              Association

    On behalf of the Texas citrus and vegetable industries, I 
appreciate the opportunity to submit this statement for the record. 
Both of these associations have been very active in addressing this 
water issue. We commend this committee on holding this important 
hearing. We particularly appreciate the hearing being held in our area 
as opposed to it being in Washington D.C.
    Agriculture in South Texas is on the verge of disaster. Many 
farmers are on the verge of going broke. The agricultural industry and 
the substantial number of related businesses and jobs are getting more 
desperate every day.
    Citrus and sugar cane growers are winding up a reasonably good 
season, but disaster is right around the corner for them. Recently a 
Texas A&M representative characterized the growing conditions for 
cotton as ``off to a very poor start''. Vegetables like melons probably 
have enough water to finish out the season because harvest has already 
started. Will there be enough water to plant onions this fall? Will 
citrus and sugar cane have enough water for this next season? Growing 
cotton and grain sorghum as dry land as opposed to irrigated is a poor 
alternative especially on soil that is not conditioned to growing these 
crops on a dry land basis. Citrus, sugar cane and vegetables cannot be 
produced as non-irrigated crops.
    Crop insurance is supposed to be a safety net for agriculture, but 
the irrigation water shortage and our government's interpretation of 
the rules for our current water situation have dramatically reduced the 
usefulness of this program. We have discussed this issue with top 
officials in USDA, but they are not receptive to the basic notion the 
problem we face is beyond our control and requires ``thinking outside 
of the box''. We believe strongly that our government is at least 
partly responsible for this water shortage problem because they have 
failed to enforce the terms of an international treaty.
    At least one of the 28 irrigation districts may be completely out 
of irrigation water in two weeks. Some farmers are already out of 
water. Most districts will be out or at least nearly out of irrigation 
water by August.
    Mexico claims they do not have the water to pay back the 1.5 
million acre-feet they owe. Yet irrigation usage in Chihuahua, the 
heart of the Rio Conchos river basin, has increased in the last 10 
years while irrigated acreage in this Rio Grande Valley area has been 
declining. If you were a farmer in South Texas, how would these 
circumstances make you feel?
    Texas A&M University has estimated that $652 per acre-foot of water 
not used is the value of that water to the regional economy. If you 
apply this value of water to the 1.5 million acre-feet owed, you come 
up with a total impact on the regional economy of $978 million. The 
U.S. Department of Agriculture finally released their report on the 
impact of the Mexico deficit 60 days late and mostly what they had to 
say was they had trouble finding data to determine the impact of this 
deficit. How can the USDA fail to find data to measure a loss of 
approximately $1 billion!
    Producers in the Rio Grande Valley realize Mexico is not capable of 
paying back their debt of 1.5 million acre-feet unless there is a 
hurricane or similar large rain event in their watershed. Producers do 
not want a handout but someone needs to provide at least some 
``bridge'' assistance in this situation. The water debt was unexpected 
until a few years ago and is totally out of the control of producers. 
Bridge assistance in terms of cash assistance is needed to tide farmers 
over until Mexico pays back its debt. H.R. 2990 will help conserve 
water in this area in may be five years if the projects are authorized 
and funded right away, but that may be too little too late. Farmers in 
this area need help in the next two months and not in five years.
    Thank you for the opportunity to submit these comments. I would 
like to add in closing that if the federal government is serious about 
helping with this crisis, a number of us are willing to sit down 
starting tomorrow and work out the kind of assistance that would be 
most helpful.
                                 ______
                                 
    [A statement submitted for the record by Mr. Rosson 
follows:]
 A Preliminary Assessment of Crop Production and Estimated Irrigation 
                    Water Use for Chihuahua, Mexico

                          C. PARR ROSSON, III
                              AARON HOBBS
                              FLYNN ADCOCK
                  DEPARTMENT OF AGRICULTURAL ECONOMICS
                   CENTER FOR NORTH AMERICAN STUDIES
                          TEXAS A&M UNIVERSITY
 MAY 2, 2002A PRELIMINARY ASSESSMENT OF CROP PRODUCTION AND ESTIMATED 
               IRRIGATION WATER USE FOR CHIHUAHUA, MEXICO

Executive Summary
    In May 2002, Mexico's accumulated water debt with the United States 
had reached 1.5 million acre feet. Prolonged drought in South Texas and 
northern Mexico, trade growth and increased agricultural production 
spurred by NAFTA, and an increasing population and industrial base on 
both sides of the U.S.-Mexico border, have placed greater pressure on 
the Rio Conchos/Rio Grande water system. During this time, 1994-99, 
crop irrigation and production have continued in Chihuahua, which 
contains the Rio Conchos basin, a major Mexican water source of the Rio 
Grande River.
    Irrigated production of the crops grown in the Mexican state of 
Chihuahua and analyzed in this study increased 200 percent between 1980 
and 1999, going from 1.0 million metric tons (mmt) to 3.0 mmt. 
Irrigated harvested area increased 35 percent over the same period from 
554,613 acres to 750,430 acres. From 1995 and 1999, irrigated 
production was up 11.2 percent while irrigated harvested area increased 
3.3 percent. Average irrigated crop yields increased nearly eight 
percent over this same period, ranging from 0.4 percent for barley to 
83 percent for cantaloupe.
    Although the total acreage under irrigation has increased only 
marginally, producers in Chihuahua have reduced harvested area for the 
grains, soybean, and cotton crop category by 30,000 acres and forages 
by 3,000 acres. Vegetables, melons, fruits, and nuts, however, account 
for an increase of 55,700 irrigated acres, leading to a net gain of 
22,700 acres under irrigation, an increase of 3.13 percent. This change 
in irrigated crop mix was most likely profit driven as producers 
switched from crops with relatively low prices, such as grain sorghum, 
barley, rye and soybeans, to those with higher prices, such as alfalfa, 
cantaloupe, peanuts, peppers, potatoes, and watermelon. It should be 
noted that many of these alternative crops are more water-intensive 
than crops previously produced in Chihuahua.
    Irrigation water use, while down from its peak of 2.3 million acre 
feet (maf) in 1997, increased five percent from 1995-99, with the 
largest increase, 47 percent, between 1996 and 1997. Increased 
irrigation water use was due to larger acreage of water-intensive crops 
such as alfalfa, apples, pecans, melons, vegetables, and corn. It is 
estimated that irrigated alfalfa acreage increased 11 percent from 
1999-2001, while production tripled, due mostly to higher yields.
    Despite prolonged drought, producers in Chihuahua have continued to 
grow irrigated crops. Although total irrigated acreage has increased 
only marginally, producers have switched from crops that use less water 
to crops that use more water, causing total water use to rise by more 
than the increase in total irrigated acreage. While Mexico claims that 
surface water use has fallen, it appears that the use of wells for 
irrigation has increased. Continued groundwater irrigation in the 
region will likely reduce stream runoff and limit the flow of water 
from the Rio Conchos basin into the Rio Grande, though the precise 
amount is not measurable with existing data.A Preliminary Assessment of 
Crop Production and Estimated Irrigation Water Use for Chihuahua, 
Mexico
    Drought in the Lower Rio Grande Valley of Texas (LRGV) and northern 
Mexico has focused recent attention on the importance of the Rio 
Conchos watershed as a major source of shared water between the two 
countries. Trade growth and increased agricultural production spurred 
by NAFTA, along with an increasing population and industrial base on 
both sides of the U.S.-Mexico border, have placed greater pressure on 
the Rio Conchos/Rio Grande water system. In the Rio Conchos basin, 
agricultural irrigation represented 92.7 percent of total water use in 
1995 (Kelly, p. 16). In the LRGV of Texas, irrigation accounts for 85 
percent of water use.
    Mexican authorities claim that the drought (1994-99) has reduced 
available water so that they cannot deliver the 350,000 acre feet (af)/
year agreed to in the Water Treaty of 1944. Mexico's accumulated water 
debt has reached 1.5 million acre feet (maf). Recent articles in the 
Austin-American Statesman document the growing water shortages in 
Chihuahua, where many of the tributaries draining into the Rio Conchos 
originate. Some authorities in Texas and the United States claim that 
Mexico is in violation of the treaty and are calling for a resolution 
of the issue. These views are documented in the Brownsville Herald and 
the McAllen Monitor, and most recently in major news reports by the 
Associated Press and Washington Post.
    The purpose of this study is two-fold:
    1. To document recent trends in irrigated production of major crops 
grown in the Mexican state of Chihuahua, focusing on the drought period 
1994-99, and
    2. To estimate the amount of irrigation water used in Chihuahua to 
sustain crop production under semi-arid conditions in the region.
    All results reported in this study are preliminary and may change 
as additional data become available and are incorporated into the 
analysis.

Chihuahua and the Rio Conchos
    Chihuahua is a diverse agricultural production region. Although 
historically known for production of apples, peaches, and pecans, more 
recently there has been increased production of peanuts, alfalfa, 
cantaloupe, and watermelon. Crops are grown under semi-arid conditions. 
Rainfall averages from 13.8-16.7 inches per year, with two-thirds 
occurring from May-October, and peak rainfall from July to September 
(CROPOWAT 7.0). October-January is relatively dry with less than 1.0 
inch falling in most months. Since 1960, temperatures at the Chihuahua, 
Chihuahua weather station have averaged from a low of 50 degrees 
Farenheit in late November through January to a high 80.6 degrees in 
early June (USDA, FAS, PECAD).
    It has been documented that annual inflows to La Boquilla, 
Chihuahua's largest reservoir, were 33 percent lower during the period 
1994-99, 699,000 af, compared to the long-term historical average, 
1.043 maf (Kelly and Comision Nacional del Agua-CNA). The major 
irrigation districts in the Rio Conchos basin reduced water use between 
42 percent to 15 percent during the drought period (1994-99, Kelly). 
The Texas Center for Policy Studies report noted that as surface water 
availability has declined, the use of wells for irrigation has 
increased. This led to high extraction rates for some of Chihuahua's 
major aquifers, with use exceeding recharge by 19 to 127 percent. It is 
not clear that overuse of these aquifers has reduced water flows into 
the Rio Conchos and its tributaries, but concerns have been raised 
about this possibility. Some analysts believe that drought in Mexico 
and Texas, coupled with increased water use from wells in Chihuahua, 
likely exacerbated the water problem, leading to reduced water 
availability for irrigation in the LRGV of Texas and in the Mexican 
state of Tamaulipas. It was estimated that annual average rainfall in 
the Rio Conchos basin was 47 percent of normal in 1994 and 69 percent 
of normal in 1995. For 1993, 1996, and 1997 rainfall was estimated at 
about 80 percent of normal levels (Kelly from the Brandes Report).
    Surface water represents about 20 percent of the available 
irrigation water supply in the Delicias irrigation district, with the 
major sources being the La Boquilla and Francisco Madero reservoirs 
(Kelly). Together, these two reservoirs account for 77 percent of 
storage capacity in the Rio Conchos basin (Center for North American 
Studies-CNAS estimate). The San Gabriel and Pico de Aguila supply the 
Rio Florido irrigation district, which uses primarily surface water for 
irrigation. The Bajo Rio Conchos district relies primarily on the Luis 
L. Leon reservoir. CNA estimates indicate that water use efficiency in 
the Rio Conchos basin is about 40 percent (Kelly). It is likely that 
these high rates of water loss represent system delivery inefficiencies 
due to seepage and evaporation in canals as well as irrigation losses 
due to runoff, wind, evaporation, and improper irrigation water 
application. It is uncertain exactly what proportion of total 
irrigation water is represented by surface sources and groundwater 
throughout the Rio Conchos basin.

Crop Production Trends
    Irrigated crop production in the Mexican state of Chihuahua has 
increased 200 percent since 1980, from 1.0 million metric tons (mmt) to 
3.0 mmt in 1999 (table 1). Irrigated harvested area increased 35 
percent over the same period from 554,613 acres to 750,430 acres. 
Yields for all irrigated crops increased 114 percent to 4.03 mt/acre. 
For 1999, grains, soybeans, and cotton accounted for 41 percent of 
irrigated production in Chihuahua, followed by forages (22 percent), 
tree nuts, fruits, and peanuts (20 percent), and vegetables (17 
percent). It is estimated that irrigated production represents about 82 
percent of total agricultural production in the state, but this varies 
widely by crop.
    The peak in irrigated acreage and production in Chihuahua was 1997 
when 1,106,341 acres were harvested to produce 4.274 mmt of output 
(table 1). Since then, irrigated acreage has fallen 32 percent, 
production is down 29 percent, but irrigated crop yields have declined 
only four percent. Irrigated corn, alfalfa, cotton, pecans, apples, dry 
beans, and green peppers represented 73 percent of total irrigated crop 
acreage in Chihuahua for 1999.

Grains, Soybeans, and Cotton
    Irrigated corn acreage was 38 percent of total corn acreage in 
1999, but accounted for 85 percent of corn production. Since 1995 
irrigated corn acreage has increased 23.2 percent, from 123,861 acres 
to 152,414 acres (table 1). Production of irrigated corn increased 63 
percent, while yields were up by 33 percent. Peak irrigated corn 
production occurred in 1992 at 725,000 mt. Irrigated corn acreage, 
however, peaked in 1993 at 327,845, with yields peaking in 1999 at 
2.784 mt/acre or about 110 bushels/acre.
    Mexico's Servicio de Informacion Y Estadistica Agroalimentaria Y 
Pesquera (SIAP) reports that for the 2001 crop year Chihuahua's total 
corn for grain production was 657,120 mt while total acreage was 
560,455. Center for North Americas Studies estimates of irrigated corn 
production and acreage are 523,987 mt and 191,115 acres, respectively. 
The irrigated corn yield for 2001 was calculated to be 2.74 mt/acre or 
108 bushels. These estimates assume that irrigated corn acreage was 
34.1 percent of total in 2001 which was the average from 1995-99 and 
that irrigated corn production was 79.74 percent of total corn 
production, reflective of the same five year average. These estimates 
would indicate that between 1999 and 2001 irrigated corn acreage in 
Chihuahua increased by 25 percent and that irrigated corn production 
was up 23 percent.
    Irrigated cotton acreage has declined nearly 10 percent since 1995 
and peaked at 158,000 acres in 1997. Irrigated production was off by 
the same amount, but yields held steady at about 1.43 bales per acre.
    Irrigated acreage of soybeans, grain sorghum, rye grass, wheat and 
barley have all declined over the periods 1990-99 and 1995-99. In 1999 
there were only 1,600 acres of barley for grain and 300 acres of 
soybeans harvested in the state.

Forages
    Alfalfa is the number one irrigated forage crop produced in 
Chihuahua accounting for 69 percent of acreage and 64 percent of 
irrigated forage production in 1999 (table

    1. Oats, corn, sorghum, and wheat account for a majority of the 
remaining output.
    Alfalfa acreage has increased 14 percent since 1995, but 110 
percent since 1990 and was not reported in any significant amount 
before 1987. Alfalfa production has expanded 64 percent since 1995, 
while yields have increased 44 percent over the same period. For 2001, 
SIAP estimates indicate that alfalfa acreage was up by 11 percent in 
2001 over 1999, while production nearly tripled to 2.0 mmt with yields 
up 159 percent to 15.51 mt/acre. Corn, sorghum, and oats forages have 
all declined in acreage since 1995, but oats forage production has 
increased by 26 percent due to higher yields.
    2. Tree Nuts, Tree Fruits and Peanuts
    Irrigated apples and pecans accounted for 84 percent of tree fruit, 
tree nut, and peanut acreage in 1999 (table 1). Apple acreage was up 
nine percent since 1995 and 31 percent since 1990, while pecan acreage 
increased by 21 and 53 percent, respectively, over the same period. 
Irrigated apple output increased 17 percent, while pecan production was 
up 54 percent. Peanuts, the next most important irrigated crop of this 
category with 20,119 harvested acres in 1999, were up 303 percent in 
acreage and 313 percent in production since 1995. Peanut acreage also 
increased 20 percent from 1990-99, while output was up 71 percent over 
the same period.

Melons and Vegetables
    Irrigated vegetable and melon acreage has increased 23 percent 
since 1995 and 177 percent since 1990, while production is up 41 and 
255 percent for the same periods (table 1). Peak acreage and production 
occurred in 1997, with total acreage falling 30 percent and production 
off 18 percent since then. Irrigated dry beans, green peppers, and 
onions accounted for 73 percent of total irrigated reported vegetable 
acreage and 64 percent of irrigated vegetable production. Potatoes, dry 
peppers, watermelon, cantaloupe, and tomatoes represent the other major 
vegetable crops grown in the region. All other vegetable crops reported 
declines in acreage and production, but accounted for only 1,600 
harvested acres.
    The largest proportional increases in vegetable and melon acreage 
were for watermelon, dry peppers, potatoes, cantaloupe and onions. 
Acreage increases for 1995-99 ranged from eight percent for tomatoes to 
116 percent for watermelon. Increases in irrigated production (1995-99) 
ranged from 230 percent for watermelon and 110 percent for cantaloupe 
to 96 percent for potatoes and 43 percent for onions. Irrigated 
production of tomatoes and dry peppers experienced declines of 31 and 
11 percent, respectively.
    Over the 1990-99 period irrigated watermelon acreage was up 600 
percent, followed by tomatoes (517 percent), dry beans (151 percent), 
cantaloupe (132 percent), green peppers (120 percent), and onions (61 
percent). Production increases over the same period were 891 percent 
for watermelon, 702 percent for tomatoes, 452 percent for cantaloupe, 
180 percent for green peppers, 160 percent for dry beans, and 83 
percent for potatoes.

Summary
    From 1995-99, producers in Chihuahua have reduced harvested area 
for the grains, soybean, and cotton crop category by 30,000 acres and 
forages by 3,000 acres. Vegetables, melons, fruits, and nuts account 
for an increase of 55,700 irrigated acres, leading to a net gain of 
22,700 acres under irrigation, an increase of 3.13 percent. This change 
in irrigated crop mix was likely profit driven as producers switched 
from crops with relatively low prices, such as grain sorghum and 
soybeans, to those with higher prices, such as alfalfa, cantaloupe, 
peanuts, peppers, potatoes, and watermelon. It should be noted that 
many of these alternative crops are more water-intensive than crops 
previously produced in Chihuahua.

Estimated Irrigation Water Use
    Irrigation water use estimates were derived using irrigated acreage 
numbers from the above analysis and applying them to the CROPWAT model 
version 7 developed by the Food and Agriculture Organization of the 
United Nations. CROPWAT 7 calculates irrigation water use for various 
crops after accounting for local evapo-transpiration rates, water use 
efficiency, rainfall, soil type, and optimum yields for each crop. To 
estimate water use in Chihuahua, CROPWAT was adjusted to reflect actual 
evapo-transpiration rates for Chihuahua based upon semi-arid climactic 
conditions, local rainfall amounts, a medium soil, 50 percent water use 
efficiency, and optimum yields for each crop analyzed. Data were 
lacking for four crops, potatoes, cucumbers, other fruits, and other 
vegetables, so the estimates in this report reflect a lower bound for 
the actual irrigation water used in the state. It should be emphasized 
that these estimates are preliminary and may change as this analysis is 
refined.
    Total estimated irrigation water use in Chihuahua has nearly 
doubled since 1980 from 1.2 maf to a peak usage of 2.3 maf in 1997 
(table 2). Since 1980, average annual irrigation water use increased by 
five percent each year up to the peak usage. The single largest year-
to-year increase in the use of water for irrigation occurred from 1995 
to 1996 when usage expanded by 47 percent, likely due to worsening 
drought conditions in the Rio Conchos basin. Since 1997, irrigation 
water use has fallen to 1.58 maf in 1999, a drop of 31 percent. Between 
1995-99 irrigation water use increased five percent, indicating that 
while reservoirs in the Chihuahua may have fallen due to drought, 
producers switched to underground water sources for irrigation.
    Five crops used 1.173 maf of irrigation water in 1999 and accounted 
for 74 percent of irrigation water use. In order of importance, these 
were: corn (293.6 thousand acre feet-taf), alfalfa (261 taf), cotton 
(224.2 taf), apples (193.9 maf), and pecans (174.8 taf) (table 2). 
Among these top five crops, water use per acre ranged from a low of 
1.92 af for corn to a high of 3.38 af for apples. Due to relatively low 
water delivery efficiency in most of the region and to low water use 
efficiency on farm, these per acre usage figures could increase as this 
analysis is refined to more accurately reflect the actual efficiency of 
water use in the region. It has been estimated that 90 percent of the 
alfalfa and most of the pecan orchards in the region are flood 
irrigated, leading to relatively high rates of water loss due to runoff 
and evaporation (Kelly and Personal interview, Julie Watson Associated 
Press 5/1/02).
    Green peppers, grain sorghum, and wheat together used 197.3 taf of 
irrigation water in 1999 (table 2). Other major crops using irrigation 
water were oats, dry beans, onions, peanuts, and watermelon, which 
together used an estimated 159.3 taf of irrigation water in 1999. Dry 
peppers, tomatoes, peaches, rye grass, and cantaloupe accounted for 
most of the remaining irrigation water use. Among these crops, peaches 
is the most water intensive on a per acre basis (3.38 af), followed by 
tomatoes (2.91 af), cantaloupe (2.03 af), dry peppers (1.76 af), and 
rye grass (1.03 af).

    2. Conclusions
    Despite prolonged drought, irrigation and agricultural production 
have continued in Chihuahua, Mexico. While total irrigated acreage has 
declined 32 percent from the peak in 1997, it has increased over the 
period 1995-99 by three percent, while irrigated production rose 11 
percent. Producers have switched from relatively low profitability 
crops to alternatives that are more profitable and more water-
intensive. As a result, irrigation water use, while down from its peak 
of 2.3 maf in 1997, increased five percent from 1995-99, with the 
largest increase, 47 percent, between 1996 and 1997. It is estimated 
that irrigated alfalfa acreage has increased 11 percent from 1999-2001, 
but production tripled due to higher yields. It is uncertain what 
proportion of total irrigation water is from surface and groundwater 
sources. Increased use of aquifers in the Rio Conchos basin, however, 
will most likely lower the water table in the region, leading to 
reduced runoff and less surface water availability downstream in the 
Rio Grande River.

[GRAPHIC] [TIFF OMITTED] T9406.004

[GRAPHIC] [TIFF OMITTED] T9406.005

[GRAPHIC] [TIFF OMITTED] T9406.006

[GRAPHIC] [TIFF OMITTED] T9406.007

[GRAPHIC] [TIFF OMITTED] T9406.008


</pre></body></html>
